<html>
<title> - PIPELINE SAFETY: ASSESSING THE SAN BRUNO, CALIFORNIA EXPLOSION AND OTHER RECENT ACCIDENTS</title>
<body><pre>[Senate Hearing 111-1075]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 111-1075
 
                       PIPELINE SAFETY: ASSESSING 
                  THE SAN BRUNO, CALIFORNIA EXPLOSION 
                       AND OTHER RECENT ACCIDENTS 

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON SURFACE TRANSPORTATION
                  AND MERCHANT MARINE INFRASTRUCTURE,
                          SAFETY, AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 28, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

68-556 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                 Ann Begeman, Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON SURFACE TRANSPORTATION AND MERCHANT MARINE 
                  INFRASTRUCTURE, SAFETY, AND SECURITY

FRANK R. LAUTENBERG, New Jersey,     JOHN THUNE, South Dakota, Ranking 
    Chairman                             Member
DANIEL K. INOUYE, Hawaii             OLYMPIA J. SNOWE, Maine
JOHN F. KERRY, Massachusetts         JOHN ENSIGN, Nevada
BYRON L. DORGAN, North Dakota        JIM DeMINT, South Carolina
BARBARA BOXER, California            ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           JOHNNY ISAKSON, Georgia
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 28, 2010...............................     1
Statement of Senator Lautenberg..................................     1
Statement of Senator Thune.......................................     6
Statement of Senator Boxer.......................................     7
    Article, dated September 28, 2010, from USA Today, entitled 
      ``8th Victim of San Bruno Pipeline Blast Dies''............     8
    Article, dated September 25, 2010, from the San Francisco 
      Examiner,  entitled ``Family Members Remembered in 
      Aftermath of San Bruno Explosion''.........................     8
    Article, dated September 17, 2010, from the Associated Press, 
      entitled, ``Friends, Neighbors Share Memories of Blast 
      Victims''..................................................     9
    Article, dated September 14, 2010, from the Los Angeles 
      Times, entitled ``81-Year-Old Widow Identified As Fourth 
      Fatality in San Bruno Gas Explosion........................    10
    Article, dated September 10, 2010, from the Los Angeles 
      Times, entitled ``Coroner Identifies 3 Victims in San Bruno 
      Explosion''................................................    11
Statement of Senator Johanns.....................................    12

                               Witnesses

Hon. Dianne Feinstein, U.S. Senator from California..............     1
    Prepared statement...........................................     4
Hon. Cynthia L. Quarterman, Administrator, Pipeline and Hazardous 
  Materials Safety Administration, U.S. Department of 
  Transportation.................................................    13
    Prepared statement...........................................    14
Hon. Christopher A. Hart, Vice Chairman, National Transportation 
  Safety Board...................................................    19
    Prepared statement...........................................    24
Hon. Jim Ruane, Mayor, City of San Bruno, California.............    36
    Prepared statement...........................................    38
Paul Clanon, Executive Director, California Public Utilities 
  Commission.....................................................    40
    Prepared statement...........................................    43
Christopher Johns, President, Pacific Gas and Electric Company...    53
    Prepared statement...........................................    54
Rick Kessler, Vice President, Pipeline Safety Trust..............    58
    Prepared statement...........................................    60

                                Appendix

Letter, dated September 13, 2010, from Senators Barbara Boxer and 
  Dianne Feinstein, to Honorable Cynthia L. Quarterman, 
  Administrator, Pipeline and Hazardous Materials Safety 
  Administration.................................................    79
Letter, dated September 27, 2010, from Honorable Cynthia L. 
  Quarterman, Administrator, Pipeline and Hazardous Materials 
  Safety Administration to Honorable Barbara Boxer...............    79
Response to written questions submitted to Hon. Cynthia L. 
  Quarterman by:
    Hon. Maria Cantwell..........................................    87
    Hon. John Thune..............................................    90
Response to written questions submitted to Hon. Christopher A. 
  Hart by:
    Hon. John Thune..............................................    90
Letter, dated March 25, 2011, to Hon. John D. Rockefeller IV, and 
  Hon. Barbara Boxer from Paul Clanon, Executive Director, State 
  of California, Public Utilities Commission.....................    91
Response to written questions submitted to Christopher Johns by:
    Hon. Barbara Boxer...........................................    92
Response to written questions submitted to Rick Kessler by:
    Hon. Maria Cantwell..........................................   119


                       PIPELINE SAFETY: ASSESSING
                  THE SAN BRUNO, CALIFORNIA EXPLOSION
                       AND OTHER RECENT ACCIDENTS

                              ----------                              


                      TUESDAY, SEPTEMBER 28, 2010

                               U.S. Senate,
         Subcommittee on Surface Transportation and
            Merchant Marine Infrastructure, Safety, and Security,  
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3:05 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Frank R. 
Lautenberg, Chairman of the Subcommittee, presiding.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. My apologies for the delay in starting, 
because today was the funeral service at Arlington for Senator 
Stevens, who was Chairman of this committee at one point--
Chairman of many things in his career, but he was at this 
committee, as well.
    I understand that Senator Feinstein has a heavy calendar, 
which we know always exists here. And I'd be pleased to let you 
make your statement, and we'll make ours. And we'll send you a 
copy, so you don't miss anything.
    [Laughter.]
    Senator Lautenberg. Please, take your time----

              STATEMENT OF HON. DIANNE FEINSTEIN, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Feinstein. Well, thank you very much, Mr. Chairman. 
I very much appreciate that. I'm chairing an Intelligence 
Committee hearing, and it's of some importance, and so, I 
doubly appreciate this courtesy.
    Senator Lautenberg, Senator Thune, my friend and colleague 
Senator Boxer, on September 9, at 6:11, I was watching 
television in my home in San Francisco, and onto the tube 
flashed this explosion. The initial reports--because the 
location was northwest of San Francisco International Airport, 
in the foothills, was that there was possibly an airplane 
crash. Initial witnesses on the television said that the Earth 
shook. It was apparent, after watching this on TV for at least 
a half hour, that the fire did not diminish, that it pumped 
out, that it became almost an incinerator-type fire, and that 
it burned very hot and heavy.
    This was a quiet residential zone. And suddenly it was 
turned into something that resembled a war zone. The 
firefighters actually were powerless. The water main in the 
area had burst in the blast. CAL FIRE helicopters were then 
brought in. This inferno burned for 1 hour and 29 minutes 
before the gas to the 30-inch transmission pipe could be turned 
off at two different locations.
    One of the turn-off valves was a mile from the blast and 
the other was one and a half miles away. Both were in secured 
locations. To shut each valve, a worker needed to drive through 
rush-hour traffic, use a key to get into the area, and attach a 
handle to the valve to crank it. It took more than 5 hours to 
turn off the gas-distribution pipelines to the homes on fire 
because of the gas residually in the pipeline.
    The blaze damaged or destroyed 55 homes, injured 66, and 
killed, at this time, 7 people. It consumed 15 acres.
    The next day, I called the National Transportation Safety 
Board, spoke to its Chairman, who suggested that I meet and 
talk with the Vice Chairman, Chris Hart, who is sitting 
directly behind me. Sunday morning, I did that, and visited San 
Bruno. I know that my friend and colleague Senator Boxer had 
already been there, as had Representative Speier. I walked 
through the devastation with Mr. Hart, Vice Chairman of the 
NTSB. I saw homes and cars totally incinerated. It was like a 
bomb had struck. Sections of pipeline that exploded, now a key 
part of the investigation, appeared to have ripped apart--
appeared to have ripped apart--along longitudinal and circular 
welds, now 60 years old.
    A gaping crater demonstrated the size of the initial blast. 
This crater was located at the low point in the valley. This 
has to be explained. The street went slightly down, like this, 
and then rose. The pipeline went down the middle of the street. 
The explosion was at the low point in the valley.
    This tragedy, I believe, shows the heavy toll in death and 
destruction when high-pressure natural gas pipelines fail. And 
this risk, candidly, is unacceptably high. So, last week I 
joined with my colleague, a distinguished member of this 
subcommittee, Senator Boxer, to introduce the Strengthening 
Pipeline Safety and Enforcement Act. This bill strengthens and 
expands legislation proposed by U.S. Transportation Secretary 
Ray LaHood.
    Here's what the legislation does:
    First, it doubles the number of pipeline safety inspectors 
from the current number of 100, responsible for 217,000 miles 
of Interstate pipeline, to 200. Each inspector is responsible 
for over 2,000 miles of pipeline. That's the distance from San 
Francisco to Chicago. The NTSB recently recommended, and I 
quote, ``Inspectors must establish an aggressive oversight 
program that thoroughly examines each operator's decisionmaking 
process.'' Doubling the number of inspectors will make this 
possible.
    Second, the bill requires deployment of electronic valves 
capable of automatically shutting off gas in a fire or other 
emergency. Manually-operated valves must be located, accessed, 
and physically turned off in an emergency. Automatic valves 
could dramatically reduce damage caused by a pipeline breach.
    Third, the bill mandates inspections by what are called 
``smart pigs''--we call this an ``electronic robot''--that goes 
through the pipe, or the use of an inspection method certified 
by the Secretary of Transportation as equally effective at 
finding corrosion. I've been told it isn't possible to use 
``smart pigs'' everywhere. But, there can be an equally 
efficient method, as approved by the Secretary. Accident 
statistics over the past decade identify corrosion as the 
leading cause of all reported pipeline accidents.
    Fourth, it would prohibit natural gas pipelines from 
operating at high pressure if they cannot be inspected using 
the most effective inspection technology. This is important. 
This was a 30-inch pipeline operating at well over 300 psi. 
There was a lot of gas coming through this pipeline. It was 60 
years old. So, I think this precautionary approach to pipeline 
operations assures that they are more likely to not have 
undetected problems operating at risk.
    Finally, it prioritizes old pipelines in seismic areas for 
the highest level of safety oversight. Today, regulators 
consider a pipeline's proximity to homes and buildings. Other 
risk factors are not a defined consideration, although pipe age 
and seismicity have a clear impact on the risk of a 
catastrophic incident.
    And it directs the Department of Transportation to set 
standards for natural gas leak detention equipment and methods. 
Today, there are no uniform standards how to detect leaks. I 
think that's a big problem throughout the United States.
    And finally, we adopt a number of common sense provisions 
proposed by Secretary LaHood to improve pipeline safety. These 
include: increasing civil penalties, expanding data collection, 
closing jurisdictional loopholes, and requiring consideration 
of a firm safety record when considering its request for 
regulatory waivers.
    I think this is a basic bill. Senator Boxer and I submit it 
to you and urge--it's a work in progress. We don't pretend to 
know all the answers. These seem to us to be the common sense 
answers. We know what state-of-the-art pipeline inspection is. 
We simply don't have it. And I think we need to have it. It's 
going to cost additional people. It's going to cost additional 
money. But, I actually do believe that the utilities using this 
understand this.
    Also, I want to say a word about PG&E. They have truly 
stepped up. They have recognized the liability. They have 
recognized the costs. They have indicated they will make every 
homeowner come out of this--you can't come out equally, but 
they well reimburse every homeowner to the extent of the loss 
if they don't have insurance. They have provided funding and 
hotel rooms, and have made a generous contribution to the city. 
The Mayor is here. I know he's going to testify.
    And so, I think the best way to approach this, really, is 
to listen to the NTSB. I had the privilege of listening to all 
of Chris Hart's press statements, and I can tell the three of 
you, we can be very proud of the National Transportation Safety 
Board. The releases have all been factual, they've all been 
practical. And I think that this is one part of government that 
really is functioning very well on behalf of the people it 
represents.
    So, I want to thank you for taking my testimony. And I 
appreciate the courtesy extended to me.
    [The prepared statement of Senator Feinstein follows:]

    Prepared Statement of Hon. Dianne Feinstein, U.S. Senator from 
                               California
    Good afternoon Chairman Lautenberg, Ranking Member Thune, and other 
members of the Committee. Thank you for giving me the opportunity to 
testify on this very important legislation.
    On September 9, at 6:11 p.m., a natural gas pipeline in San Bruno, 
California, just south of San Francisco, exploded, turning a quiet 
residential area into something resembling a war zone.
    The blast in the Crestmoor neighborhood shook the ground like an 
earthquake.
    The first reports suggested it was a plane crash, as the blast site 
was only two miles from San Francisco International Airport. But as the 
fire raged on it became clear that something was fueling it.
    Firefighters were powerless, as the water main in the area had been 
burst in the blast. Cal Fire helicopters were brought in.
    The inferno burned for one hour and twenty-nine minutes before the 
gas to the 30-inch transmission pipe could be turned off at two 
different locations.
    One of the valves was 1 mile from the blast, and another was 1.5 
miles away.
    They were both in secured locations. To shut each valve, a worker 
needed to drive through rush hour traffic, use a key to get into the 
area, and attach a handle to the valve to crank it.
    It took more than 5 hours to turn off the gas distribution 
pipelines to the homes on fire.
    The blaze damaged or destroyed 55 homes, injured 66, and killed 8 
people. It consumed 15 acres.
    The next day I called the National Transportation Safety Board 
Chair. Two days later, I visited San Bruno. I walked through the 
devastation with Christopher Hart, Vice Chairman of the NTSB.
    I saw homes and cars totally incinerated. It was like a bomb had 
struck.
    The sections of pipeline that exploded--now a key part of the 
investigation--appeared to have ripped apart along longitudinal and 
circular welds, now 60 years old.
    A gaping crater demonstrated the size of the initial blast.
    This crater was located at the low point in the valley, where the 
street and pipeline, that ran down the middle of the street, dipped and 
rose.
    This tragedy shows the heavy toll, in death and destruction, when 
high pressure natural gas pipelines fail. The risk is unacceptably 
high.
    So last week I joined with my colleague, Senator Barbara Boxer, to 
introduce the Strengthening Pipeline Safety and Enforcement Act of 
2010.
    This bill strengthens and expands legislation proposed by U.S. 
Transportation Secretary Ray LaHood. The legislation:

  <bullet> Doubles the number of Federal pipeline safety inspectors. 
        The Pipeline and Hazardous Materials Safety Administration 
        currently has 100 pipeline inspectors, responsible for 217,306 
        miles of interstate pipeline. Each inspector is responsible for 
        2,173 miles of pipeline--the distance from San Francisco to 
        Chicago. NTSB has recently recommended that inspectors ``must 
        establish an aggressive oversight program that thoroughly 
        examines each operator's decision-making process.'' Doubling 
        the number of inspectors will make this possible.

  <bullet> Requires deployment of electronic valves capable of 
        automatically shutting off the gas in a fire or other 
        emergency. Manual operated valves must be located, accessed, 
        and physically turn off in an emergency. Automatic valves could 
        dramatically reduce damage caused by a pipeline breach.

  <bullet> Mandates inspections by ``smart pigs,'' or the use of an 
        inspection method certified by the Secretary of Transportation 
        as equally effective at finding corrosion. Accident statistics 
        over the past decade identify corrosion as the leading cause of 
        all reported pipeline accidents.

  <bullet> Prohibits natural gas pipelines from operating at high 
        pressure if they cannot be inspected using the most effective 
        inspection technology. This precautionary approach to pipeline 
        operations assures that pipelines more likely to have 
        undetected problems are operated at lower risk.

  <bullet> Prioritizes old pipelines in seismic areas for the highest 
        level of safety oversight. Today, regulators consider a 
        pipeline's proximity to homes and buildings. Other risk factors 
        are not a defining consideration, even though pipe age and 
        seismicity have a clear impact on the risk of a catastrophic 
        incident.

  <bullet> Directs the Department of Transportation to set standards 
        for natural gas leak detection equipment and methods. Today 
        there are no uniform national standards for how to detect 
        leaks.

    Finally, the legislation adopts a number of common-sense provisions 
proposed by Secretary L aHood to improve pipeline safety, including:

  <bullet> Increasing civil penalties for safety violations;

  <bullet> Expanding data collection to be included in the national 
        pipeline mapping system;

  <bullet> Closing jurisdictional loopholes to assure greater oversight 
        of unregulated pipelines; and

  <bullet> Requiring consideration of a firm's safety record when 
        considering its request for regulatory waivers.

    Senator Boxer and I introduced this legislation in order to 
initiate quick action to make our pipeline system safer.
    We have put forward our best ideas to improve inspection, address 
old pipes, and advance modern safety technology. We hope to improve 
these ideas as new information comes forward about the San Bruno 
tragedy.
    We look forward to working with the Senate Commerce Committee to 
move and improve this legislation expeditiously. Thank you Mr. 
Chairman.

    Senator Lautenberg. Well, we deeply appreciate your 
commentary, the closeness--the proximity to where you live, 
apparently, and the fact that you and Senator Boxer were 
immediately on the site. It's a very important bit of knowledge 
that you gained in a very short period of time.
    So, we thank you.
    And if my colleagues will forego any questions for the 
moment, permit Senator----
    Senator Feinstein. May I be excused?
    Senator Lautenberg. Certainly.
    Senator Feinstein. Thank you.
    Senator Lautenberg. Thank you.
    Well, we learned a good deal from the recommendations that 
Senator Feinstein and, obviously, Senator Boxer have in 
development of their response to this issue.
    The issue has taken on much-added urgency in the wake of 
the tragic accident in San Bruno, California. Our thoughts go 
out to all who lost loved ones or were injured as a result of 
this tragedy, as well as to those whose homes were destroyed. 
San Bruno, a natural-gas line ruptured, as we heard, below the 
ground, igniting a blaze that sent fireballs into the sky and, 
as we also learned, residents scurrying into the streets. The 
blast did terrible damage--killed 7 people, injured 52 others, 
and destroyed 37 homes.
    And the San Bruno incident followed two pipeline accidents 
in the Midwest this summer, including one leak that spewed more 
than 1 million gallons of oil into a waterway in Michigan. 
These incidents have raised understandable concerns about the 
safety of those who live near pipelines, both existing and 
planned for the future.
    Now, in my state, New Jersey, we've been long concerned 
about these issues, especially since 1994, when a natural gas 
pipeline exploded in Edison, New Jersey, destroying 14 
apartment buildings and leaving more than 100 people homeless. 
Now a company called Spectra Energy Corporation of Texas wants 
to build a natural gas pipeline through Bayonne--a city in New 
Jersey--and Jersey City, one of the more populated areas in my 
state. And we're going to watch this proposal and the project 
very carefully.
    By and large, pipelines are a safe form of transportation. 
But, as we've seen, when accidents do occur, the consequences 
can be catastrophic. And it's very obvious that, though there's 
an improved safety record over transportation of oil and gas 
and other forms, the fact of the matter is that we must 
exercise as much in the way of safety for our communities and 
our families.
    We made significant progress in 2006 when we passed the 
Pipeline Inspection, Protection, Enforcement, and Safety Act, 
known as the PIPES Act. This law includes a provision, that I 
authored, which requires service lines to single-family homes 
to be fitted with excess flow valves that can be automatically 
shut off if a sudden change in pressure is detected in a 
pipeline.
    The PIPES Act also improved excavation safety by 
strengthening the One-Call system, which makes it easier for 
construction companies to notify utility companies about 
digging projects and, therefore, dramatically reduce the risk 
of injury.
    Yet, there's more work to do, which is why I've introduced 
legislation to build on the improvements in the PIPES Act. This 
new bill, in addition to the work that has been done already, 
will require everyone to comply with ``Call Before You Dig,'' 
the requirements under the PIPES Act, by eliminating exceptions 
for State and local governments and their contractors. It will 
also expand the use of excess flow valves to apartment 
buildings and small commercial facilities, as well as require 
the installation of automatic shut-off valves in new pipelines. 
Unfortunately, such a device was missing on the pipeline that 
ruptured in the San Bruno tragedy.
    This bill will also increase the amount of information 
available to the public on inspection results and industry 
standards in high-consequence areas.
    And finally, the bill that I propose will put more pipeline 
inspectors on the job and require the Federal Government to 
establish standards for leak detection on pipes.
    And I look forward to working with my colleagues to pass 
this legislation and make our country's pipelines safer and 
more efficient at the same time.
    So, I look forward to hearing from today's witnesses, but 
we're going to first turn to other members for their opening 
statements.
    And I'll call on Senator Thune and then Senator Boxer.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman.
    This is the second hearing the Subcommittee has held this 
year to examine pipeline safety. And today's hearing is going 
to focus on the devastating and just incredibly tragic accident 
that occurred earlier this month in San Bruno, California. The 
San Bruno accident, as has already been pointed out, caused 
extraordinary damage and devastation in the area, claiming 
seven lives and destroying more than three dozen homes.
    I hope that the representatives from the National 
Transportation Safety Board and the Pipeline and Hazardous 
Materials Safety Administration will also update the 
Subcommittee on the accident that occurred in July in Marshall, 
Michigan. That accident caused significant environmental damage 
to Talmage Creek and the Kalamazoo River. We owe it to those 
who lost their families, friends, or homes in San Bruno, and to 
those affected by the oilspill in Marshall, to find out what 
caused these accidents and to take steps to prevent them from 
ever happening again.
    As you know, Mr. Chairman, the current authorization for 
the Pipeline Safety Program will expire on Thursday. I want to 
thank you and your staff for working diligently over the past 
week to try to develop a bipartisan reauthorization bill. 
Significant progress has been made. I'm particularly pleased at 
the interest, on both sides, in addressing the number-one cause 
of pipeline accidents, which is damage caused by excavation, 
although I hope we will carefully consider the views of the 
states as we move ahead.
    I remain concerned, however, about the approach of the 
Administration's reauthorization proposal, which is the basis 
for the Committee's deliberations. It seems that the overriding 
goal of the Administration is to regulate any and every type of 
pipeline, even some that don't even exist today. And where the 
Administration does not propose to assert jurisdiction 
directly, it seeks authority to collect information which could 
then be used to justify regulation.
    I'm also concerned about the level of resources requested 
by the Administration. It is asking for an additional 40 
inspectors, even though it has yet to fill the 25 positions 
that were authorized by Congress in 2006.
    Mr. Chairman, I hope we can continue to work together to 
craft a proposal we can all support without reservation. Thank 
you for your leadership on this important issue. And I, also, 
look forward to hearing from our witnesses today.
    Senator Lautenberg. Thank you very much, Senator Thune, for 
your willingness to participate in developing a system that 
makes sure that our communities are safer and that this very 
efficient way of moving gas is improved.
    And, with that, I call on Senator Boxer.
    Senator Boxer is someone known for her tenacity and 
determination to make sure that, whatever we do in our society, 
we respect the sanctity of family and life. And she has always 
there when the issues call for attention, and makes sure--I can 
tell you, having worked with Senator Boxer for a long time--all 
the time that she has been here, I've been here--and very few 
people will not pay very sharp attention to proposals put 
forward by Senator Boxer. And we're delighted to have her here 
with us.
    Please, Senator Boxer.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Senator Lautenberg, thank you so much. And, 
Senator Thune, thank you so much, as well.
    I asked for this hearing because we can't move forward 
until we really look at what happened here. This has 
implications for every one of us and every one of our 
communities.
    And as we said, on September 9, a 30-inch transmission gas 
pipeline exploded beneath a densely populated neighborhood, 
creating a massive fireball and a crater 26 feet in diameter. 
So, you might say, ``Well, what the heck was a 30-inch 
transmission gas pipeline doing so close--within reach of the 
homes?'' Well, that original pipeline was laid down in the 
1940s. And this was not a developed area. So, I'm sure if you 
each go back in your communities, you'll find that this is the 
case. And it seems to me--and I think it's common sense--that 
we have to take a look at where these pipeline are, related to 
how close they come to our people that we are sworn to protect 
and defend.
    And tragically, 7 people lost their lives. Another 66 were 
injured, according to my latest statistics. And, of course, all 
of our thoughts and prayers are with their families and their 
loved ones.
    I did go to the neighborhood as soon as I could get there. 
It was a shocking sight. And I would ask my staff if they could 
come over here and, as I'm talking, hold up some photos.
    Large sections, completely demolished, as if the 
neighborhood had been hit by a bomb, as Senator Feinstein said. 
More than three dozen homes completely destroyed.
    And I saw cars in driveways, colleagues, that were 
literally melted. The fire was 2,000 degrees. And when one of 
the fire people started to describe what happened to the people 
in 2,000 degrees, I just said, ``Don't go any further. I 
understand.''
    I am so grateful that San Bruno Mayor Ruane will join us 
later in the hearing to provide his perspective on this 
horrible tragedy.
    I'd like to put in the record some of the family stories. 
And, Mr. Chairman, the reason I want to do this is, I don't 
want us to forget. We talk about seven people, but every story 
here is so important. So, I'd like to put these stories into 
the record, if I might.
    Senator Lautenberg. Without objection.
    [The information referred to follows:]

                USA Today--September 28, 2010--05:29 PM

              8th Victim of San Bruno Pipeline Blast Dies

                       (Posted by Michael Winter)

    A 58-year-old man has succumbed to burns suffered when a gas 
pipeline exploded Sept. 9 in San Bruno, Calif., the eighth person to 
have died from the blast, the San Mateo County coroner reports.
    James Emil Franco was in his rented room in the upstairs of a two-
story home about 200 feet from where the Pacific Gas & Electric main 
blew up in a residential neighborhood. An autopsy is scheduled.
    Federal investigators are looking into whether an electrical 
failure hours earlier at the origin of the 30-inch-diameter pipeline 
played a role in the accident, which injured more than 50 people and 
destroyed 37 homes.
                                 ______
                                 

               San Francisco Examiner--September 25, 2010

     Family Members Remembered in Aftermath of San Bruno Explosion

                             Hugh Patterson

    With all investigatory accusations against PG&E, made by state 
regulators and consumer groups in the wake of the September 9th 
explosion that killed seven San Bruno residents, the media has 
forgotten the emotional agony suffered by those who lost a loved one to 
the devastation. For a little over 2 weeks, relatives of those who lost 
their lives in the horrible fire have had to deal will a grief only 
known by those who have experienced such a loss.
    Among those killed in the pipeline explosion were three generations 
of the Bullis family, 87-year-old Lavonne Bullis, her son Greg Bullis 
and his son, Will Bullis. The three were remembered on Friday during a 
two-hour memorial and funeral at Burlingame's First Presbyterian 
Church. The church was packed to capacity, with overflow rooms 
accommodating additional members of the community who came to say 
farewell to the well loved Bullis family. In the wake of headlines 
packed with estimated dollar figures regarding the cost of this 
terrible accident, the Burlingame service served as a sad reminder of 
the emotional cost paid by those left behind.
    Lavonne Bullis was the matriarchal head of the family, also serving 
as an elder and deacon at the Burlingame church where the services were 
held. Her 50-year-old son Greg, while suffering from chronic back pain, 
put his suffering aside whenever a friend or neighbor needed a helping 
hand. Greg's son, 17-year-old Will, dreamed of becoming a chef. He was 
involved in his school's culinary arts program, loving to share recipes 
with his classmates. The three had been highly regarded by family and 
friends.
    The three died in the seconds just after the ruptured pipeline 
exploded and were only recently identified by the San Mateo County 
Coroner's Office. The explosion also took the lives of mother and 
daughter Jacqueline and Janessa Greig, their neighbor, 81-year-old 
Elizabeth Torres and 20-year-old Jessica Morales. In an ironic twist of 
fate, Jacqueline Greig had been a member of the California Public 
Utilities Commission that was reviewing a PG&E plan for pipeline work 
in the area.
    When terrible accidents befall a community, emphasis is placed on 
the physical devastation and destruction. However, the long and often 
never ending emotional pain suffered by those injured or by those who 
have lost a loved one goes on quietly, lost in a swirl of media 
headlines. While the physical rebuilding of a home takes places 
quickly, the emotional reconstruction of a life takes far longer and 
comes at a greater cost.
    Those badly burned, recovering at the Saint Francis Burn Center in 
San Francisco; face a long and extremely painful ordeal. Third degree 
burns require painful skin grafts and many months of equally painful 
physical therapy. The emotional suffering of those burned includes 
living with the physical scars that can destroy self confidence. For 
them, the ordeal may never be over. Those who lost a loved one must 
face the upcoming holidays knowing that their loved one's won't be 
there to celebrate. The tears they shed will cost them emotionally and 
no financial settlement can replace those who were killed.
    While Committees are formed and investigators close in on the cause 
of the devastating explosion, those left behind, having lost property, 
family or friends, have to start the long process of healing. That 
process continues long after the last home is rebuilt and the last 
lawsuit is settled.
                                 ______
                                 

             Associated Press--Fri September 17, 7:43 pm ET

           Friends, Neighbors Share Memories of Blast Victims

              By Juliana Barbassa, Associated Press Writer

    SAN FRANCISCO--The five women grew up together and shared high 
school and college graduations, weddings, the births of their children 
and family vacations.
    Four of them gathered to mourn the one who was missing--Jacqueline 
Greig, 44, who was killed with her 13-year-old daughter Janessa in a 
natural gas pipeline blast that tore through their house and destroyed 
almost 40 homes in their neighborhood.
    ``She had integrity, poise. She wanted to set a good example, and 
that is what she did,'' said Monica Medina-Campos, one of those 
friends.
    Medina-Campos and Greig had met at St. John Ursuline High School 
for Girls and went on to attend San Francisco State University 
together.
    The friends gathered at a Thursday night vigil that was followed 
Friday by a funeral Mass at Saint Cecilia Catholic Church.
    The caskets of the mother and daughter were covered by a single 
pall and topped by a cross. Jacqueline Greig's husband James and their 
16-year-old daughter Gabriela sat in the front row during the service 
in English and Spanish.
    Children in uniform from Janessa Greig's 8th grade class at the 
church filled several pews.
    Monsignor Michael Harriman told those in attendance that Janessa 
Greig, as student body president, had a role in choosing ``don't stop 
believing'' as the school motto for the year.
    ``So I say to all of you here today, as you are struggling with 
this horrific tragedy, don't stop believing,'' he said.
    Friends said Jacqueline Greig's devotion to family was reflected in 
the achievements of her daughter Janessa, who was remembered by her 
classmates at the vigil as friendly, focused and dedicated to her 
faith.
    The girl with a big smile also found time to write for the school 
paper, act in the drama club, play the piano, take traditional Mexican 
folk dancing classes and volunteer with the Society for the Prevention 
of Cruelty to Animals.
    ``She was wise beyond her years,'' Medina-Campos said.
    Many in the standing-room-only crowd at the vigil knew the mother 
and daughter, who made and kept friends easily and lived a life many 
said served as an example.
    Like her mother, Janessa Greig was remembered for being the first 
to say hello to a newcomer.
    ``She was the only person you can say everyone liked,'' said 
Daniela Zarich, 14, a classmate at St. Cecilia School who knew Janessa 
since kindergarten.
    ``She was always friendly, smiling. That's how I always think of 
her,'' said Jazmin Gonzalez, 12, who took Ballet Folklorico classes 
with Janessa.
    In a recording of a confirmation speech played after the 
congregation said the rosary, Janessa Greig appeared to be a 
thoughtful, well-spoken teen.
    ``In today's society there is so much wrong and so much evil, but 
our faith strengthens us,'' she said during the speech.
    Ironically, Jacqueline Greig worked as an analyst for the 
California Public Utilities Commission and was a member of the natural 
gas committee of the National Association of State Utility Consumer 
Advocates.
    She spent time during the summer looking into a Pacific Gas and 
Electric proposal to replace out-of-date pipes, with no idea that one 
of those pipes ran through her own neighborhood, said Pearlie Sabino, 
one of Greig's co-workers.
    Two other women died in the explosion that occurred just behind the 
home of the Greigs. Three people were missing--all members of the 
Bullis family, who lived just yards from the source of the blast.
    During a vigil for Jessica Morales, 20, nearly 300 family and 
friends gathered at a Daly City mortuary Friday evening to pay tribute 
to the woman who died in her boyfriend's home. Family and friends 
described Morales as a cheerful person with a constant smile.
    ``She was a bubbly person, always happy no matter what she was 
going through,'' said Pastor Mike Allen, who led the service. Eleven-
year-old Isiah Morales, Jessica's younger brother, cried and tried to 
choke back tears as he remembered his big sister.
    ``I'll really, really miss her and I can't believe what happened,'' 
he said.
    ``She was the best sister you could have wished for.''
    Morales was with her boyfriend Joseph Ruigomez when the explosion 
ripped his house apart. He escaped and remained in critical condition.
    Elizabeth Torres, 81, lived next door to the Greigs in a house she 
had occupied for the past 40 years. When the pipeline exploded, Torres, 
a mother of nine children, was with a daughter she lived with and one 
who was visiting. The two daughters and a son-in-law survived and were 
recovering from severe burns in a hospital.
    Associated Press Writer Trevor Hunnicutt contributed to this report 
from Daly City
                                 ______
                                 

                 L.A. Now--September 14, 2010/11:35 am

            81-year-old Widow Identified as Fourth Fatality 
                       in San Bruno Gas Explosion

            John Hoeffel and Maria L. La Ganga in San Bruno

    The San Mateo County coroner Tuesday identified a fourth victim 
killed in the pipeline explosion that tore through a hilly San Bruno 
neighborhood.
    Elizabeth Torres, 81, was among the seven killed in the blast, 
officials said, adding that at least three people are still missing.
    Coroner Robert J. Foucrault said his office is working to determine 
whether additional bone fragments retrieved from the disaster site are 
human. He said it would probably take at least a week to complete that 
work.
    Torres was a widow who lived at 1660 Claremont Drive with her son, 
daughter and son-in-law in the Crestmoor neighborhood. The gas pipeline 
exploded Thursday evening behind her house, and flames ripped across a 
street and through a wooded lot before igniting her home of decades. 
Her home burned to the ground.
    A mother of nine children, Torres had recently returned from a 
gambling trip to the Napa Valley with another daughter, who also was at 
the house Thursday. Torres was at home watching the NFL season opener 
on television when the blast occurred, said a family friend. Three 
family members remain hospitalized with extensive burns at St. Francis 
Hospital in San Francisco.
    Foucrault said the first three victims were identified by dental 
records. They are Jacquelin Greig, 44, her daughter, Janessa Greig, 13, 
and Jessica Morales, 20.
    He said it took longer to confirm Torres was the fourth victim 
because his office had to wait for hospital records. He said Torres was 
identified by a serial number on a therapeutic device that he declined 
to describe.
    Gregory Bullis, 50, his son William, 17, and his mother, Lavonne, 
85, have been reported missing. Bullis' wife was not at home and his 
daughter did not live at home. The Bullis family lived at 1690 
Claremont Drive, three houses from the Torres family.
    Foucrault said the remains were being examined by a forensic dental 
expert and a forensic anthropologist and would be tested at the state 
DNA lab in Richmond.
                                 ______
                                 

                 L.A. Now--September 10, 2010/10:08 pm

          Coroner Identifies 3 Victims in San Bruno Explosion

                            Jill-Marie Jones

    The San Mateo County coroner's office late Friday confirmed the 
identities of three of the four people killed in Thursday's explosion 
and fire in San Bruno.
    They are Jacqueline Greig, 44; her daughter Janessa Greig, 13; and 
Jessica Morales, 20.
    Jacqueline Greig was an employee of the California Public Utilities 
Commission. She worked for an independent branch of the commission 
called the Division of Ratepayer Advocates, which provides input to 
regulators in defense of consumers.
    ``She lived right at the spot where it blew,'' said commission 
President Michael Peevey. ``She and a younger daughter were in the 
house. Her husband and the older daughter were at the daughter's 
school.''
    Relatives of Elizabeth Torres, 81, told the San Francisco Chronicle 
that she is missing and they believe she is the fourth victim.
    They said her house on Claremont Drive was two doors from the site 
of the explosion. A body was found at the home, according to the 
Chronicle, but the coroner's office has not made a positive 
identification.
    More than 50 people were injured in the explosion and fire. Eight 
remain hospitalized. A total of 37 homes were destroyed.

    Senator Boxer. So, the investigation is ongoing, and it 
will take a while. And the NTSB is phenomenal, and I share 
Senator Feinstein's confidence, but it will take them up to 18 
months to come up with an answer here that they can be sure of.
    So, I don't think we can wait. We know, if there was an 
automatic shut-off valve, we wouldn't be here today. We would 
be mentioning, ``Isn't it amazing how all these automatic shut-
off valves work?'' So, that's why Senator Feinstein and I got 
together and we built on a proposal by the Administration. It 
includes additional provisions that were raised by the 
incident. And I won't repeat what Senator Feinstein said. She 
did talk about the number of Federal inspectors. I'm interested 
in Senator Thune's comments; if we're behind in filling 20 
inspectors, we ought to get that done, because we have 
thousands of miles of pipeline that we're responsible for in 
the Federal Government--interstate, rather than intrastate. And 
they need to be inspected, clearly. And we're looking to DOT to 
promulgate these regulations for the installation of automatic 
and remote shut-off valves in high-consequence areas, meaning 
areas where these pipelines are running close to where people 
live.
    We have taken action over the past decade to improve the 
safety of our pipelines. But, the San Bruno tragedy makes it 
clear we must do more. It's critical that confidence be 
restored and that the utilities and the regulatory agencies 
responsible for pipelines are held accountable for the safety 
of their pipelines. And I look forward to working with all of 
my colleagues. This is not a partisan issue. This could happen 
anywhere, anytime, to anyone. And it is our job, first and 
foremost, to make sure that we have regulations in place that 
make sense.
    This isn't a battle between regulation and no regulation. 
It's a question of smart regulation. And that's what I'm 
looking for here.
    So, I'm so pleased to see that both Senators Lautenberg and 
Thune are here, that Senator Johanns is here. Senator Feinstein 
and I look forward to working with all of you.
    Thank you very much.
    Senator Lautenberg. Thank you very much, Senator Boxer.
    Senator Johanns, please.

                STATEMENT OF HON. MIKE JOHANNS, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Johanns. Thank you, Mr. Chairman.
    Let me also express my condolences to the families 
involved.
    And, to the two Senators from the State of California, 
thank you for pushing for this hearing. I think it's very 
important. Obviously, a terrible, terrible tragedy.
    And, Mr. Chairman, thank you for your leadership on this.
    I was reviewing the materials that the staff prepared for 
this hearing. In our materials, there's a map of hazardous 
liquid pipelines in the United States, and a map of gas 
transmission pipelines. And if there's one thing that's very, 
very clear from those maps, it's this: pipelines are 
everywhere. I was studying the maps, and I don't believe any 
State is unaffected by what's going on in this hearing today. 
And that just underscores the importance, but it also brings to 
us the reality that pipelines are a fact of life in the United 
States. We can't do without them. We need them to heat our 
homes and to run our factories, and all of the other important 
uses. But, the reality is, somehow, someway, we've got to get a 
handle on how best to manage the safety concerns--and, I might 
add, the environmental concerns--involved with the pipelines.
    In my own State, we are dealing with a company from Canada 
that wants to put a pipeline through the State. It's the 
Keystone XL project. We're trying to get a better understanding 
of why this pipeline was sited where it was, because it is 
sited right through the most sensitive environmental area in 
the entire State. It goes right through the Ogallala Aquifer-- 
very, very sandy soil. This pipeline will sit in water. So, 
literally, the day it's installed, because the water table is 
so high, a portion of this pipeline will literally sit in 
water.
    I am here today to try to make the case that some how, some 
way, recognizing that pipelines are a fact of life, we've got 
to figure out how to do a better job of managing this.
    You know, I look at the statistics, and it is nearly 
overwhelming. We have a situation where I think we have 104 
inspectors today, authorized to go a bit higher than that. In 
2009, there were 884 inspections. There are 400 State 
inspectors and about 8,000 inspections. And I'm sure people are 
working as hard and as smart as they can, but the reality is, 
with the tens of thousands of miles of pipeline, it just 
appears to me we're only scratching the surface. Now, we can't 
send a human being to inspect every foot of our Nation's 
pipelines every year, nor would that, probably, be necessary, 
but I would suspect that there's vast mileage here that is left 
uninspected for years and years. And I'm anxious to hear more 
about that.
    I raise those concerns, but I know those are concerns 
shared by everybody that is here, so I'll just wrap up and say 
again how much I appreciate the opportunity to be here.
    And, Mr. Chairman, thank you for pulling this hearing 
together.
    Senator Lautenberg. Thank you for your comments, Senator. 
And thank you for raising a concern about the material from 
which this oil is going to be extracted--tar sand. And that's 
dirty oil, and requires a lot of energy to cleanse it before it 
gets into the pipeline, and the consequences for the 
environment are really quite a matter of great concern. So, we 
thank you and look forward to working with you on our 
legislation.
    Now, I'd like to call our second panel of witnesses, Ms. 
Cynthia Quarterman, Administrator for Pipeline and Hazardous 
Material Safety Administration.
    And, Ms. Quarterman, welcome. We've had a chance to talk to 
you before and hear your comments. We look forward to that.
    Mr. Hart, Vice Chairman of the National Transportation 
Safety Board. We look forward also to your expertise.
    And we ask you to hold your comments to 5 minutes. Without 
any invitation to extend, there is a little bit of tolerance, 
but it mounts steeply into control.
    So, we thank you, and ask you, Ms. Quarterman, to give your 
testimony.

            STATEMENT OF HON. CYNTHIA L. QUARTERMAN,

        ADMINISTRATOR, PIPELINE AND HAZARDOUS MATERIALS

    SAFETY ADMINISTRATION, U.S. DEPARTMENT OF TRANSPORTATION

    Ms. Quarterman. Thank you. Good afternoon.
    Chairman Lautenberg, Ranking Member Thune, and members of 
the Subcommittee, thank you for the opportunity to appear today 
and discuss the oversight responsibility of the United States 
Department of Transportation's Pipeline and Hazardous Materials 
Safety Administration and the Obama Administration's 
legislative proposal for the Department's Pipeline Safety 
Program.
    Before I discuss these topics, I would like to once again, 
send my sincere condolences to the families who have been 
severely affected by this recent incident in San Bruno.
    Following the incident, I joined PHMSA investigators on the 
scene in San Bruno who were supporting the NTSB's efforts and 
the California Public Utility Commission. I saw firsthand the 
devastating impact this incident is having on that community. 
Incidents such as this and the recent oil pipeline failure in 
Marshall, Michigan, must not happen.
    As the sole Federal agency with regulatory oversight for 
the safety of pipelines, we must do our part to keep 
communities free of risk and exposure to pipeline failures and 
enhance public confidence in the safety of the Nation's energy 
pipelines.
    To ensure that safety is not only the Department's top 
priority, but also the top priority of those we regulate, 
Secretary LaHood unveiled a legislative proposal this month 
that would strengthen the Department's regulatory authority and 
oversight capabilities for pipelines. The proposal is designed 
to hold all operators accountable for operating their pipelines 
in a safe and environmentally sound manner.
    Among other things, the proposal would raise the maximum 
penalty for the most serious violations from 1 million to 2 and 
a half million dollars. It would authorize 40 additional 
Federal inspection and enforcement personnel over 4 years. The 
legislative proposal would complement additional regulatory 
initiatives that are under consideration to continue to improve 
pipeline safety.
    Specifically, PHMSA is considering: identifying additional 
areas along pipelines that should receive extra protection; 
establishing minimum requirements for point-to-point leak 
detection systems for all pipelines; and requiring the 
installation of emergency flow-restricting devices that would 
isolate leaking pipeline sections, minimizing the amount of 
product released, among other initiatives.
    Mr. Chairman, ensuring the safety and reliability of the 
Nation's hazardous liquid and natural gas pipeline network is 
an enormous task. The recent pipeline failure in California and 
in Michigan show that prompt passage of this legislation is 
more important now than ever. The Department and PHMSA look 
forward to working closely with this subcommittee to ensure the 
Nation's pipeline network is safe, reliable, and subject to the 
most stringent oversight feasible.
    Thank you. I'd be pleased to answer any questions you might 
have.
    [The prepared statement of Ms. Quarterman follows:]

   Prepared Statement of Hon. Cynthia L. Quarterman, Administrator, 
Pipeline and Hazardous Materials Safety Administration, U.S. Department 
                           of Transportation
    Chairman Lautenberg, Ranking Member Thune, and members of the 
Subcommittee, thank you for the opportunity to discuss the U.S. 
Department of Transportation's Pipeline and Hazardous Materials Safety 
Administration's (PHMSA) legislative proposal, reauthorization 
priorities, and regulatory initiatives.
    Safety is the number one priority of Secretary Ray LaHood, myself, 
and the employees of PHMSA. On behalf of all of us, I would like to 
extend condolences to the families of all those whose lives were 
forever changed by the Pacific Gas and Electric natural gas pipeline 
failure on September 9, 2010. The Department is actively working to 
ensure the safety and reliability of the Nation's pipeline 
transportation infrastructure and prevent releases on the 2.5 million 
miles of pipelines it oversees. Over the past 20 years, all the 
traditional measures of risk exposure have been rising--population, 
energy consumption, pipeline ton-miles. At the same time, the number of 
significant incidents involving pipelines has declined 50 percent.
    While our safety record continues to improve with the incidence of 
fewer pipeline accidents, failures such as the recent pipeline 
incidents in San Bruno, California and Marshall, Michigan are 
unacceptable. Mr. Chairman, members of the Subcommittee, I assure you 
that PHMSA, through aggressive regulation and oversight, will use its 
full enforcement authority to ensure that operators meet pipeline 
safety standards. We respectfully request your support in this regard.
    The Department's pipeline oversight program is based on three 
fundamental tenets:

  <bullet> First, PHMSA must establish safety standards that are both 
        prescriptive and risk-based, verify that operators perform to 
        these standards, and take enforcement actions against operators 
        if they are not in compliance with these standards.

  <bullet> Second, PHMSA can impact safety culture and operator 
        performance beyond minimum compliance with the regulations.

  <bullet> Third, pipeline operators must understand and manage the 
        risks associated with their pipelines, including taking actions 
        to prevent pipeline failures and minimizing the impact of any 
        releases should they occur.

    However, as recent pipeline failures have shown, the Department 
needs stronger authority in several key areas of its pipeline safety 
program. To ensure safety is not only our top priority, but also the 
top priority of those we regulate, the Department submitted a 
legislative proposal to strengthen pipeline safety through new 
regulatory authority, increased penalties, and authorization levels 
that will strengthen our state partnerships and expand our inspection 
staff. In addition, the Department is working on significant 
rulemakings to increase regulatory oversight and improve guidance to 
operators as well as other efforts to increase coordination with 
partners and to support research and development.
I. Strong Legislation
    This month, Secretary LaHood presented to Congress the 
Administration's legislative initiative for the reauthorization of the 
Department's pipeline safety program entitled, ``Strengthening Pipeline 
Safety and Enforcement Act of 2010.'' This legislative proposal is 
designed to hold all pipeline operators accountable for operating their 
pipelines in a safe and environmentally sound manner. It strengthens 
enforcement authority and increases inspection and enforcement 
resources, closes regulatory gaps, lays the groundwork for expanding 
integrity management programs beyond existing high consequence areas to 
additional areas, improves pipeline infrastructure data collection, and 
advances safety in other important ways.
    The proposal provides significant updates to the inspection and 
enforcement program. The Administration's proposal provides for forty 
(40) additional inspection and enforcement personnel to allow a greater 
frequency of inspections. The additional inspectors will also improve 
oversight of new pipeline construction that is critical given the 
significant increase in pipeline construction that has occurred in 
recent years. The proposal also increases the maximum administrative 
civil penalties for violations of the pipeline safety regulations by 
250 percent for the most serious incidents involving fatalities, 
injuries, or environmental harm. Finally, the proposal makes 
obstruction of an inspection or investigation punishable by the 
assessment of penalties and clarifies the Department's authority to 
refer pipeline enforcement cases to the Department of Justice for 
penalty actions.
    The Administration is proposing that Congress remove the statutory 
exemptions in current law for gas and hazardous liquid gathering lines 
that operate upstream of transmission lines. While gathering lines were 
once considered to be low risk due to being remotely located near 
production areas, the ever-increasing growth of business and 
residential areas means that communities where people live and work are 
now located closer to gathering lines than ever before. Should Congress 
remove the statutory exemptions, the Department would then be able to 
review the corresponding exemptions in the regulations and remove them 
as necessary. The proposal also authorizes data collection on 
transportation-related oil flow lines. These pipelines transport 
product from a production facility to another pipeline and the 
Department needs additional data to determine the need to install its 
safety regulations on these pipelines, which are often located in 
environmentally sensitive areas. These facilities and associated piping 
are currently considered non-transportation-related pursuant to 
Executive Order 12777 and are regulated by the Environmental Protection 
Agency.
    With respect to integrity management programs, the proposal would 
include a review of whether pipeline safety would be improved by 
expanding and revising the integrity management program requirements 
beyond existing high consequence areas to additional areas. The 
Administration believes that the time has come for pipeline operators 
to apply the latest in-line inspection technologies over the widest 
possible areas of their systems to ensure safety and environmental 
protection.
    The proposal enhances data collection beginning with data on design 
specifications for new pipeline construction projects. In addition, the 
Department will collect pipeline infrastructure data on formerly 
unregulated pipelines such as the gathering and transportation-related 
flow lines already discussed as well as additional geospatial, mapping, 
and incident data on existing pipelines. The Department is committed to 
ensuring that strong regulatory action is taken where incident data 
shows it is needed. The proposal also provides a cost recovery 
mechanism for design and construction reviews and will facilitate 
better coordination with the State of Alaska and other agencies on 
pipeline construction and expansion projects.
II. Reauthorization Priorities
1. PHMSA's Reauthorization Proposal Strengthens Its Assistance to 
        States and First Responders
    State pipeline safety agencies are PHMSA's most important asset in 
assuring the safety of pipelines in American communities. PHMSA's 
partnership with state pipeline safety agencies have always been the 
cornerstone of the program. States oversee the bulk of the pipeline 
infrastructure. Specifically, states are responsible for oversight of 
virtually all gas distribution pipelines, gas gathering pipelines and 
intrastate gas transmission, as well as 88 percent of intrastate 
hazardous liquid pipelines and 20 percent of the interstate gas 
pipelines. PHMSA maintains primary responsibility for the remaining 
pipelines, including all interstate hazardous liquid pipelines and 80 
percent of the interstate gas pipelines. States employ approximately 63 
percent of the inspector work force. The recent expansion of Federal 
pipeline safety initiatives, such as Distribution Integrity Management 
(DIMP) has increased the resource demands on both Federal and state 
pipeline safety agencies.
    In 2006, Congress increased PHMSA's ability to provide grants to 
state pipeline safety agencies to offset the costs associated with the 
statutory requirements for their inspection and enforcement programs. 
In addition, Congress gave PHMSA considerable resources to expand its 
relationship with state pipeline safety agencies, enabling increased 
policy collaboration, training, information sharing, and data quality 
and collection. In FY 2010, PHMSA's $40.5 million appropriation to 
support state programs will fund 54 percent of state pipeline safety 
programs. Additionally, the President's FY 2011 request includes an 
increase in funds to support state programs totaling approximately 
$44.5 million, which would reflect a 65 percent funding of the state 
pipeline safety programs.
    The importance of these programs was made clear on September 9, 
2010 when a 30-inch transmission line, known as Line 132, that carries 
natural gas to San Francisco ruptured and caught fire. The San Bruno 
pipeline accident involved an intrastate transmission line regulated by 
the California Public Utilities Commission (CA PUC). The National 
Transportation Safety Board (NTSB) has launched an investigation into 
the causes of the accident, and PHMSA immediately dispatched two 
additional investigators to support NTSB and CA PUC efforts. The 
pipeline is currently shut down in the immediate area of the rupture. 
The remaining portions of Line 132 have been reduced in pressure by 20 
percent to increase safety until the causes of the accident are 
identified. At that time, any additional necessary safety mandates can 
be ordered. The CA PUC regulates the line pursuant to an agreement with 
PHMSA. The pipeline safety statute allows states to regulate intrastate 
pipelines provided that PHMSA certifies that the states have adopted, 
and are enforcing, the pipeline safety regulations. PHMSA has a 
certification agreement with CA PUC and under this framework the state 
agency inspects intrastate natural gas lines that are operated by 
public utilities and enforces the pipeline safety regulations, and 
PHMSA conducts annual reviews of CA PUC's performance in this regard 
and provides funding for California's pipeline safety program. PHMSA 
provided CA PUC with $1,405,282 (including $516,120 of suspension 
funding) for its 2009 gas pipeline safety program.
    PHMSA has learned that the success of its efforts to constantly 
improve safety is multiplied by sharing responsibility and 
accomplishments with pipeline safety stakeholders, both within the 
Federal family and with states and communities. PHMSA proposes to 
continue supporting strong relationships with other organizations 
involved in responding to pipeline incidents and emergencies. When 
PHMSA responds to an incident, its primary concerns are the public's 
safety and determining an operator's compliance with PHMSA's 
regulations. PHMSA is often requested to share information and support 
the investigations of other agencies. In addition, PHMSA has a long 
history of working closely with local emergency officials in response 
to pipeline emergencies and its staff effectively participates in 
incidents where there is an Integrated Command Post. Still, the 
Department must do more. The Department has reached out to 
Environmental Protection Agency and the U.S. Coast Guard suggesting a 
new Memorandum of Understanding to ensure coordination during oil spill 
response.
2. PHMSA's Reauthorization Proposal Strengthens Damage Prevention 
        Efforts
    The vast majority of America's pipeline network is underground 
making pipelines vulnerable to ``dig-ins'' by third-party excavators. 
While excavation damage is 100 percent preventable, it remains a 
leading cause of pipeline incidents involving fatalities and injuries. 
Three-quarters of all serious consequences from pipeline failures 
relate to distribution systems and more than one-third of these 
failures are caused by excavation damage. PHMSA's goal is to 
significantly reduce excavation damage with strong outreach and public 
awareness programs. As evident in the chart below, PHMSA is making 
progress.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Pipeline Inspection, Protection, Enforcement, and Safety Act of 
2006 authorizes PHMSA to award State Damage Prevention (SDP) grants to 
fund improvements in damage prevention programs. Each state has 
established laws and procedures shaping its state damage prevention 
program. Since 2008, PHMSA provided over $4 million in SDP grants to 30 
distinct state organizations. Eligible grantees include state one call 
centers, state pipeline safety agencies, or any organization created by 
state law and designated by the Governor as the authorized recipient of 
the funding.
    SDP grants reinforce nine specific elements that make up the 
components of an effective damage prevention program, under the PIPES 
Act:

        1. Enhances communications between operators and excavators;

        2. Fosters support and partnership of all stakeholders;

        3. Encourages operator's use of performance measures for 
        locators;

        4. Encourages partnership in employee training;

        5. Encourages partnership in public education;

        6. Defines roles of enforcement agencies in resolving issues;

        7. Encourages fair and consistent enforcement of the law;

        8. Encourages use of technology to improve the locating 
        process; and

        9. Encourages use of data analysis to continually improve 
        program effectiveness.

    PHMSA's Technological Development Grants program makes grants to an 
organization or entity (not including for-profit entities) to develop 
technologies that will facilitate the prevention of pipeline damage 
caused by demolition, excavation, tunneling, or construction 
activities. A total of $500,000 was appropriated for the program in 
2009. Two awards have been made to date.
    PHMSA also uses the authority in the PIPES Act to promote public 
education awareness with national programs such as, ``811--Call Before 
You Dig Program'' through the Common Ground Alliance (CGA). PHMSA has 
provided over $2.2 million in funding assistance for CGA's 811 
advertising campaign since 2002.
    PHMSA is proud of its continued and steady leadership in supporting 
national and state damage prevention programs. In March 2010, we 
participated in the CGA's annual meeting highlighting the importance of 
the National ``811--Call Before You Dig Program.'' In April 2010, 
Transportation Secretary LaHood acknowledged the importance of calling 
before you dig by establishing April as ``National Safe Digging 
Month.'' The U.S. Senate and the House of Representatives both 
introduced resolutions designating April 2010 as ``National Safe 
Digging Month.'' At our urging, forty states, including those 
represented by the members of this committee, also followed suit. The 
efforts driven and supported by PHMSA, involved the CGA, many states, 
and damage prevention stakeholders from around the country, who are 
advocates for safe excavation practices.
3. PHMSA's Proposal Strengthens the Pipelines and Informed Planning 
        Alliance Advances Smart Growth along Pipelines in Our 
        Communities
    PHMSA has conducted numerous activities to inform the public and 
engage public interest and participation in all of its initiatives. We 
funded publicly accessible, Internet broadcast viewing of two pipeline 
events sponsored by the Pipeline Safety Trust, including a focus on 
safer land use planning. We have made one grant and may make others to 
professional associations of county and city government officials to 
represent the public in the Pipelines and Informed Planning Alliance 
(PIPA). PIPA is an initiative organized by PHMSA to encourage the 
development and use of risk-informed land use guidelines to protect 
pipelines and communities.
    A companion effort is helping communities understand where 
pipelines are located, who owns and operates them, and what other 
information is available for community planning. Following the passage 
of the PIPES Act, PHMSA worked with the Department of Homeland Security 
(DHS)/Transportation Security Administration (TSA) to resolve concerns 
about sensitive security information. Vital information that 
communities need for land use, environmental, and emergency planning 
around pipelines is now publicly available through PHMSA's National 
Pipeline Mapping System (NPMS). We continue to work with states, 
industry, and other stakeholders to make the NPMS information more 
accurate and useful.
4. PHMSA's Proposal Continues to Invest in Research and Development
    PHMSA proposed to continue investing in research and development, 
as well as community involvement. PHMSA recently announced it is 
awarding seventeen research contracts totaling $5.9 million to 
companies and institutions for the development of new projects that 
provide innovative solutions to improving pipeline safety and 
protecting the environment. The awards will support the development of 
research projects targeted at addressing the associated challenges of 
pipeline safety with the detection, prevention, and characterization of 
threats and leaks, and construction quality. To date, PHMSA has 
invested over $57 million for 161 projects focused on providing 
solutions for detecting pipeline leaks, preventing damages to 
pipelines, improvements in pipeline materials, and improved pipeline 
system controls, monitoring, and operations.
III. Regulatory Initiatives
    Under the Obama Administration, PHMSA has begun a comprehensive 
review of the existing pipeline safety regime and developed initial 
solutions, through legislation, potential rulemaking, and other 
actions, to ensure that all pipelines are adequately regulated and that 
operators put safety first.
    The Department's legislative proposal will complement its 
additional planned regulatory initiatives to continue to improve 
pipeline safety. In addition to finalizing the DIMP, Control Room 
Management and Low Stress Pipeline rules, the Department intends to 
propose additional regulatory actions to further strengthen and improve 
the pipeline safety regulations in light of the lessons learned from 
the recent pipeline failure incidents. As a result, the Department is 
considering a number of important regulatory actions. Specifically, the 
Department will consider:

  <bullet> Removing regulatory exemptions for certain unregulated 
        pipelines;

  <bullet> Identifying additional areas along pipelines that should 
        receive extra protection or be included in the high consequence 
        area category for integrity management protection;

  <bullet> Establishing minimum requirements for point-to-point leak 
        detection systems;

  <bullet> Requiring the installation of emergency flow restricting 
        devices in certain areas that can rapidly isolate a leaking 
        section of pipeline and minimize the volume of product 
        released;

  <bullet> Revising valve spacing requirements on new construction or 
        existing pipelines to specify the maximum allowable distance 
        between valves and/or require that valves be used in certain 
        locations;

  <bullet> Strengthening criteria for repairs and establishing repair 
        requirements and time frames for pipeline segments located in 
        areas outside high consequence areas that are assessed as part 
        of an operator's integrity management program; and

  <bullet> Adopting standards and procedures for improving the methods 
        of preventing, detecting, assessing and remediating stress 
        corrosion cracking.

    PHMSA also issued a Notice of Proposed Rulemaking (NPRM) on 
September 10, 2010, proposing to move up the deadlines in the Control 
Room Management rule. This rule addresses human factors, including 
fatigue and other aspects of control room management for pipelines 
where controllers use supervisory control and data acquisition (SCADA) 
systems. Controllers play a key role in preventing accidents and the 
rule addresses controller responsibilities, training, alarm management, 
changing pipeline equipment or configurations, and incident response. 
The final rule set a program development deadline of August 1, 2011, 
and a subsequent program implementation deadline of February 1, 2013. 
The NPRM proposes to expedite the program implementation deadline for 
most standards to August 1, 2011.
    PHMSA has also conducted a thorough review of its inspection and 
enforcement related regulations, procedures, and guidance, as well as 
its data collection and transparency efforts, and has taken the 
following actions:

        October 2009--Provided grants and other assistance to 
        strengthen state damage prevention programs and issued an ANPRM 
        to solicit comment on establishing criteria for state damage 
        prevention enforcement. This will satisfy the prerequisite for 
        direct Federal enforcement against excavators who violate one 
        call requirements in those states with inadequate damage 
        prevention enforcement programs. PHMSA is working to issue a 
        follow-up NPRM and final rule.

        December 2009--Required operators of gas distribution pipelines 
        to develop and implement integrity management programs similar 
        to those required for gas transmission and hazardous liquid 
        pipelines.

        December 2009--Issued a Final Rule to address human factors and 
        other aspects of control room management for pipelines where 
        controllers use SCADA systems. This rule addressed several NTSB 
        recommendations.

        January 2010--Issued an Advisory Bulletin reminding hazardous 
        liquid pipeline operators of the importance of prompt and 
        effective leak detection capability in protecting public safety 
        and the environment.

        March 2010--Notified owners and operators of recently 
        constructed large diameter natural gas pipeline and hazardous 
        liquid pipeline systems of the potential for girth weld 
        failures due to welding quality issues.

        June 2010--Issued an Advisory Bulletin to operators of onshore 
        hazardous liquid pipeline facilities required to prepare and 
        submit an oil-spill response plan, requiring them to ensure 
        full compliance.

        June 2010--Issued a NPRM regarding the regulation of the 
        remaining population of unregulated rural hazardous liquid low 
        stress pipelines as required by the Pipeline Inspection, 
        Protection, Enforcement, and Safety Act of 2006.

        Summer/Fall 2010--Reviewed its regulatory oversight of offshore 
        transportation platforms.

    We are confident that these enhancements to PHMSA's safety 
regulations will improve safety and reduce the likelihood of 
significant spills.
IV. Conclusion
    Mr. Chairman, safety is the Department's highest priority. I assure 
you that the Department will remain vigilant in ensuring the safety and 
integrity of all pipelines under its jurisdiction.
    Thank you and I am happy to respond to your questions.

    Senator Lautenberg. Thank you very much, Ms. Quarterman.
    Now, Mr. Hart, thank you.

STATEMENT OF HON. CHRISTOPHER A. HART, VICE CHAIRMAN, NATIONAL 
                  TRANSPORTATION SAFETY BOARD

    Mr. Hart. Thank you very much.
    Chairman Lautenberg, Ranking Member Thune, members of the 
Subcommittee, thank you very much for the opportunity to 
address you regarding the pipeline explosion in San Bruno. I 
also want to start by thanking Senators Boxer and Feinstein, 
for their very kind compliments about the National 
Transportation Safety Board. I am honored to be at the NTSB, 
because it's an agency with a lot of smart people who are 
vigorous detectives. They don't stop until they find the 
answer; and they're not going to stop until they find the cause 
of this accident.
    On behalf of the NTSB, I offer my condolences, to the 
family and friends of the victims, and a speedy recovery for 
those who were injured. I extend my thoughts to those who have 
suffered loss or damage to their homes or property.
    As we've heard, on September 9, at about 6:11 p.m., a 30-
inch Pacific Gas and Electric natural gas transmission line in 
San Bruno, California, operating at just under 400 psi, 
ruptured. The NTSB launched to that accident the next day. The 
reason the Committee asked me to be here today is because I was 
the Board Member on-scene.
    The rupture was along line 132, and as you see on the 
slide, it runs from Milpitas to Martin, and the rupture 
occurred just south of San Francisco. The explosion blew a 28-
foot section of the pipe from under the ground 100 feet away. 
As you've already heard, the explosion and fire resulted in 
eight fatalities, and some 55 homes were destroyed or damaged.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    We're still developing the timeline on the response to this 
event. Our latest information is that a few minutes after 6 
p.m., PG&E received a high-pressure alarm at the Martin 
station, the station that's shown on the north side of the 
slide, followed a few minutes later by a low-pressure alarm at 
the Milpitas Station. So, after PG&E received calls about a 
fire, they dispatched technicians, who closed the upstream 
valve, which is .84 pipeline miles from the rupture, at 7:20 
p.m.; and they closed the downstream valve, which is .72 
pipeline miles from the rupture, at 7:40 p.m.
    Our team arrived the next day. We began by documenting 
information, talking with first responders, taking pictures and 
measurements, taking 28-foot section of pipe and the adjacent 
sections back to D.C., where they are now, for further 
metallurgical examination. We were trying to do the on-site 
work first, in order to release the site back, to help enable 
the return of families to their houses.
    The crater from which the 28-foot section of pipe was blown 
is shown in this slide. The next slide shows the 28-foot 
section of pipe on the street, where it landed. The next slide 
shows the 28-foot section of pipe in our D.C. facility, where 
it will undergo a very detailed metallurgical examination. We 
will be looking at all the possible causes of this mishap, 
including corrosion, and whether there was damage from a nearby 
excavation. We'll be looking at all the potential causes to 
determine exactly what caused this burst.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    We aim to produce a final report in 12 months, and that's 
because it's a very detailed, exhaustive investigation. 
Meanwhile, let me emphasize if we see anything that needs 
immediate attention before the final report comes out, we will, 
and have done so in the past, issue urgent recommendations 
without waiting for the completion of the report.
    The reason it's going to be a challenge for us to complete 
the report in 12 months is because, as you've heard, we've had 
three other pipeline mishaps since June. In July, there was the 
30-inch Enbridge Energy Partners oil pipeline, in Marshall, 
Michigan, that spilled nearly 100 million gallons of oil into 
the Talmage Creek and the Kalamazoo River. In addition to that 
accident, this month, another Enbridge oil pipeline, in 
Romeoville, Illinois, ruptured. And then, in addition to that, 
there was a gas pipeline struck by a contractor in Cleburne, 
Texas, that resulted in a fatality. As a result, our pipeline 
folks are busy.
    The typical issues that we look into in these 
investigations start with monitoring and control through the 
supervisory, control, and data acquisition operations--the 
acronym for that is SCADA, that you've seen. We will be looking 
at pipeline controller performance--the specifics regarding the 
individuals who were involved in operating the pipeline; the 
operator's notification and spill response--how quickly people 
were notified, and how quickly they responded, as well as the 
response by the nearby local emergency responders, including 
the San Francisco Airport. We will be looking at the 
inspection, maintenance, and history of this pipeline, to 
determine if there were historical problems that could have led 
to this rupture. We will also be looking at how well the 
system, the operator, and its integrity management plan were 
overseen by the regulator; and we will be looking, generally, 
at aging pipelines, because several of the pipeline explosions 
we've investigated in the last several years have involved 
pipelines more than 30 years old.
    We will also be looking at the issue of urban development 
around already existing pipelines, because I agree with what 
we've heard before, that there's probably a lot more of that 
around. We need to consider the fact that these pipelines were 
installed in times when they were not in densely populated 
areas, but today they are.
    Thank you for the opportunity to appear before you. I will 
be happy to respond to any questions you may have.
    [The prepared statement of Mr. Hart follows:]

    Prepared Statement of Hon. Christopher A. Hart, Vice Chairman, 
                  National Transportation Safety Board
    Chairman Lautenberg, Ranking Member Thune, members of the 
Subcommittee, thank you for the opportunity to address you today on the 
pipeline rupture in San Bruno, California. This accident is truly a 
tragedy, and I would like to begin by expressing condolences on behalf 
of the National Transportation Safety Board (NTSB) to the families and 
friends who lost loved ones in this accident. For those who were 
injured, we offer our hopes for a speedy recovery, and we extend our 
thoughts to those whose suffered loss or damage to their homes and 
property.
San Bruno
    At approximately 6:11 p.m. Pacific Daylight Time on September 9, a 
pipeline rupture occurred in a residential area in San Bruno, 
California. On September 10, the NTSB launched a team to California to 
investigate this tragedy. I was the NTSB Board Member on scene in San 
Bruno.
    Pacific Gas and Electric Company's (PG&E) 30-inch diameter pipeline 
(Line 132), with 0.375 inch steel thick wall, ruptured at the 
intersection of Earl Avenue and Glenview Drive in the City of San 
Bruno, CA. This line is regulated by the California Public Utilities 
Commission (CPUC). Approximately, 115 million cubic feet of natural gas 
were released. The released natural gas was ignited sometime afterwards 
with the resultant explosion and fire destroying or damaging nearby 
homes. The rupture created a crater approximately 72 feet long by 26 
feet wide, and a pipe segment approximately 28 feet long was blown 
about 100 feet away from the crater.
    Seven people were fatally injured in this tragedy. Additionally, 
numerous people were injured, and many more were evacuated. Ultimately, 
37 homes were destroyed and 18 more were damaged. The immediate 
response by local emergency responders, as well as three strategic 
drops of fire retardant and water by airplane and helicopter before 
dark, assisted in stopping the spread of the fire.
    PG&E personnel responded to the scene and isolated the ruptured 
pipe section by closing the nearest mainline valves. The upstream valve 
was closed at about 7:20 p.m. and the downstream valve at Healy Station 
was closed at about 7:40 p.m. The distance between these two valves is 
approximately 2\1/2\ miles. Once the ruptured section was isolated, the 
gas flow stopped, and the resulting fire from the ruptured line self 
extinguished. Later that evening, PG&E isolated the natural gas 
distribution system serving residences in the area, and within a minute 
of stopping the gas flow in the distribution system (about 11:30 p.m.), 
fires from escaping natural gas at damaged houses went out.
    At about the same time as the rupture, in the Control Center in San 
Francisco, controllers observed an increase in pressure on Line 132. 
This increase was observed to occur at the Martin Station, which is 
downstream of the rupture location. A ``Hi-Hi'' pressure alarm 
indicating 386 pounds per square inch (psig) was received on line 132 
at Martin Station.
    Subsequently, at 6:15 p.m. a ``Lo'' pressure alarm was received on 
line 132 at Martin Station indicating 186 psig and within the same 
minute, a ``Lo-Lo'' alarm was received indicating 144 psig. At 
approximately the same time that the pressure drop was noticed, calls 
came in to the Control Center with reports on television and radio of a 
potential plane crash in the City of San Bruno. Within minutes, people 
realized that there was no plane crash but that the fire was due to a 
large release of gas.
    PG&E dispatched their crew at 6:45 p.m. to isolate the transmission 
line. Some PG&E personnel arrived at the site before they were 
requested to respond, and they offered their services to the Incident 
Commander at the Incident Command trailer, set up by the local fire 
department. The CPUC engineer arrived at the Incident Command by 9:00 
p.m. on September 9.
    When the NTSB arrived on scene, the investigation began immediately 
with visual examination of the pipe and the surrounding area and 
through discussions with first responders, PG&E and CPUC personnel, and 
others. The investigators measured, photographed, and secured the 28-
foot ruptured pipe segment. On Monday, September 13, the ruptured 
pipeline and two 10-foot sections of pipe from either side of the 
rupture were crated for transport to an NTSB facility in Ashburn, VA. 
An initial examination of the ruptured pipe started at the Ashburn 
facility on September 23, and will continue with a detailed laboratory 
examination this week.
    As data analysis begins, if investigators identify a systemic 
problem that should require immediate attention, the NTSB is prepared 
to issue urgent safety recommendations. Regardless, our goal is to 
produce the final report in 12 months.
    There are several recommendations the NTSB has issued previously 
regarding gas pipelines which I will outline for the Subcommittee.
Integrity Management Programs for Distribution Systems and the Use of 
        Excess Flow Valves
    The Pipeline, Inspection, Protection and Enforcement and Safety 
(PIPES) Act of 2006 mandates that the Department of Transportation 
(DOT) prescribe minimum standards for integrity management programs for 
distribution pipeline systems. On June 25, 2008, the Pipeline Hazardous 
Materials and Safety Administration (PHMSA) published a notice of 
proposed rulemaking (NPRM) entitled, ``Integrity Management Program for 
Gas Distribution Pipelines,'' with proposed regulations that would 
require operators of gas distribution pipelines to develop and 
implement integrity management programs with the same objectives as the 
existing integrity management programs for hazardous liquid and gas 
transmission pipelines.
    Integrity management programs for hazardous liquid and gas 
transmission pipelines typically require operators to assess the 
condition of their pipelines by using ``in-line'' inspection tools that 
travel through the pipeline to determine the nature and extent of any 
defects, or pressure testing that yields information about the 
integrity of the pipeline. Such techniques are not feasible for typical 
distribution pipeline systems because of the differences in the design 
and operating parameters between distribution pipeline systems and 
hazardous liquid and gas transmission pipelines.
    Further, the failure of a distribution pipeline is often initially 
detected from reports of a gas leak. As a result, development and 
implementation of an effective leak management program is an important 
element of an integrity management program for a distribution pipeline.
    PHMSA acknowledged these differences in the NPRM and properly 
emphasized the importance of various leak detection methods as 
essential elements of an integrity management program for distribution 
pipeline systems.
    In its comments on the NPRM, the NTSB emphasized that while an 
effective leak detection program is a crucial element of the overall 
leak management program, the use of equipment that prevents or 
mitigates leaks is equally important. One such device that mitigates a 
gas pipeline leak is an ``excess flow valve.'' An excess flow valve is 
a device installed on the distribution line that detects an abnormally 
high flow rate on a line usually serving a user residence or facility. 
When an excess flow is detected, the valve automatically closes, thus 
shutting off the flow of gas through the distribution line. The NPRM 
did not adequately address this aspect of leak management, other than 
incorporating the mandate for PHMSA to require excess flow valves on 
new or replacement distribution lines serving single family residences. 
PHMSA complied with this provision of the PIPES Act on December 4, 
2009, when it published the final rule on integrity management programs 
for distribution pipeline systems.
    The NTSB has long advocated the use of excess flow valves in gas 
distribution pipeline systems as an effective means of preventing 
explosions caused by natural gas leaking from distribution systems. On 
July 7, 1998, a natural gas explosion and fire destroyed a newly 
constructed residence in South Riding, Virginia. The accident caused 
one fatality and one serious injury. The NTSB determined that the gas 
service line to the home had failed and that an uncontrolled release of 
gas had accumulated in the basement and subsequently ignited. The NTSB 
concluded from its investigation that had an excess flow valve been 
installed in the service line, the valve would have closed shortly 
after the hole in the service line developed and the explosion likely 
would not have occurred. The NTSB recommended that PHMSA require excess 
flow valves be installed in all new and renewed gas service lines, 
regardless of a customer's classification, when the operating 
conditions are compatible with readily available valves. The NTSB 
believes that apartment buildings, other multifamily dwellings, and 
commercial properties are susceptible to the same risks from leaking 
gas lines as single-family residences, and we believe this gap in the 
law and the regulations should be eliminated.
Oversight of Integrity Management and Other Risk-Based Pipeline Safety 
        Programs
    Over the past decade or more, PHMSA has adopted a risk-based 
assessment approach for regulating the DOT pipeline safety program. 
PHMSA has successfully built a partnership with various facets of the 
pipeline industry to develop, implement and execute a multi-part 
pipeline safety program. All stakeholders, including PHMSA, have, in 
the NTSB's view, come to rely heavily upon this approach. The NTSB 
believes that a risk-based approach can be an effective method to 
develop and execute the pipeline safety program, and there are many 
positive elements to PHMSA's approach.
    The DOT pipeline safety regulations based on risk assessment 
principles provide the structure, content, and scope for many aspects 
of the overall pipeline safety program. Within this regulatory 
framework, pipeline operators have the flexibility and responsibility 
to develop their individual programs and plans, determine the specific 
performance standards, implement their plans and programs, and conduct 
periodic self-evaluations that best fit their particular pipeline 
systems. PHMSA likewise has the responsibility to review pipeline 
operators' plans and programs for regulatory compliance and 
effectiveness.
    The NTSB believes that along with the risk-based assessment there 
should be increased responsibilities on both the individual pipeline 
operators and PHMSA. Operators must diligently and objectively 
scrutinize the effectiveness of their programs, identify areas for 
improvement, and implement corrective measures. Likewise, PHMSA, as the 
regulator, must also do the same in its audits of the operators' 
programs and in self-assessments of its own programs. In short, both 
operator and regulator need to verify whether risk-based assessments 
are being executed as planned, and more importantly, whether these 
programs are effective.
    In its recent pipeline investigations in Kingman, Kansas, 
Carmichael, Mississippi, and Palm City, Florida, the NTSB discovered 
indications that PHMSA and operator oversight of risk-based assessment 
programs, specifically integrity management programs and public 
education programs, has been lacking and has failed to detect flaws and 
weaknesses in such programs. As a result of these investigations, the 
NTSB is concerned that the level of self-evaluation and oversight 
currently being exercised is not adequately applied by some pipeline 
operators and PHMSA to ensure that the risk-based safety programs are 
effective. The NTSB believes that to ensure effective risk-based 
integrity management programs are employed throughout the pipeline 
industry, PHMSA must establish an aggressive oversight program that 
thoroughly examines each operator's decision-making process for each 
element of its integrity management program.
Recent Pipeline Accidents
    In addition to the accident in San Bruno, the NTSB has been 
investigating three other pipeline accidents that occurred this summer. 
In Cleburne, Texas, a 36-inch natural gas pipeline was struck by a 
contractor excavating the area. One person was killed and 6 others were 
hospitalized.
    In July, a 30-inch diameter crude oil pipeline operated by Enbridge 
Energy Partners ruptured in Marshall, Michigan, spilling between 
800,000 to 1,000,000 gallons of oil into Talmadge Creek and the 
Kalamazoo River. The NTSB dispatched a team of more than 10 
investigators to the scene. This investigation is continuing and we are 
examining the pipe segment in our Materials Laboratory.
    In September, another Enbridge crude oil pipeline ruptured in 
Romeoville, Illinois. A segment of this pipeline was recently 
transported to our facilities in Ashburn, Virginia for testing and 
further study.
    The NTSB is in the early stages of our investigations in each of 
these accidents. We have much information to collect and analyze, but 
areas of interest to investigators may include:

  <bullet> Supervisory Control and Data Acquisition (SCADA) operations. 
        As a result of the NTSB's 2005 Safety Study, Supervisory 
        Control and Data Acquisition (SCADA)in Liquid Pipelines, the 
        NTSB issued Safety Recommendations P-05-1 through -3 which 
        called on PHMSA to: (1) require hazardous liquid pipeline 
        operators to follow the American Petroleum Institute's 
        recommended practice for the use of graphics on SCADA computer 
        screens, (2) require pipeline companies to have a policy for 
        the review and audit of SCADA alarms, and (3) require training 
        for pipeline controllers to include simulator or non-
        computerized simulations for controller recognition of abnormal 
        operating conditions, particularly leak events. These three 
        recommendations were also incorporated directly into the PIPES 
        Act. PHMSA published a final rule on December 4, 2009, that 
        included the recommended requirements and applied them to all 
        pipeline systems.

  <bullet> Pipeline controller performance. NTSB investigators are 
        examining the work experience, health, work/rest schedule, 
        qualification, training, and activities of each control room 
        operator involved in the accidents.

  <bullet> Operator notification and spill response. The NTSB is 
        gathering and evaluating information from interviews and 
        electronic sources to further determine the timeline of events. 
        This information will accurately reflect when the spill 
        occurred, when notification was made, and how the operator 
        responded.

  <bullet> Emergency response and oil spill response. The team will 
        review the notifications and actions of emergency responders 
        and the pipeline operators to the release of natural gas in San 
        Bruno and the oil spill in Marshall.

  <bullet> Inspection and Maintenance History. The NTSB will review and 
        evaluate the pipeline inspection and maintenance history of the 
        operators, including but not limited to integrity management 
        plans, risk-based programs, and inspection history.

  <bullet> Oversight Activities and Actions. Federal and state 
        regulators have a role in overseeing the integrity of the 
        pipeline system and ensuring the safety of our national 
        pipeline system. The NTSB will evaluate the oversight exercised 
        by state regulators and PHMSA of the pipeline operators in the 
        San Bruno and Marshall accidents.

  <bullet> Aging Pipelines. The NTSB has noted that the many of the 
        major pipeline accident investigations it has conducted in 
        recent years have involved pipeline systems that exceed 30 
        years or more of age. The NTSB is uncertain whether this is a 
        trend, but will examine the issue in on-going investigations 
        and pursue this issue with PHMSA.

  <bullet> Urban Development. Hand-in-hand with aging pipelines is 
        urban development. At the time of pipeline installation, an 
        area may not have been developed. Today, however, many areas 
        have realized population growth. The NTSB will evaluate 
        notification, location, integrity management, and other factors 
        impacted by urban development.
Closing
    The accident in San Bruno is a tragic event, and the NTSB dedicates 
itself to determining the cause of the accident and proposing 
recommendations to prevent these types of accidents from happening in 
the future.
    This concludes my testimony and I would be happy to answer any 
questions you may have.

    Senator Lautenberg. Thanks very much, Mr. Hart.
    You know, when we look back, it always raises questions on 
what might have been done, what would effects have been if the 
equipment was equipped with an automatic or remote-control 
shut-off valve. If this pipeline had been equipped with such a 
device, what effect would it have had on the consequences of 
the explosion?
    Mr. Hart?
    Mr. Hart. That is certainly one of the issues we will be 
looking at, because the integrity management plans say that 
pipelines that run through high-consequence areas need to 
determine whether it's appropriate to have automatic or remote 
shut-off valves. That is ultimately the decision of the 
operator, that's then approved or disapproved by the regulator. 
We'll be looking at that entire process of overseeing the 
integrity management plan, because that's a part of our 
investigative process.
    Senator Lautenberg. Well, let me ask you this. You know, 
the study may continue, but the fact of the matter is, that 
there had to be some judgment as to what the effectiveness of 
these basic tools for pipeline safety might have been. Is there 
not enough in the evidence that we see in front of us--the loss 
of life, the destruction of facility--would there not have been 
an effect? Does it require study to say, ``Well, we're still 
looking at what there might have been?'' Because implicit in 
your response, Mr. Hart, is the fact that, ``Well, we're not 
sure it's going to do so much good, or that much good.'' Is 
that the way you see it?
    Mr. Hart. It took an hour and a half to turn off the 
valves--there's no question that turning them off sooner would 
have resulted in less damage. What we will be looking at in 
this investigation is, what factors were used by the operator 
in deciding not to have automatic or remote valves? What 
factors were considered by the regulator in approving that 
decision? And the reason we're looking at that closely is 
because there have been several other recent accidents where 
we've seen that the process of overseeing the integrity 
management plans hasn't worked as well as it should, and we are 
looking at whether that's a----
    Senator Lautenberg. Yes.
    Mr. Hart.--systemic issue that we need to address----
    Senator Lautenberg. OK.
    Mr. Hart.--systemically.
    Senator Lautenberg. Because the cut-off valves--they're 
kind of basic things. The absence of these things is what I 
believe presents us with the prospect of the kind of damage 
that occurred here and in other places--in my State, New 
Jersey. And it's a fairly basic piece of equipment, and 
hopefully--that I thought we would even accept that as being a 
necessity. But, other technological improvements might have 
come along the same time.
    Mr. Hart. We made a recommendation for such valves back in 
1995, and we closed that recommendation as ``acceptable,'' on 
the grounds that the regulator at the time--RSPA--agreed to 
incorporate this into the Integrity Management Program. We're 
looking at whether the integrity management process is working.
    Senator Lautenberg. Ms. Quarterman, the pipeline that 
ruptured in San Bruno was an intrastate pipeline, not under the 
jurisdiction of PHMSA. And while PHMSA sets the minimum Federal 
safety standards for such pipeline, it is the responsibility of 
State agencies--the California Public Utilities Commission, in 
this case--to conduct oversight of intrastate pipeline. In the 
light of the tragedy at San Bruno, is this division of 
responsibility providing enough oversight, do you think, of 
pipeline safety?
    Ms. Quarterman. Well, let me just say that I think the 
provision in the legislation that Congress has put forward in 
the Pipeline Safety Act, to have States involved in oversight 
of pipeline safety is an important one. Because of that, rather 
than having 113 inspectors, we have an additional 300 
inspectors throughout the States, many of whom are very close 
to pipeline facilities.
    Having said that, I think it is always an opportune time to 
take a closer look at regulatory authorities and how we might 
improve the State and Federal programs and the oversight of 
those programs. It is certainly, in the first instance, the 
responsibility of the States. With respect to the California 
Public Utility Commission, they have been overseeing these 
pipelines for at least two decades, perhaps even before there 
was a Federal Pipeline Safety Act, and that they are doing a 
good job of that. But, we are there as the backstop. In my 
view, even though this authority has been delegated to the 
States, the buck stops here.
    Senator Lautenberg. Thank you.
    Mr. Hart, third-party excavation activities are the leading 
cause of injuries and fatalities involving pipeline. Congress 
mandated the One-Call system so that companies, individuals, 
call to have underground lines and pipes marked before they 
start digging. However, some States exempt certain agencies and 
contractors from using a One-Call system. How would removing 
all exemptions from the One-Call safety system improve pipeline 
reliability?
    Mr. Hart. We will be looking at the issue of nearby 
excavation. We know, that there was no contemporaneous 
excavation. We will be looking at the history of this pipeline 
to make sure that that--to see if there was any damage, over 
the history of the pipeline, resulting from excavation. Once we 
determine that, then we'll be in a better position to look at 
whether that system is working.
    Senator Lautenberg. Are you satisfied with the examination 
of the tragedy in San Bruno has been reviewed quickly, and 
appropriately done?
    Mr. Hart. I'm very satisfied with what we've done. We tried 
to move as quickly as possible, consistent with doing a 
thorough investigation, because we wanted to return the 
infrastructure to normalcy as quickly as possible. We're also 
very pleased with the efforts of the first responders. They 
obviously did all of the work at the outset, before we arrived, 
and they've been very helpful every step of the way since we 
arrived.
    Senator Lautenberg. Yes. OK. I thought that there were 
conclusions drawn, not just from this particular devastating 
accident, but experienced over the years. And I would urge that 
we get moving as quickly as possible, because these things came 
about without warning, and the result was, again, so giant that 
we can't afford to lose any time to get things changed.
    Senator Boxer?
    Senator Boxer. You can go first this time----
    Senator Lautenberg. Oh, I appreciate it. OK.
    Senator Boxer. Thank you.
    Senator Thune. Thank you, Mr. Chairman.
    Ms. Quarterman, when you testified in front of this 
committee in June, I asked you about the fact that PHMSA does 
not require emergency response plans for natural gas pipelines. 
And you responded, at the time, that PHMSA was looking into the 
issue. How will the San Bruno incident impact your decision?
    Ms. Quarterman. We, in fact, do require emergency response 
plans for both oil and gas. And if I testified to that effect, 
I misspoke. I think we were talking, at the time, about 
oilspill response plans, which is something, required under the 
Oil Pollution Act of 1990, that only applies to oil pipelines. 
But, there are emergency response plans required for both oil 
and gas operators.
    Senator Thune. I want to come back to the point I made 
earlier about the positions authorized by the PIPES Act, 
because the Administration's reauthorization proposal requests 
an additional 40 positions, yet it is my understanding that 
there are still 25 authorized positions not filled. Could you 
speak to that issue?
    Ms. Quarterman. There are currently 113 inspection 
positions authorized. There are currently 96 inspectors on 
board. We have hired 4 people, who should arrive within the 
next 2 months; and there are 13 positions being advertised. 
This is something that, when I came into this position, was a 
huge problem for the agency. We had, essentially, 72 vacancies, 
almost a quarter of the PHMSA staff. I have made it a high 
priority within PHMSA, meeting on a monthly basis with my 
managers, and including this as one of their performance 
measures, that they fulfill the requirement and fill these 
positions. We received additional positions in Fiscal Year 
2010. We have hired, since I've been there, close to 80 people, 
I believe. The goal was to get to 10-percent vacancy rate. I 
think we were about 10.1 by the end of the fiscal year, 10-
point-something at the end of the fiscal year. I will ratchet 
that up, for the next fiscal year, to get as close to 100 
percent as possible. Should the Committee or the Congress add 
additional positions, we will be all over them.
    We just hired a new head of administration. That position 
had been empty for several years. That person is young and is 
dedicated to getting those positions filled as quickly as 
possible.
    The ability to short-circuit some of the hiring 
requirements would be nice, if we could hire people directly. 
We don't have that authority at the moment, but we're looking 
into the possibility of doing that.
    Senator Thune. Do you need the additional 40 positions?
    Ms. Quarterman. Yes, we do.
    Senator Thune. The Pipeline Safety Program is funded 
through user fees. The pipeline operators oppose the 
Administration's proposal to charge separate fees for the 
review of design plans and special permit applications, arguing 
that they already pay for those services. Now, given that the 
existing user fee covers the cost of the pipeline safety 
program, why do you propose adding an additional type of fee?
    Ms. Quarterman. This fee, in my view, would offset the user 
fees and would decrease the amount that companies have to pay 
in user fees.
    Currently, within the past 4 years, or, at least in the 
mid-2000s, there was a huge increase in the number of new 
pipelines constructed. And the number of inspections that were 
done from new construction went up from a few hundred days, at 
the beginning of the 2000s, up to close to 2,000 days our 
inspectors were spending going on construction sites. Those 
people were not doing regular inspections on the rest of the 
pipeline system. In my view, the people who are proposing new 
construction projects should bear the cost associated with 
having inspectors out there to do that, so that we still have 
the same number of inspectors available to look at the rest of 
the pipeline system. Right now, the new construction is 
bleeding off oversight of the existing infrastructure.
    Senator Thune. Well, you said those fees would offset 
existing fees. There would not be additional----
    Ms. Quarterman. They would be an offset, to the extent 
we're all capped by the number of people that we have. To the 
extent that the cost of new design or construction is taken out 
of the existing pool of inspections, it would decrease the 
amount of the user fee.
    Senator Thune. Time is up. Thank you, Mr. Chairman.
    Senator Lautenberg. Thanks very much.
    Senator Boxer?
    Senator Boxer. Thank you, Mr. Chairman.
    Mr. Hart, I again want to compliment you. You were out on 
the scene, you were there, you were out there asking all the 
questions. You're looking at the response plan of the utility?
    Mr. Hart. That's correct.
    Senator Boxer. OK. It's my understanding--correct me if I'm 
wrong--this was an intrastate problem.
    Mr. Hart. That's correct.
    Senator Boxer. This was not interstate. So, we're dealing 
with the California PUC and the operator, PG&E.
    Mr. Hart. And PHMSA, as well. There's a Federal oversight 
layer.
    Senator Boxer. And the oversight of PHMSA.
    Mr. Hart. Yes.
    Senator Boxer. So, my understanding is--and I'm reading 
from the Mayor's testimony--he says, ``More than 400 first 
responders gallantly battled the six-alarm inferno by dragging 
3,000 feet of fire lines from an adjoining neighborhood where 
our water department was able to locate water. The heat was so 
intense, it cracked the windshield of one firetruck, with the 
wall of fire stopping veteran responders in their tracks. As 
the fire spread rapidly into the adjacent Crestmoor Canyon, 
airstrike teams sprayed fire retardant foam to prevent the fire 
from engulfing the canyon and the neighborhoods on the other 
side. Citizen responders drove those with second-degree burns 
to nearby hospitals so that emergency crews could focus on the 
most severely burned and on preventing more lives from being 
lost.'' That is straight from the Mayor and straight from the 
ground.
    Now, my understanding is, it took PG&E about a half hour to 
get to the site. Is that your understanding?
    Mr. Hart. The timeline that I have is that from the time of 
the pressure disruption at the Martin Station until the time of 
the first valve shutoff was about an hour and 30 minutes.
    Senator Boxer. An hour and 30 minutes. But, my 
understanding is, they arrived on the scene in about 30 
minutes. That is not your understanding?
    Mr. Hart. I don't remember that event on the timeline.
    Senator Boxer. OK. Well, if you're right----
    Mr. Hart. We'll find that out.
    Senator Boxer. We'll find out from PG&E.
    Mr. Hart. OK.
    Senator Boxer. But, the point is, if the operator, PG&E, is 
responsible for a response plan--and I'm not picking on them--
or, I don't know what their response plan was, or whether it 
worked or it didn't work; we'll find out. But, in a crisis like 
this, where there are no shut-off valves, where there's no way 
to get this under control, is it acceptable for it to take 30 
minutes, an hour, an hour and a half, while the local people 
are taking over this and stealing water from neighboring 
jurisdictions? I mean, it just doesn't sound to me that there 
was a response plan in place that actually functioned.
    Mr. Hart. We will certainly be looking at the response 
plan, both of the operator and of the emergency responders. We 
know that gas fires are difficult to fight. They can't be 
fought effectively with water, and that's why they brought the 
airport fire personnel, because they know how to fight gas 
fires.
    Senator Boxer. Well, they did everything right.
    Mr. Hart. Right.
    Senator Boxer. But, if PG&E is responsible--and the PUC and 
PHMSA, for approving the response plan--I don't know--if it 
wasn't for the local people, I don't even want to think about--
now, maybe the local people are part of the response plan, and 
maybe it was part of the effort. I don't know all the answers. 
But, it just seems like, if it took PG&E a half hour to an hour 
and a half to get there--it worries me. But, you are looking at 
that.
    Mr. Hart. That's affirmative.
    Senator Boxer. OK. And I would like to ask PHMSA this 
question: In your response--and I appreciate your response to a 
letter I sent you on September 13--you stated that all 
interstate pipelines within high-consequence areas in 
California had been inspected since 2008, with the exception of 
two areas scheduled to be inspected this fall. Where are those 
two locations? And when do you expect to complete those 
inspections?
    Ms. Quarterman. I don't recall the two particular pipelines 
that are scheduled for inspections in the fall. I will have to 
get that for you for the record.
    [The information referred to follows:]

    Answer. The first location is operated by Plains Exploration and 
Production Company (PXP) The system is a jurisdictional gas gathering 
system in Los Angeles County used to transport produced gas from two 
production sites to the Inglewood Plant where the natural gas is sold.
    The second location is operated by Rosetta Resources, Known as the 
Rio Vista Gas line. This unit is an intrastate gas transmission line 
and consists of a 4.33 mile long natural gas transmission line near Rio 
Vista, CA in Sacramento County. Gas is collected in a gas field east of 
Rio Vista and sent to a processing plant. The line begins at the 
processing plant and connects to the CPN Pipeline.

    Senator Boxer. I need that information.
    Ms. Quarterman. OK.
    Senator Boxer. How soon can you get it to me?
    Ms. Quarterman. I believe it was in the letter that was 
sent to you yesterday.
    Senator Boxer. You didn't specify.
    Ms. Quarterman. No? OK.
    Senator Boxer. You just said that there were two areas, but 
you didn't say where they were. So, I need to know where they 
were.
    Is that correct?
    So, can you get me that information ASAP, please?
    Ms. Quarterman. Certainly.
    Senator Boxer. OK.
    You stated that PHMSA is developing plans for interstate 
inspections for Fiscal Year 2011, and that only two inspections 
had tentatively been scheduled. What percentage of high-
consequence pipelines in California will be inspected in 2011, 
according to your plan?
    Ms. Quarterman. I don't think the plan is fully developed 
at this point. This is the time of year when we begin to 
develop a plan for Fiscal Year 2011.
    Senator Boxer. OK.
    Ms. Quarterman. The two that are indicated there are the 
only two, so far, on the plan.
    Senator Boxer. OK, when will you have your final 
inspections set? It's almost the end of 2010, so, at what point 
would you have it? Before the end of the year, I assume?
    Ms. Quarterman. I assume so. I know the regional directors 
were in a meeting a week ago to discuss the----
    Senator Boxer. Well, I would ask that you please get that 
answer to me, as well, as soon as possible.
    [The information referred to follows:]

    Answer. The PXP pipeline was recently inspected in October 2010. 
The Rio Vista line will be inspected in December 2010.

    Senator Boxer. Mr. Chairman, can I ask one more question at 
this point?
    Senator Lautenberg. Sure.
    Senator Boxer. Your letter also stated that more than 3,600 
miles of interstate and intrastate gas transmission lines in 
California are located in densely populated areas. What 
immediate steps are you taking, along with your State partner, 
the CPUC, to ensure the safety of all 3,600 miles of 
transmission lines?
    Ms. Quarterman. Well, it's our job, along with CPUC, to 
ensure that those lines are inspected, and we work with them on 
a regular basis to ensure that inspections are being done 
appropriately, and review those that have been----
    Senator Boxer. I know. But, that's an answer that I 
appreciate, but look what happened. And we don't know yet when 
all that was inspected, but we've got lines that were laid in 
the 1940s and the 1950s. I need to know more than just a 
general answer.
    So, would you get back to me on what immediate steps you're 
taking, along with your State partner on intrastate lines, the 
PUC in California, to ensure the safety of all 3,600 miles of 
transmission lines?
    Those are the high-consequence lines. Those are the ones 
where the people are living very close by. And we just can't 
wait. We don't--it's on our collective shoulders now, after 
this happened. We have been warned. So, I need to have more 
specificity from you. And I would appreciate it if you could--I 
will give you another letter, in writing, asking for all these 
three answers. But, I need to have the answers. If, you know, 
this is not--this can't be guesswork. We have 3,600 miles of 
transmission lines in densely populated areas. What are your 
plans to make them safe--specifically? Not, ``We will do this 
or that.'' What's your schedule? What's your timeline? We need 
to know that.
    [The information referred to follows:]

    Answer. All federally-regulated gas operators with high consequence 
area (HCA) mileage will have Integrity Management Plan inspections in 
2011 followed by standard inspections on all units in 2012, except one 
idle line which will only have a standard inspection in 2011. For 
operators without HCA mileage, standard inspections will be performed 
on all units in either 2011 or 2012 (prioritized by date of last 
inspection). federally regulated gas lines in CA include gas 
transmission, jurisdictional gathering, offshore, and municipal 
distribution.
    For state-regulated gas pipelines, total and HCA mileage as well as 
inspection history was provided by the CA-PUC. Inspection history 
includes both standard and integrity management inspections. Inspected 
HCA mileage for PG&E and Standard Pacific standard inspections was 
estimated based on CA-PUC's inspection cycle. At this time, the state 
office plans to continue with their current inspection cycle, but may 
be able to increase inspection frequency if regulation to allocate 
additional funding is approved.
    The following tables summarize pipeline mileage and inspections in 
California:

------------------------------------------------------------------------
  Federally Regulated Gas
            (CA)               2008     2009     2010    2011*    2012*
------------------------------------------------------------------------
Inspected In HCA (mi)             47       40       79      169      166
Inspected Outside HCA (mi)       723      898    1,438    1,717    2,429
------------------------------------------------------------------------
    Total OPS Inspected          770      938    1,517    1,886    2,595
------------------------------------------------------------------------
* Planned inspections including both I01 and O07.


------------------------------------------------------------------------
       Federally Regulated Gas Pipeline in California
------------------------------------------------------------------------
Total Mileage In HCA (mi)                                          169
Total Mileage Outside HCA (mi)                                   3,023
------------------------------------------------------------------------
Regulated Mileage                                                3,192
------------------------------------------------------------------------


------------------------------------------------------------------------
      State Regulated Gas (CA)          2008     2009     2010     2011
------------------------------------------------------------------------
Inspected In HCA (mi)                   1,624    1,624    2,321    1,622
Inspected Outside HCA (mi)              6,778    4,890    8,614    4,558
------------------------------------------------------------------------
Total CA-PUC Inspected                  8,402    6,514   10,935    6,180
------------------------------------------------------------------------


------------------------------------------------------------------------
        State Regulated Gas Pipelines in California
------------------------------------------------------------------------
Total Mileage In HCA (ml)                                        2,323
Total Mileage Outside HCA (ml)                                   8,679
------------------------------------------------------------------------
Regulated Mileage                                               11,002
------------------------------------------------------------------------


    Ms. Quarterman. As a result of this accident, we will 
certainly be working closely with the NTSB to find out what the 
cause is so that we can put into effect, as soon as possible, 
any regulations that may be appropriate if the transmission 
lines are not adequately covered by the existing regulations, 
including looking at one thing the Chairman mentioned, which is 
the notion of remote shut-off valves.
    Senator Boxer. I believe that the NTSB is going to take a 
year to 18 months. Meanwhile, we know we have 3,600 miles of 
transmission lines in California, close to where people live. 
So, we can't wait for more regulations. You already have the 
authority to inspect. If you need more help doing that, please 
let us know. But, we cannot wait. We need to act on these--I 
mean, I'm just speaking for my State. Senator Lautenberg will 
speak for his. And each of us can speak for ours. But the fact 
is, we now know, because of your cooperation with us, which we 
greatly appreciate, how many lines we have that are of 
consequence. So, we can't wait for a year or 18 months to 
figure out what NTSB is recommending. We need to have 
inspections. So, we need PHMSA to take the lead.
    Now, I've talked to PG&E and off the record, we chatted; 
and I think they're ready and willing to do more inspections. 
But, I think you need to be proactive on this one, and not wait 
for new legislation. You have the authority. That's your job. 
And I think we want to help you get it done.
    Ms. Quarterman. Right.
    Senator Boxer. So, I need to know the answers to my 
questions: What are your plans? Where are those two areas, you 
wrote to me, and are they going to be inspected right away? 
What are your plans for the 3,600 miles? I just need to have 
some answers, because I can't go home when people ask me, 
``Well, what's going to happen? Where is all the--where are 
these pipelines?''--I can say, ``I now know that there are 
3,600 miles that are close to people, and that's a priority.'' 
I can tell them that Senator Feinstein and I, with the help of 
the Chairman, and hopefully Senator Thune and Johanns and 
others, are writing some new regulations.
    But, in the meantime, we need inspections. We have to have 
inspections. And we need to know whether there's corrosion. We 
need to know whether there was any excavation. We need to know 
how old these pipelines are. And we need to move forward 
together.
    So, I'm looking forward to your response, very much, 
because I want to help you. I'm not challenging you because I 
don't trust that you do the right thing. I want to tell you 
that you need to tell me what your plans are and what you need 
to do to get this job done now, not waiting until there's a 
report, because we just can't wait. Something else could 
happen.
    We know, from the NTSB, they're looking at other problems. 
And now this happened. So, we can't wait for another accident. 
This one cut deep into a community. You were there. It stops 
your heart. So, we don't want this to happen to any community 
in the country. So, we need you to work with us now and 
understand that it's going to be a while until we get the 
legislation. Let's use your authority now. That's just my 
message.
    Ms. Quarterman. I absolutely agree with you, Senator. I 
assure you that we are taking the incident very seriously. It 
was a sobering experience to go out to San Bruno, and one that 
pulls at the heart of all the folks at PHMSA and particularly, 
inspectors who have to go on these scenes on a daily basis and 
have lost colleagues, in the California Public Utility 
Commission, as well.
    Senator Boxer. Yes.
    Ms. Quarterman. And we will be working on inspections, in 
California and throughout the country, I assure you.
    Senator Boxer. Thank you. I look forward to your response.
    Thank you.
    Senator Lautenberg. I want to say that we'll keep the 
record open and expect prompt responses to questions that will 
be submitted to you in writing.
    We thank you for your testimony, and call the next panel to 
the table.
    That's Mr. Paul Clanon, Executive Director of the 
California Public Utilities Commission; Mr. Christopher Johns, 
President, Pacific Gas and Electric; Mr. Jim Ruane, Mayor of 
San Bruno; and Mr. Rick Kessler, Vice President of the Pipeline 
Safety Trust.
    And I'm called to another meeting, and Senator Boxer will 
continue with the witnesses--and it will be up to her as to 
when we finish the questions and listen to the testimony.
    So, thank you.
    Senator Boxer [presiding]. Thank you so much, Mr. Chairman. 
I'm delighted to take the gavel from you, just as you've done 
it for me in the PW Committee. Thank you very much.
    Panel three, we welcome you here. It's a very, very 
important panel.
    I would like to start off with the Mayor, if you don't 
mind, because I think the Mayor needs to bring us back to the 
picture of the moment.
    And so, Mayor Ruane, please proceed.

              STATEMENT OF HON. JIM RUANE, MAYOR, 
                     SAN BRUNO, CALIFORNIA

    Mr. Ruane. Thank you. Thank you, Chairman Lautenberg----
    Senator Boxer. Make sure your microphone is turned on.
    Mr. Ruane. All right. That's better.
    Thank you, Chairman Lautenberg, Ranking Member Thune, and, 
in particular, Senators Boxer and Feinstein, for inviting me to 
testify.
    My name is Jim Ruane, and I am the very proud Mayor of the 
wonderful City of San Bruno. I'm here today to give you--voice 
to the residents of San Bruno, whose hearts were broken on the 
awful evening of September 9, 2010, but whose spirit remains 
strong and resilient.
    Let me tell you just a little bit about San Bruno. We're a 
solid working-class community of nearly 44,000, located in the 
sophisticated urban environment of the San Francisco Peninsula, 
immediately adjacent to San Francisco International Airport. We 
have a unique identity in the region as a somewhat old-
fashioned, unassuming community with a positive, can-do 
attitude about life. I often tell people that San Bruno is the 
closest thing to a slice of American pie you could ever 
experience.
    The Glenview area where the explosion occurred is a 
hillside neighborhood of nearly 400 homes, built around the 
Crestmoor Canyon open space.
    The explosion occurred at dinnertime on a Thursday evening, 
just as residents were settling in for another typical night at 
home, and perhaps to watch the first NFL game of the season. 
The neighborhood was shaken out of its routine with a 
thunderous disturbance that some mistook, at first, as an 
earthquake or an airline crash, the deafening sound of a 
fireball roaring 100 feet overhead, and 2,000-degree flames 
overtook their homes.
    Our residents ran for their lives with just the clothes on 
their back. What we now know is that a 30-inch high-pressure 
natural gas transmission line running through the Glenview 
neighborhood exploded. Police and fire first responders from 
all over our region converged on the area, only to discover 
that the explosion had knocked out the main water line.
    I immediately drove to the scene and then helplessly 
watched from afar as the gas line spewed unabated for over an 
hour until it could be capped. One observer later said, ``It 
looked like Hell on Earth.''
    More than 400 first responders gallantly battled the six-
alarm inferno by dragging 3,000 feet of lines from an adjoining 
neighborhood, where our Water Department was able to locate 
water. As the fire spread rapidly into the adjacent Crestmoor 
Canyon, airstrike teams sprayed fire-retardant foam to prevent 
the fire from engulfing the canyon and the neighborhoods on the 
other side.
    Citizen responders drove those with second-degree burns to 
nearby hospitals so that emergency crews could focus on the 
most severely burned and on preventing more lives from being 
lost.
    Within the first hour of the explosion being reported, we 
had set up an Incident Command Center at the site, evacuated 
nearly 1,000 residences, and activated our Emergency Operations 
Center at City Hall. Fortunately, we received a flood of 
assistance, not only from our own city workers, but our 
residents, San Mateo County and State emergency officials, 
dozens of surrounding police and fire agencies and relief 
agencies.
    We opened an Evacuation Center for displaced residents that 
night, had a one-stop Local Assistance Center set up and 
running by the next day, and soon were inspecting the impacted 
homes in the Glenview neighborhood for damage.
    Some have said our response was a textbook example of how 
to handle a crisis of epic size like this. I want to say that 
it was a team effort involving the tremendous expertise and 
passion of so many people and agencies coming together to 
support San Bruno.
    We now know that the most devastating outcome of the 
explosion and fire was the loss of eight lives that night. And 
yes, I said ``eight.'' The last fatality was just confirmed to 
us within the last hour.
    There were other awful consequences, as well. Sixty-six 
persons were reported burned and injured, including four 
firefighters who suffered smoke inhalation. At least four 
residents remain in critical condition today from their burns, 
and they all face long and difficult recoveries. Thirty-seven 
homes were destroyed, 18 remain uninhabitable, and another 32 
suffered less serious damage.
    A large crater and dirt road now cut through Glenview, with 
a fence surrounding the exposed pipeline. The sad rubble of a 
children's playground and the dozens of charred homes and their 
barren chimneys sitting as a grim reminder of the tragedy we 
experienced.
    Within 48 hours, teams of building inspectors had completed 
inspection of the 377 evacuated homes in the blast zone. That 
Saturday, we convened a Town Hall meeting that drew over 600 
residents. By Sunday morning, less than 72 hours from the 
explosion, we had coordinated a neighborhood re-entry program 
that allowed 299 families to return home.
    Over the next few days, those who lost their homes were 
allowed to return and sift through the rubble for any personal 
items they could find.
    The following days were surreal for our community: funerals 
and vigils, potlucks, fundraising events, press conferences, 
and a nationwide offering of condolences. People from across 
the world contacted us to lend their support. While this became 
an international news story about pipeline safety, for us it 
was always about getting our hometown, San Bruno, back on its 
feet.
    Today, crews are clearing the debris so that the rebuilding 
process can begin. This week, we are beginning a new program to 
give even more targeted one-on-one assistance to those 55 
families who will be displaced from their homes and their 
neighborhood for some time to come.
    We will leave it to the experts, including investigators 
from the National Transportation Safety Board, to determine how 
and why this happened. These investigations will be vital to 
ensuring that this type of tragedy never occurs again and that 
no other community will be subjected to the horror that we 
continue to experience.
    For now, we know that this incident cost precious lives, 
incinerated a neighborhood, caused over $50 million in physical 
damage--and counting--and forever changed San Bruno. I can also 
say that it has made a determined and resilient town even more 
determined and resilient. As one retired firefighter who lost 
his home in the blaze said, ``I'm going to be the first person 
to move back in--with the city's help, of course. The faster I 
can move forward, the less I think of the past.''
    You may be asking yourself, what can the Federal Government 
do to help San Bruno? First and foremost, the Federal 
Government should take all necessary actions to assure that 
this never happens again. The City of San Bruno, already 
struggling, does not have the resources to cover the cost of 
the response and the long-term consequences of this disaster. I 
am very disappointed with the recent determination by FEMA to 
deny Federal resources. Your support for our appeal is vital to 
San Bruno's future.
    Thank you for your time today, and thank you for your 
continued prayers for the City of San Bruno.
    [The prepared statement of Mr. Ruane follows:]

             Prepared Statement of Hon. Jim Ruane, Mayor, 
                     City of San Bruno, California
    Thank you, Chairman Lautenberg, Ranking Member Thune, our esteemed 
U.S. Senator Barbara Boxer and members of the Subcommittee for inviting 
me to testify on the matter of ``Pipeline Safety: Assessing the San 
Bruno Explosion.'' My name is Jim Ruane, and I am the proud Mayor of 
the wonderful City of San Bruno, California.
    I am here today to give voice to the residents of San Bruno whose 
hearts were broken on the awful evening of September 9, 2010, but whose 
spirit remains strong and resilient. We are a determined town that will 
triumph over this tragedy because of the special sense of family, 
neighborhood and community that San Bruno was known for long before 
this tragic incident. I can tell you with great certainty that the 
explosion did not tear San Bruno apart but has brought us closer 
together than ever.
A Place Called San Bruno
    Let me tell you a little bit about San Bruno. We are a solid 
working-class community of nearly 44,000 located, as one newspaper 
article said, ``between the glitz of San Francisco and the wealth of 
Silicon Valley.'' While we are located in the sophisticated urban 
environment of the San Francisco Peninsula, immediately adjacent to the 
San Francisco International Airport, we have a unique identity in the 
region as a somewhat old-fashioned, unassuming community with a 
positive, can-do attitude about life.
    Most of our homes were built post-World War II, with one-car 
garages and well-kept yards. We have many beautiful parks in our town, 
and a community event almost every weekend. We have decorum at our City 
Council meetings, pride in the American flag and a legacy of civility 
in an increasingly uncivil world.
    I often tell people that San Bruno is the closest to a slice of 
``American pie'' that you could ever experience.
    The Glenview area where the explosion occurred is a hillside 
neighborhood of nearly 400 homes built around the Crestmoor Canyon Open 
Space and the little Glenview Tot Lot popular with local families with 
small children.
The Night of September 9, 2010
    The explosion occurred at dinnertime on a Thursday evening, just as 
residents were settling in for another typical night at home and 
perhaps to watch the first NFL game of the season. The neighborhood was 
shaken out of its routine with a thunderous disturbance that some 
mistook at first for an earthquake or an airplane crash. The deafening 
sound of a fireball roaring 100-feet overhead and 2,000-degree flames 
overtook the homes. Our residents ran for their lives with just the 
clothes on their back.
    As one resident said, ``My wife and children ran screaming barefoot 
from the house . . . with a ball of fire behind them.''
    What we now know is that a 30-inch Pacific Gas & Electric Co. high-
pressure natural gas transmission line running through the Glenview 
neighborhood exploded. Police and fire first-responders from all over 
our region converged on the area, only to discover that the explosion 
had knocked out the main water line. I myself, who saw the first plumes 
of smoke as I was driving home from a city reception, immediately drove 
to the scene and then helplessly watched from afar as the gas line 
spewed unabated for over an hour until it could be capped.
    One observer later said, ``It looked like hell on Earth.''
The Response
    More than 400 first-responders gallantly battled the six-alarm 
inferno by dragging 3,000 feet of fire lines from an adjoining 
neighborhood where our water department was able to locate water. The 
heat was so intense it cracked the windshield of one fire truck, with 
the wall of fire stopping veteran responders in their tracks. As the 
fire spread rapidly into the adjacent Crestmoor Canyon, air strike 
teams sprayed fire retardant foam to prevent the fire from engulfing 
the canyon and the neighborhoods on the other side. Citizen-responders 
drove those with second-degree burns to nearby hospitals so that 
emergency crews could focus on the most severely burned and on 
preventing more lives from being lost.
    Within the first hour of the explosion being reported, we had set 
up an incident command center at the site, evacuated nearly 1,000 
residences and activated our emergency operations center at City Hall. 
Our city has a staff of only about 75 police and fire officers. 
Fortunately, we received a flood of assistance not only from our own 
city workers, but our residents, San Mateo County and state emergency 
officials, dozens of surrounding police and fire agencies, and relief 
agencies.
    We opened an evacuation center for displaced residents that night, 
had a one-stop local assistance center up and running by the next day 
and soon were inspecting the 377 impacted homes in the Glenview 
neighborhood for damage. Some have said our response was a ``textbook'' 
example of how to handle a crisis of epic size like this--and I just 
want to say that it was a team effort involving the tremendous 
expertise and passion of so many people and agencies coming together to 
support San Bruno.
    We now know that the most devastating outcome of the explosion and 
fire was the loss of seven lives that night:

  <bullet> A 44-year-old mother and her 13-year-old daughter, leaving 
        behind a father and another daughter;

  <bullet> An 81-year-old woman who was a long-time resident of the 
        Glenview neighborhood;

  <bullet> A 20-year-old woman who was visiting her boyfriend during 
        her short break from work and whose boyfriend remains 
        hospitalized with critical burn injuries;

  <bullet> And nearly an entire household with an 82-year-old 
        grandmother, a 50-year-old husband and 17-year-old son survived 
        by the mother and daughter of the household.

    There were other awful consequences as well:

  <bullet> Sixty-six persons were reported burned and injured including 
        four firefighters who suffered smoke inhalation. At least 4 
        residents remain in critical condition today from their burns, 
        and they face long and difficult recoveries.

  <bullet> Thirty-seven homes were destroyed, 18 remain uninhabitable 
        and another 33 suffered less serious damage.

  <bullet> A large crater and dirt road now cut through Glenview, with 
        a fence surrounding the exposed pipeline. The sad rubble of a 
        children's playground and the dozens of charred homes and their 
        barren chimneys sit as a grim reminder of the tragedy we 
        experienced.
The Aftermath
    The City moved quickly to help our displaced and frightened 
residents, staffing a special 24-hour hotline and reaching out with 
one-on-one assistance. Within 48 hours of the explosion, teams of 
building inspectors had completed inspection of the 377 evacuated homes 
in the 10-acre blast zone. That Saturday we convened a Town Hall 
meeting that drew over 600 residents.
    By Sunday morning, less than 72 hours from the explosion, we had 
coordinated a neighborhood re-entry program that allowed 299 families 
to return home. Over the next few days those who lost their homes were 
allowed to return and sift through the rubble for any personal items 
they could find. We dealt with the deluge of national and international 
interest by setting up a 24-hour public information line and posting 
daily updates on the city website.
    The following days were surreal for our community--funerals and 
vigils, church potlucks, fundraising events, press conferences and a 
nationwide offering of condolences. People from as far away as Kansas 
and Arkansas, Japan and Australia and others across the world contacted 
us to lend their support. While this became an international news story 
about pipeline safety, for us it always was about getting our hometown, 
San Bruno, back on its feet.
    Today our recovery efforts continue, with crews now clearing the 
site of debris so that the rebuilding process can begin. We are having 
regular meetings with those still displaced, and this week we are 
beginning a new program to give even more targeted, one-on-one 
assistance to those 55 families who will be displaced from their homes 
and their neighborhood for some time to come.
    We will leave it to the experts, including investigators from the 
National Transportation Safety Board, to determine how and why this 
happened. These investigations will be vital to ensuring that this type 
of tragedy never occurs again and that no other community will be 
subjected to the horror that we continue to experience.
    For now we only know that this incident cost precious lives, 
incinerated a neighborhood, caused over $50 million in physical damages 
and counting, and forever changed San Bruno.
    I have been asked countless times what the impact has been, and I 
can only say that it has made a determined and resilient town even more 
determined and more resilient. San Bruno will honor those who have lost 
their lives, lost their homes and lost their way by rebuilding 
Glenview. That's just how it is in San Bruno, California.
    As one retired firefighter who lost his home in the blaze said, 
``I'm going to be the first person to move back in, with the city help, 
of course. The faster I can move forward, the less I think of the 
past.''
    And as our City Manager said, ``This incident will not define San 
Bruno. San Bruno will define the incident and our future.''
    Thank you for your time today, and thank you for your prayers for 
San Bruno.

    Senator Boxer. Mr. Mayor, I want to thank you very much. 
You have my full support, as you have Senator Feinstein's, to 
help you though this, meaning helping with that appeal and also 
making sure this never happens again.
    Mr. Ruane. Thank you, Senator.
    Senator Boxer. And you have been an amazing leader, and you 
are a great representative of San Bruno.
    Mr. Ruane. Thank you.
    Senator Boxer. All the qualities that that town has, you 
have.
    Mr. Ruane. As I said, it's a team effort.
    Senator Boxer. Yes, but you exemplify it, and I thank you 
very much.
    Mr. Paul Clanon, Executive Director, California Public 
Utilities Commission. Welcome, sir.

STATEMENT OF PAUL CLANON, EXECUTIVE DIRECTOR, CALIFORNIA PUBLIC 
                      UTILITIES COMMISSION

    Mr. Clanon. Thank you, Senator Boxer.
    The now eight stories--the now eight people who died--two 
of those were members of the PUC family, and I want to just 
begin--as you know, Senator Boxer----
    Senator Boxer. Yes.
    Mr. Clanon.--you know their names--I just want to begin by 
putting them in the record and saying a word about them.
    Jacki Greig worked with us at the Commission. I've known 
her for 21 years. She worked in natural gas issues. Jacki lived 
with her two daughters, Janessa and Gaby, and her husband, 
James. Right about in the center-left of the photo that you 
have up there, I can see the spot where Jacki's house was. At 
the time of the accident, at the time of the explosion, Jacki 
and her youngest daughter, Janessa, were at home. Fortunately, 
her husband, James, and their older daughter, Gaby, were at a 
school event. Jacki and Janessa were killed. We got the news 
during the morning of the day after, began our mourning process 
and our grieving process at the same time as we were getting 
our investigation into full swing.
    That investigation had started, the night before. We had a 
PUC--a Public Utilities Commission--engineer onsite within a 
couple of hours of the explosion. Our function really at that 
time is to start the preservation of evidence, to make contact 
with the first responders, and to do the job that the National 
Transportation Safety Board needs us to do until they can 
arrive on scene.
    Once the NTSB folks arrived on scene, very shortly after--
the next day--we joined in with their investigation. We are the 
enforcement arm for the Federal regs at the State level. We 
actually have incorporated those into the regs at the State 
level, and we enforce them.
    And, of course, we regulate Pacific Gas and Electric, in 
the broadest sense, and are the ones who can help implement the 
changes, Senator Boxer, that we, as a community--San Bruno and 
the larger community in California--decide are the right ones 
to do.
    We didn't wait for the results of that investigation. 
Beginning on Sunday, a directive--from the PUC president, 
Michael Peevey, to me--began a process whereby I ordered PG&E, 
the next day, to take several significant efforts. The first 
one was to reduce the pressure in the pipeline system there by 
80 percent. I give PG&E credit. PG&E had already lowered the 
pressure. We directed them to lower it more. That made people 
on the peninsula safer, until we could find out what happened.
    We ordered them to assess all their facilities in the 
immediate area. You know that it took until almost midnight to 
turn off the distribution lines. I know we're going to talk 
about automatic valves and remote valves. We ordered an 
immediate assessment of the whole area around San Bruno, around 
the accident site, to make sure that when people moved back 
into that neighborhood, it was safe for them to be there. And 
PG&E had already begun that assessment.
    Look, nobody can be satisfied with the efforts that had 
happened before September 9. We're all going to talk about the 
inspections that occurred, and the State oversight that 
occurred, and the stringent Federal regulations. Something went 
wrong, and we were all doing our jobs, and the explosion 
happened anyway. That means that something else has to happen.
    Starting on Monday, we directed PG&E--and PG&E has now 
begun this--an accelerated leak survey of its whole 
transmission network, not waiting for the schedule that had 
been laid out, which is a good schedule, and had always seemed 
adequate until September 9--but an accelerated leak survey and 
a plan, that's due in to the Commission soon now, for them to 
do an indepth safety survey of their entire natural gas 
system--not just transmission, but also distribution. We're not 
waiting for the results of anything. We're getting PG&E, the 
good folks at PG&E who know how to operate that system, out 
there to do a full safety survey of the system. And not just 
PG&E; we've also started discussions with the other two large 
natural gas utilities in California, as you well know, Senator 
Boxer.
    We also immediately understood the role of the manual 
valves in continuing the damage that happened after the 
explosion. I don't think we're going to know, until the 
National Transportation Safety Board's investigation is 
complete, exactly how much extra damage the fact that it took 
so long for the gas to be fully turned off caused. But, 
clearly, it caused more damage. So, also, on the Monday after 
the Thursday accident, we directed PG&E to do an assessment of 
its system--of its transmission system--and tell us where 
automatic valves, where remote valves--remotely operable valves 
by their controllers--makes sense. We're not waiting for the 
results of the investigation for things that seem clearly 
within the realm of things that we're going to want to order.
    I said that the explosion's happening means that all the 
work that we did leading up to September 9 was inadequate. I 
include the PUC in that. The Public Utilities Commission needs 
to look at itself, at its oversight of PG&E and the other gas 
utilities--in the design and maintenance, in the siting, in the 
inspections, in the renovations of the natural gas pipeline 
systems--to make sure that our regulation is doing what we're 
supposed to do for the people of California, which is: keep 
them safe. It's hard to look at yourself in the mirror, but 
that's what we're going to do. And to help us do that, the PUC, 
last Thursday, now 2 weeks after the accident, established an 
independent review panel. It's going to be made up of people 
from outside the PUC world, looking hard at what happened, why 
it happened, making recommendations so that it doesn't happen 
again, both within the realm of PG&E actions and management and 
systems, and Public Utilities Commission regulation. We're 
going to look at ourselves hard in the mirror, because what 
we're about is preventing pictures like that from going up in 
Senate hearing rooms ever again.
    I'm just going to close. I know we'll get to discussions. I 
want to say that you've got written testimony from the PUC. 
It's actually in the name of Rich Clark, who's here with me. 
Rich is the Director of the Relevant Division at the PUC that 
oversees safety, and he has been on the front lines of the 
investigation from right near the beginning. I want to 
acknowledge that he's here, and he may help us with the 
discussion later.
    I'll just close, Senator, by saying, we need to make some 
changes together at the State level, possibly at the Federal 
level. We need to do that based on good information. We need 
not to rush into things that don't make sense. But, we clearly 
need to make some changes.
    And I look forward to your questions and to the discussion.
    [The prepared statement of Mr. Clanon follows:]

        Prepared Statement of Paul Clanon, Executive Director, 
                 California Public Utilities Commission
    Thank you, Chairman Lautenberg and Ranking Member Thune, for the 
opportunity to testify before you and the other Committee Members about 
the investigation of the September 9, 2010 explosion and fire that 
occurred on Pacific Gas and Electric's (PG&E) natural gas transmission 
pipeline explosion in San Bruno, California, the implications of that 
explosion and fire, current pipeline safety legislative efforts and how 
improvements to pipeline safety can be made to decrease the risk of 
accidents. You've asked that I focus my testimony on these issues, 
highlighting matters in which I have particular expertise and bringing 
before the Committee any other related matters that the California 
Public Utilities Commission (CPUC) and I wish to bring to your 
attention.
    Lastly, I'd like to thank all of the members of the Committee, the 
staff and the members of the public who have expressed their 
condolences to the families and friends of all of the victims of the 
San Bruno tragedy, including CPUC employee, Jacki Greig and her 13-
year-old daughter, Janessa--both of whom perished in the September 9th 
conflagration.
    Along with me today is Richard Clark, the Director of the Consumer 
Protection and Safety Division of the California Public Utilities 
Commission, who has the responsibility of influencing and implementing 
the Commission's consumer protection and safety policies relative to 
California's electric system, natural gas system, communications 
system, freight rail system, inter-city passenger rail system, commuter 
rail system, rail transit systems, plus household goods carriers and 
passenger carriers. He has also been appointed to Secretary LaHood's 
Transit Rail Advisory Committee on Safety (TRACS).
The Investigation
    As you know, the NTSB has asserted primacy in this investigation 
and, as a Party to that investigation, I am limited in what I can 
discuss about that investigation. What I can say is as follows: The 
explosion happened at approximately 6:15 p.m. at milepost 39.33 on 
PG&E's intrastate natural gas transmission Line 132, a line which is 
mostly constructed of 30-inch steel pipe that was installed in 1948. 
Line 132 is one of three intrastate transmission lines that run from 
Milpitas, California north along the Peninsula and terminate in San 
Francisco. Line 132 transitions to 24-inch diameter pipe just north of 
the section that failed in San Bruno. The section of the 30-inch pipe 
that failed was installed in 1956. The explosion that occurred ripped a 
28-foot section from the 1956 vintage pipe and propelled it some 100 
feet away from the location where it was previously buried 
approximately 4 feet beneath an asphalt paved street. A huge fire 
ensued, and it took PG&E approximately 1 hour and 48 minutes to close 
the manual valves located approximately one mile and one and one-half 
miles to the north and south of the ruptured section of pipe. It has 
not yet been determined how long it took for the fire to burn all of 
the residual gas left in the then closed off sections of Line 132. The 
explosion and fire killed 7 people, injured 66 people, destroyed 34 
homes, caused major damages to 3 homes, moderate damage to 16 homes and 
minor damage to 32 homes. The failed section of pipe has been 
transported to the NTSB lab here in Washington, D.C., where it will 
undergo metallurgical testing later this week. A CPUC utility safety 
engineer was on-site the evening of the explosion, and an investigative 
team was present throughout, and integrally involved in the NTSB's 
week-long on-site investigation. We continue to participate fully in 
the NTSB's investigation, and will be present during the metallurgical 
testing. We are also conducting a separate and parallel investigation, 
and will issue our own report after the NTSB issues its report in 
approximately 12-15 months.
    On Monday, September 12, 2010 and Tuesday, September 13, 2010, CPUC 
President Michael Peevey, acting through me, the CPUC's Executive 
Director, Paul Clanon, called for the creation of an expert independent 
review panel and directed Pacific Gas and Electric to:

        1. Reduce the operating pressure on PG&E's Line 132 to a 
        pressure level of 20 percent below the operating pressure at 
        the time of the failure and retain that lower pressure level 
        until such time as the Commission allows PG&E to return to Line 
        132's normal operating pressure;

        2. Ensure that there are no additional risks to the residents 
        of San Bruno by conducting an integrity assessment of all gas 
        facilities in the impacted area;

        3. Conduct an accelerated leak survey of all transmission lines 
        in PG&E's service territory, giving priority to segments in 
        class 3 and class 4 locations, and take corrective action as 
        required and report the results to the CPUC on or before 
        October 12, 2010;

        4. Evaluate records of customer leak-complaint response times 
        and response effectiveness system-wide, take immediate 
        mitigation measures if deficiencies are found, and report the 
        results to the CPUC;

        5. Prepare a plan for a complete safety inspection of PG&E's 
        entire natural gas transmission pipeline system and provide the 
        plan to CPUC no later than September 23, 2010;

        6. Make all employees and contractors available for interviews 
        with Federal and state investigators, including if requested, 
        examinations under oath;

        7. Preserve all records related to the incident, including work 
        at the Milpitas Terminal during the month of September 2010;

        8. Preserve all records related to the maintenance or 
        modification of Line 132 by PG&E and/or its contractors 
        performed within the City of San Bruno over the past ten (10) 
        years;

        9. Review the classification of natural gas transmission lines 
        and determine if the classification has changed since the 
        initial designation and report the results to the Executive 
        Director;

        10. Investigate and report to the Executive Director PG&E's 
        forecasted versus actual levels of spending on pipeline safety 
        and pipeline replacements from 2005 to the present; and

        11. Conduct a review of all gas transmission line valve 
        locations in order to determine locations where it would be 
        prudent to replace manually operated valves with automated 
        valves and report the results to the CPUC.

    On September 23, 2010, in Resolution Number L-403 (copy attached) 
the Commission voted unanimously to open a fact-finding investigation, 
to establish an independent review panel of experts to assist in the 
fact-finding investigation, and to ratify and approve the September 
13th mandates of the Executive Director.
    The charter for the Independent Review Panel is as follows:

        The investigation shall include a technical assessment of the 
        events and their root causes, and recommendations for action by 
        the Commission to best ensure such an accident is not repeated 
        elsewhere. The recommendations may include changes to design, 
        construction, operation, maintenance, and replacement of 
        natural gas facilities, management practices at PG&E in the 
        areas of pipeline integrity and public safety, regulatory 
        changes by the Commission itself, statutory changes to be 
        recommended by the Commission, and other recommendations deemed 
        appropriate by the Panel. The latter shall include examining 
        whether there may be systemic management problems at the 
        utility and whether greater resources are needed to achieve 
        fundamental infrastructure improvements.

    Specific Questions to Guide the Fact-Finding Investigation:

  <bullet> What happened on September 9, 2010?

  <bullet> What are the root causes of the incident?

  <bullet> Was the accident indicative of broader management challenges 
        and problems at PG&E in discharging its obligations in the area 
        of public safety?

  <bullet> Are the Commission's current permitting, inspection, 
        ratemaking, and enforcement procedures as applied to natural 
        gas transmission lines adequate?

  <bullet> What corrective actions should the Commission take 
        immediately?

  <bullet> What additional corrective actions should the Commission 
        take?

  <bullet> What is the public's right to information concerning the 
        location of natural gas transmission and distribution 
        facilities in populated areas?
The Implications of the Pipeline Failure, Explosion and Fire and How 
        Improvements to Pipeline Safety Can Be Made to Decrease the 
        Risk of Accidents
    While all of the implications of the explosion and fire will not be 
known until the investigation is completed, the CPUC and the public 
cannot wait until then to begin improving the safety of the state's 
122,217 miles of hazardous liquid, natural gas transmission and natural 
gas distribution pipelines.
    The PG&E/ San Bruno explosion and fire, may be the largest 
transmission explosion in an urban/suburban setting in U.S. history. It 
is certainly the most catastrophic in California history. The CPUC, 
working independently, with its Independent Panel of Experts, with the 
NTSB, and with the Pipeline and Hazardous Materials Safety 
Administration (PHMSA), will examine the physics of the September 9th 
pipeline failure. Among other things, we will also examine, make 
recommendations, issue directives and take enforcement actions when 
necessary with respect to:

        1. The safety culture of PG&E and the other utilities operating 
        natural gas transmission and distribution pipelines in 
        California;

        2. The natural gas utilities' plans for the replacement of 
        manual shut off valves with automatic and/or remotely 
        controlled valves;

        3. The natural gas utilities' use of ``smart pigs'' and other 
        methods of in-line corrosion and damage assessment, the use of 
        ultrasonic testing and other methods of external corrosion and 
        damage assessment, and the development of new technologies that 
        will improve the ability of pipeline owners to identify 
        internal and external corrosion and other pipeline integrity 
        issues before they result in failures;

        4. Strengthening the requirements of the natural gas 
        transmission and distribution pipeline integrity management 
        programs required by state and Federal laws, and developing an 
        oversight program which more thoroughly examines the utilities' 
        risk management decisionmaking processes;

        5. Requiring more regular reporting of utilities' planned and 
        actual expenditures on pipeline maintenance and replacement 
        projects.

    The CPUC views this event as a system accident (an accident that 
has had serious consequences and has caused a major system disruption 
for natural gas transmission operators, legislators, regulators and the 
general public). Obviously, a system accident in an industry with a 
significantly safe operating record is cause for us taking a new look 
at the elements of the safety system and fixing those elements which 
failed. This is why the CPUC has convened an independent panel of 
experts to review all elements of the natural gas safety system that 
exists at the Federal level and in California and make recommendations 
for improvements to that system. I personally believe that all those 
who seek an improvement in pipeline safety would do well to pay close 
attention to the significant body of work developed by numerous 
scholars and practitioners in developing a systems approach to safety 
and that done in developing high reliability operations.
    I want to thank the Committee for inviting me to testify today. I 
look forward to answering your questions.
                                 ______
                                 
   Public Utilities Commission of the State of California--
                                             Legal Division
                              San Francisco, CA, September 23, 2010
                          Resolution No. L-403
Resolution
    Directives of the California Public Utilities Commission pursuant 
to California Constitution, Article 12, Sections 1-6, Public Utilities 
Code Sections 315, 451, 701, and 702, to investigate the facts 
surrounding the explosion and fire of Pacific Gas and Electric 
Company's natural gas transmission line no. 132, to make an immediate 
assessment of the safety of PG&E's other gas transmission lines, to 
establish an independent review panel to assist in the fact-finding 
investigation of the San Bruno explosion and the overall safety of 
PG&E's gas transmission lines in California, to ratify the mandatory 
instructions of the executive director's previous emergency mandates to 
investigate the San Bruno incident (including, reduction of pressure in 
line 132, required inspections and, surveys, and the preparation of 
plans), to make all of the utility's employees and contractors 
available for fact-finding investigatory interviews, and to preserve 
accident records and general records regarding the safety and integrity 
of line 132.
Summary
    This Resolution is issued to ensure the immediate safety of the 
residents of the City of San Bruno and the people of California in 
connection with the operation of the Pacific Gas and Electric Company 
(``PG&E'') natural gas transmission system. The orders within this 
Resolution provide, among other things, for an investigation into the 
explosion of PG&E's natural gas transmission line 132 in the City of 
San Bruno on the evening of September 9, 2010 (``San Bruno 
explosion''), and into the general safety risks associated with PG&E's 
other gas transmission lines in the State. This investigation will be 
limited to fact-finding only. Adjudicatory or rulemaking proceedings 
may follow but are not part of the ordered investigation in this 
Resolution. The Resolution also creates an Independent Review Panel of 
experts (``Independent Review Panel'' or ``Panel'') to gather facts, 
review these facts and make recommendations to the Commission for the 
improvement of the safe management of PG&E's natural gas transmission 
lines. The costs of the Panel will be funded by PG&E. A memorandum 
account is authorized to track the costs of the Panel for cost recovery 
purposes, but the Commission defers any decision on the allocation of 
such costs between PG&E's shareholders and customers. The President of 
the Commission is authorized to select the members of the Panel, 
subject to confirmation by a vote of the Commission.
Background
    At approximately 6:15 in the evening of September 9, 2010, a 
portion of PG&E's natural gas pipeline 132 ruptured and exploded in the 
City of San Bruno near Skyline Boulevard, killing seven residents and 
injuring numerous others, some of them severely. The San Bruno 
explosion resulted in a large fireball which ultimately destroyed 37 
homes. It took PG&E approximately one and a half hours to shut off the 
gas flow on the ruptured line, by closing two manually operated 
pipeline valves--one of them a mile away from the rupture, and the 
other one and a half miles away. The San Bruno explosion may be the 
largest transmission pipeline explosion in an urban/suburban setting in 
U.S. history, certainly the most catastrophic in California history.
Jurisdiction and Authority
    The Commission issues the directives in this Resolution pursuant to 
its plenary and broad powers under, inter alia, the California 
Constitution and the Public Utilities Code section 451, which mandates 
the following: ``Every public utility shall furnish and maintain such 
adequate, efficient, just, and reasonable service, instrumentalities, 
equipment, and facilities . . . as are necessary to promote the safety, 
health, comfort, and convenience of its patrons, employees, and the 
public.'' (Pub. Util. Code, Sec. Sec. 451.) In our broad grant of 
jurisdiction over public utilities in California, we are authorized to 
``do all things, whether specifically designated in . . . [the Public 
Utilities Code] or in addition thereto, which are necessary and 
convenient'' to our regulation of public utilities, including, though 
not limited to, adopting necessary rules and requirements in 
furtherance of our constitutional and statutory duties to regulate and 
oversee public utilities operating in California. (Pub. Util. Code, 
Sec. 701.) This Commission has comprehensive jurisdiction over 
questions of public health and safety arising from utility operations. 
(San Diego Gas & Electric v. Superior Court (``Covalt'') (1996) 13 
Cal.4th 893, 923-924.) Our jurisdiction to regulate these entities is 
set forth in the California Constitution and in the Public Utilities 
Code. (Cal. Const., art. XII, Sec. Sec. 1-6; see generally, Pub. Util. 
Code, Sec. Sec. 216, 701, 768, 1001.) Public utilities are required to 
``obey and comply with every order, decision, direction, or rule made 
or prescribed by the Commission. . . .'' (Pub. Util. Code, Sec. 702; 
see also, Pub. Util. Code, Sec. Sec. 761, 762, 767.5, 768, 770.)
    Under Federal statutes, the Commission is certificated by the 
Pipeline and Hazardous Materials Safety Administration (``PHMSA'') in 
the U.S. Department of Transportation to adopt the Federal pipeline 
safety standards, to enforce those standards, order the preservation 
and maintenance of records, and enforce these powers through injunctive 
relief. (See 49 U.S.C. Sec. 60105, subds. (b)(1) through (b)(7)).
Ratification and Approval of the Mandates of the Executive Director
    Because of this unforeseen emergency, the Commission's Executive 
Director ordered PG&E to perform certain duties in a letter dated 
September 13, 2010. By this Resolution, the Commission hereby approves 
those mandates. Specifically, those mandates included the following:

        1. Reduce the operating pressure on PG&E's Line 132 to a 
        pressure level of 20 percent below the operating pressure at 
        the time of the failure and retain that lower pressure level 
        until such time as the Commission allows PG&E to return to Line 
        132's normal operating pressure;

        2. Ensure that there are no additional risks to the residents 
        of San Bruno by conducting an integrity assessment of all gas 
        facilities in the impacted area;

        3. Conduct an accelerated leak survey of all transmission lines 
        in PG&E's service territory, giving priority to segments in 
        class 3 and class 4 locations, within one month of the date of 
        this letter and take corrective action as required and report 
        the results to the Executive Director on or before October 12, 
        2010;

        4. Evaluate records of customer leak-complaint response times 
        and response effectiveness system-wide, take immediate 
        mitigation measures if deficiencies are found, and report the 
        results to the Executive Director;

        5. Prepare a plan for a complete safety inspection of PG&E's 
        entire natural gas transmission pipeline system and provide the 
        plan to me no later than September 23, 2010;

        6. Make all employees and contractors available for interviews 
        with Federal and state investigators, including if requested, 
        examinations under oath;

        7. Preserve all records related to the incident, including work 
        at the Milpitas Terminal during the month of September 2010;

        8. Preserve all records related to the maintenance or 
        modification of Line 132 by PG&E and/or its contractors 
        performed within the City of San Bruno over the past ten (10) 
        years;

        9. Review the classification of natural gas transmission lines 
        and determine if the classification has changed since the 
        initial designation and report the results to the Executive 
        Director;

        10. Investigate and report to the Executive Director PG&E's 
        forecasted versus actual levels of spending on pipeline safety 
        and pipeline replacements from 2005 to the present; and

        11. Conduct a review of all gas transmission line valve 
        locations in order to determine locations where it would be 
        prudent to replace manually operated valves with automated 
        valves and report the results to the Executive Director.

    Mandate #1, above, which required PG&E to reduce the operating 
pressure on PG&E's Line 132 to a pressure level of 20 percent below the 
operating pressure at the time of the pipeline rupture and to retain 
that lower pressure level until such time as the Commission allows PG&E 
to return Line 132 to a higher operating pressure, is consistent with 
PHMSA's Corrective Action Orders in similar emergency situations, 
including the following recent example:

        ``Pursuant to 49 U.S.C. Sec. 60112, I hereby order BP to take 
        the following corrective actions . . . The terms of the restart 
        plan must include provisions for . . . Reducing the MOP of the 
        Affected Pipeline Facility to 80 percent of the highest 
        operating pressure experienced at the White Oak Station (MP 0) 
        and Crete Station (MP 19.95) in the 60 days prior to August 17, 
        2010.''

    In the Matter of BP Pipelines (North America), Inc., Respondent, 
(Aug. 26, 2010) CPF No. 3-2010-5010H, at p. 4; see also Evaluation of 
the Effectiveness of a 20% Pressure Reduction After a Pipeline Failure 
(May 1997) Report No. DTRS56-96-C-0002-001, U.S. Department of 
Transportation.

    With respect to mandates #7 and #8, PG&E is required to maintain 
its gas transmission pipeline records and make them available for 
review under 49 CFR Part 192.947.
    In this Resolution, the Commission approves the foregoing mandates 
of the Executive Director in his letter to PG&E of September 13, 2010, 
and adopt these mandates in this Resolution, but with minor 
modifications as set forth in the Ordering Paragraphs below.
Waiver of Comment Period
    The tragic San Bruno explosion is an unforeseen emergency of local 
and statewide importance requiring immediate action by the Commission. 
The normal 30-day comment period for the issuance of an order or 
resolution may be waived in circumstances such as these. (Pub. Util. 
Code Sec. Sec. 311, subds. (d) and (g)(2); see also Resolution E-3731, 
Pacific Gas and Electric Company (April 3, 2001) 2001 Cal. PUC LEXIS 
659.) The Commission's Rules of Practice and Procedure also permit such 
a waiver.\1\
---------------------------------------------------------------------------
    \1\ ``In an unforeseen emergency situation, the Commission may 
reduce or waive the period for public review and comment on proposed 
decision, draft resolutions, and alternates.'' ``Unforeseen emergency 
situation'' means a matter that requires action or a decision by the 
Commission more quickly than would be permitted if advance publication 
were, made on the regular meeting agenda. Examples include, but ``are 
not limited to . . . [a]ctivities that severely impair or threaten to 
severely impair[,] public health or safety[,] . . . [c]rippling 
disasters that severely impair public health or safety[,] . . . 
[u]nusual matters that cannot be disposed of by normal procedures if 
the duties of the Commission are to be fulfilled.'' (Cal. Code of 
Regs., tit. 20, Sec. 14.6 subds. (1), (2) and (8).)
---------------------------------------------------------------------------
Establishment of an Independent Review Panel to Assist in the Fact-
        Finding Investigation
    The Commission will establish, within 60 days of the date of this 
Resolution, an Independent Review Panel of experts to gather facts and 
make recommendations based on the facts to the Commission as to whether 
there is a need for the general improvement of the safety of PG&E's 
natural gas transmission lines, and if so, how these improvements 
should be made. The Panel will be retained by the Commission and funded 
by PG&E. The President of the Commission will select the experts on the 
Panel. The Commission establishes this Panel pursuant to its powers 
under Public Utilities Code sections 451, 701 and 702. The Charter of 
the Panel is appended to this Resolution and incorporated herein by 
reference.
    PG&E shall provide full cooperation to Commission staff and the 
Panel during the investigation into the cause of the San Bruno 
explosion and the safety of PG&E's gas transmission pipelines in 
general. In this regard, upon request, PG&E shall provide Commission 
staff and/or the Panel: (i) any factual or physical evidence under the 
utility or utility agent's physical control, custody, or possession 
related to the San Bruno explosion; (ii) the name and contact 
information of any known percipient witness; (iii) any employee or 
agent of PG&E, who is a percipient witness or expert witness; the name 
and contact information of any person or entity that has taken 
possession of any physical evidence removed from the site of the San 
Bruno explosion; (iv) any and all documents under the utility's control 
that contain facts related to the San Bruno explosion; any additional 
information deemed relevant and necessary by Commission staff and/or 
the Panel to the investigation of the San Bruno explosion; and (v) any 
and all information related to the safety and integrity of PG&E's gas 
transmission pipelines. In obtaining information from PG&E and other 
sources, the Panel shall coordinate as necessary with Commission staff 
as their respective investigations proceed.
    The Commission observes that Public Utilities Code sections 311, 
313, and 314, authorize each of the Commissioners, the Executive 
Director, the Assistant Executive Directors and the Administrative Law 
Judges to issue subpoenas requiring the attendance of witnesses and 
production of documents for examinations under oath even prior to the 
initiation of formal proceedings, which is similar to the investigatory 
authority, prior to hearings under Government Code sections 11180-
11191. In this regard, even without the compulsion of a subpoena, the 
Commission hereby confirms that under Public Utilities Code 
Sec. Sec. 313, 314, 314.5, 315, 581, 582, 584, 701, 702, 771, 1794, and 
1795, the Commission staff may obtain information from utilities and is 
already deemed to have the general investigatory authority of the 
Commission. Because the Commission staff already has the authority, 
there is no need to grant this authority to Commission staff. However, 
inasmuch as the Panel is newly established, it is necessary that the 
Commission confer the same investigatory authority as the Commission 
staff already possesses to the Panel, for purposes of the fact-finding 
investigation of the San Bruno explosion and the safety of PG&E's 
natural gas transmission pipelines.
    The Panel, like the Commission staff, may review documents that are 
marked ``Confidential under Sec. 583'' subject to the provisions of 
Public Utilities Code section 583. This statute requires such documents 
to be kept confidential (unless the utility waives the confidentiality 
requirement, the Commission orders the release, or a Commissioner 
orders release in the course of a proceeding). However, in order to 
ensure that documents are not withheld from the public without legally 
valid justification, we will require that in order for PG&E to maintain 
the confidentiality of documents produced to the Commission in this 
pre-adjudicatory investigation, PG&E must comply with the following 
procedures: (1) each page of the confidential documents must be marked 
``Confidential under Sec. 583''; (2) for each document marked 
``Confidential under Sec. 583,'' the utility must provide a 
justification for treating it confidentially; and (3) any document 
designated for protection as confidential must not already be available 
to the public. In addition, unless or until a formal proceeding is 
initiated, the Commission authorizes the Commission's President to act 
on behalf of the Commission to release for public inspection documents 
marked by PG&E as ``Confidential under Sec. 583,'' if he finds that 
PG&E has not sufficiently justified its confidentiality or that the 
public interest warrants its release to the public.
    Since we are in a fact-finding stage and are not interested in the 
thoughts, opinions or communications of PG&E's attorneys, we expect 
that PG&E will not withhold facts or expert opinions under the guise of 
attorney-client privilege or the work product doctrine. Indeed, public 
utilities in California are statutorily required to report any facts or 
expert opinions as to the cause of accidents to the Commission under 
the Public Utilities Code section 315.\2\ Similarly, we put PG&E on 
notice that it must promptly make available its employees and 
independent contractors for interviews requested by Federal 
investigators (e.g., the National Transportation Safety Board 
(``NTSB'')) and state investigators (e.g., Commission staff or the 
Panel), including examinations under oath pursuant to Public Utilities 
Code section 314. Under analogous statutory provisions, such as 
Government Code sections 11180-11191, courts have recognized the 
differences between examinations under oath, which are conducted prior 
to formal hearings, and depositions. (See, e.g., People v. West Coast 
Shows, Inc. (1970) 10 Cal. App. 3d 462, 470.) Moreover, as the U.S. 
Supreme Court explained in Hannah v. Larche (1960) 363 U.S. 420, 446, 
``[w]hen agencies are conducting nonadjudicative, fact-finding 
investigations, rights such as appraisal, confrontation, and cross-
examination generally do not obtain. While the person summoned may have 
the advice of counsel, counsel may not, as a matter of right, otherwise 
participate in the investigation.'' The Supreme Court further 
recognized that the lack of counsel participation or other parties was 
necessary for agencies to conduct efficient investigations, and that 
this would not violate the due process rights of a party, because the 
party, if ultimately charged, would be accorded all of the traditional 
judicial safeguards at a subsequent adjudicative hearing. (Id.) For all 
of these reasons, the Commission interprets very broadly the 
investigatory authority of Commission staff, and the investigatory 
authority granted to the Panel.
---------------------------------------------------------------------------
    \2\ It is also the Commission's understanding that although the 
utilities have an attorney-client privilege, that privilege does not 
extend to the underlying facts as they have been communicated to the 
attorney. (See, e.g., Wells Fargo Bank v. Superior Court (2000) 22 
Cal.4th 201, 210; see also Martin v. Workers Compensation Appeals Board 
(1997) 59 Cal. App. 4th 333,345.) Moreover, it is not clear that the 
work product doctrine, Code of Civil Procedure section 2018.030, is 
applicable to pre-adjudicatory administrative fact-finding. However to 
the extent it does apply, except for the attorney's own thoughts and 
mental impressions, the work product doctrine is considered a qualified 
privilege. We find that the public interest in ensuring the safety of 
California citizens from potential disasters, such as the San Bruno 
Explosion, clearly outweighs PG&E's need for its experts' opinion to be 
withheld from the Commission. (See Kizer v. Sulnick (1988) 202 
Cal.App.3d 437, 441 [``Appellant cannot fulfill his statutory duty to 
investigate the possible health hazards posed by the waste facility 
without access to all relevant information. . . .''].)
---------------------------------------------------------------------------
Findings of Fact
    1. The Commission finds that the San Bruno explosion of September 
9, 2010, is an ``unforeseen emergency'' under Public Utilities Code 
sections 311(d) and 311(g)(2).
    2. The mandates issued by the Commission's Executive Director set 
forth in his letter to PG&E dated September 13, 2010, were necessary to 
immediately address the unforeseen emergency of the San Bruno 
explosion.
    3. The Commission finds that the normal 30-day comment period for 
the issuance of an order or resolution should be waived. (Pub. Util. 
Code Sec. 311(d) and 311(g)(2).)
    4. The Commission finds that the establishment of an Independent 
Review Panel is reasonable and necessary under these emergency 
circumstances, and that the authority to select the members of such 
Panel shall be exercised by the President of the Commission, subject to 
confirmation by a vote of the Commission.
    5. The Commission finds that it is reasonable and necessary for the 
expenses of the Panel to be paid by PG&E. Issues regarding the 
allocation of the costs and expenses of the Panel between shareholders 
and customers shall be determined in a later proceeding. PG&E is 
instructed to pay the costs and expenses, and record those costs and 
expenses in a memorandum account.
    6. The Commission finds that the Charter of the Panel, appended 
hereto, is reasonable and appropriate.
    7. The Commission finds that it is necessary for the Panel to have 
access to information involving the investigation of the San Bruno 
explosion and the safety and integrity of PG&E's natural gas 
transmission pipelines, and such access should be pursuant to Public 
Utilities Code sections 313, 314, 314.5, 315, 581, 582, 584, 701, 702, 
771, and 1795.
    8. In order to ensure that documents are not withheld from the 
public without legally valid justification during this pre-adjudicatory 
investigation, PG&E must comply with the following procedures: (1) each 
page of the confidential documents must be marked ``Confidential under 
Sec. 583''; (2) for each document marked ``Confidential under 
Sec. 583,'' the utility must provide a justification for treating it 
confidentially; and (3) any document designated for protection as 
confidential must not already be available to the public.
    9. The Commission finds that it is reasonable and necessary under 
these emergency circumstances that the Commission authorize the 
Commission's President to act on behalf of the Commission to release 
for public inspection documents marked ``Confidential under Sec. 583'' 
if he finds that PG&E has not sufficiently justified its assertion of 
confidentiality or that the public release of such documents is in the 
public interest.
Conclusions of Law
    1. The San Bruno explosion is an ``unforeseen emergency'' under 
Public Utilities Code sections 311(d) and 311(g)(2).
    2. The mandates issued by the Commission's Executive Director in 
his letter to PG&E dated September 13, 2010, were reasonable and 
necessary to immediately address the unforeseen emergency of the San 
Bruno explosion.
    3. The Commission's ratification of the mandates set forth in the 
Executive Director's letter to PG&E of September 13, 2010, is a 
reasonable, necessary and appropriate means of immediately addressing 
the unforeseen emergency of the San Bruno explosion.
    4. It is reasonable and necessary to waive the normal 30-day 
comment period for the issuance of this Resolution pursuant to Public 
Utilities Code sections 311(d) and 311(g)(2).
    5. It is reasonable and necessary to establish an Independent 
Review Panel of experts to gather facts regarding the San Bruno 
explosion and PG&E's natural gas transmission pipeline system, and to 
evaluate these facts and make recommendations regarding the overall 
safety of PG&E's transmission pipelines in order to address this 
unforeseen emergency.
    6. It is reasonable and necessary that the President of the 
Commission select the members of the Panel, under these emergency 
circumstances, subject to confirmation by a vote of the Commission.
    7. It is reasonable and necessary that PG&E fund the costs and 
expenses of the Panel because of these emergency circumstances. PG&E is 
instructed to pay the costs and expenses and to record those costs and 
expenses in a memorandum account. Issues regarding the allocation of 
costs and expenses of the Panel between shareholders and customers 
shall be determined later.
    8. The Charter of the Panel, appended hereto, is reasonable and 
appropriate under these emergency circumstances.
    9. The Panel is given the same investigatory authority as the 
Commission staff has under the Public Utilities Code. Access by the 
Panel to information shall be limited to the investigation of the San 
Bruno explosion and the safety and integrity of PG&E's natural gas 
transmission pipelines.
    10. In this fact-finding and investigatory process, in order for 
PG&E to maintain the confidentiality of documents produced to the 
Commission in this pre-adjudicatory investigation, PG&E must comply 
with the following procedures: (1) each page of the confidential 
documents must be marked ``Confidential under Sec. 583;'' (2) for each 
document marked ``Confidential under Sec. 583,'' the utility must 
provide a justification for such confidential treatment; and (3) any 
document designated by PG&E for protection as confidential must not 
already be available to the public.
    11. It is reasonable and necessary under these emergency 
circumstances to authorize the Commission's President to act on behalf 
of the Commission and to release to the public documents PG&E has 
marked ``Confidential under Sec. 583'' if he finds that PG&E has not 
sufficiently justified its assertion of confidentiality or that the 
public release of such documents is in the public interest. This 
authorization will remain in effect until a formal proceeding is 
initiated.
    12. It is in the best interests of this investigation that PG&E 
make PG&E employees or independent contractors available for 
examinations under oath by the Commission staff or by the Panel.
    13. Examination under oath prior to adjudicatory hearings are 
different from depositions and, for purposes of efficiency in 
conducting the Commission's investigation, the participation of counsel 
for the witness or other parties shall not be allowed at this early 
stage of investigation.
Order
    1. The normal 30-day comment period for the issuance of the 
Executive Director's letter to PG&E of September 13, 2010, and this 
Resolution shall be waived pursuant to Public Utilities Code sections 
311(d) and 311(g)(2), Resolution E-3731, Pacific Gas and Electric 
Company (April 3, 2001) 2001 Cal. PUC LEXIS 659, and Cal. Code of 
Regs., tit. 20, Sec. Sec. 14.6 subd. (1), (2) and (8).
    2. In response to this unforeseen emergency, an Independent Review 
Panel shall be established to gather information regarding the San 
Bruno explosion and the overall safety of PG&E's natural gas 
transmission pipelines, and to review and evaluate such information, as 
well as make recommendations to the Commission.
    3. The President of the Commission shall select the members of the 
Panel, subject to confirmation by a vote of the Commission. The Panel 
shall operate under the Charter appended to this Resolution.
    4. PG&E shall pay for the costs and expenses of the Panel and shall 
establish a memorandum account to record those costs and expenses.
    5. PG&E shall provide cooperation to Commission staff and the Panel 
during the investigation into the cause of the San Bruno Explosion and 
safety of PG&E's transmission lines in general. In this regard, upon 
request, PG&E shall provide Commission staff and/or the Panel: (i) any 
factual or physical evidence under the utility or utility agent's 
physical control, custody, or possession related to the San Bruno 
Explosion; (ii) the name and contact information of any known 
percipient witness; (iii) the name and contact information of any 
employee or agent of PG&E who is a percipient witness or an expert 
witness; (iv) the name and contact information of any person or entity 
that has taken possession of any physical evidence removed from the 
site of the San Bruno explosion; (v) any and all documents under the 
utility's control that contain facts related to the San Bruno 
explosion, and (vi) any and all information related to the safety and 
integrity of PG&E's gas transmission pipelines.
    6. For the limited purpose of this investigation in the San Bruno 
explosion and the general safety and integrity of PG&E's natural gas 
transmission pipelines, the Commission authorizes the Panel to have the 
same investigatory authority and access to information as the 
Commission staff possesses under Public Utilities Code sections 313, 
314, 314.5, 315, 581, 582, 584, 701, 702, 771, 1794, and 1795.
    7. In order to maintain the confidentiality of documents produced 
to the Commission in this pre-adjudicatory investigation, PG&E shall 
comply with the following procedures: (1) each page of the confidential 
documents must be marked ``Confidential under Sec. 583''; (2) for each 
document marked ``Confidential under Sec. 583,'' the utility must 
provide a justification for its confidential treatment; and (3) any 
document designated by PG&E for protection as confidential must not 
already be available to the public.
    8. The Commission authorizes the Commission's President to act on 
behalf of the Commission to determine whether documents that PG&E has 
marked ``Confidential under Sec. 583'' shall be released to the public. 
The President may release such a document if he finds that PG&E has not 
sufficiently justified its assertion of confidentiality or that its 
public release is in the public interest.
    9. PG&E shall make available for examinations under oath by the 
Commission staff or by the Panel, PG&E employees or independent 
contractors. Neither PG&E's counsel, nor any other person other than 
the person being examined, may ``participate'' in the examination under 
oath.
    10. PG&E shall reduce the operating pressure on PG&E's Line 132 to 
a pressure level of 20 percent below the operating pressure at the time 
of the failure and retain that lower pressure level until such time as 
the Commission allows PG&E to increase the pressure in Line 132.
    11. PG&E shall ensure that there are no additional risks to the 
residents of the City of San Bruno by conducting an integrity 
assessment of all gas facilities in the impacted area.
    12. PG&E shall conduct an accelerated leak survey of all natural 
gas transmission pipelines, giving priority to segments in class 3 and 
class 4 locations, within one month of the date of this letter and take 
corrective action as required and report the results to the 
Commission's Executive Director on or before October 12, 2010.
    13. PG&E shall evaluate records of customer natural gas leak-
complaint response times and response effectiveness system-wide, take 
immediate mitigation measures if deficiencies are found, and report the 
results to the Executive Director within ten (10) days of the date of 
this Resolution.
    14. PG&E shall prepare a plan for a complete safety inspection of 
PG&E's entire natural gas transmission pipeline system and provide the 
plan to the Executive Director immediately.
    15. PG&E shall make all employees and independent contractors who 
performed work on Line 132 prior to the San Bruno explosion available 
for interviews with Federal and state investigators, including if 
requested, examinations under oath.
    16. PG&E shall preserve all records related to the San Bruno 
explosion, including work at the Milpitas Terminal during the months of 
August and September 2010.
    17. PG&E shall preserve all records related to the inspection, 
maintenance or modification of Line 132 by PG&E and/or its contractors 
performed within the City of San Bruno over the past ten (10) years.
    18. PG&E shall review the classification of its natural gas 
transmission pipelines and determine if those classifications have 
changed since the initial designation.
    19. PG&E shall report the results of its review of the 
classification of its natural gas transmission lines and any subsequent 
changes to those classifications since PG&E's initial designation to 
the Executive Director within ten (10) days of the date of this 
Resolution.
    20. PG&E shall investigate and report to the Commission PG&E's 
forecasted versus actual levels of spending on pipeline safety and 
pipeline replacements from 2003 to the present within ten (10) days of 
the date of this Resolution.
    21. PG&E shall conduct a review of all natural gas transmission 
line valve locations in order to determine locations where it would be 
prudent to replace manually operated valves with remotely operated or 
automated valves and shall report its results to the Commission within 
thirty (30) days of the issuance date of this Resolution.
    22. In all other respects, PG&E shall fully cooperate with the 
Commission's investigation into the San Bruno explosion, including a 
general investigation into the safety and integrity of PG&E's gas 
transmission lines, and respond expeditiously to the Commission's 
request for information.
    This Order is effective today.
    I certify that this Resolution was adopted by the Public Utilities 
Commission at its regular meeting of September 23, 2010. The following 
Commissioners approved it:
                                               Paul Clanon,
                                                Executive Director.
                                 ______
                                 
                Charter of the Independent Review Panel
              Independent Review Panel--September 9, 2010
                          San Bruno Explosion
Charter
    On behalf of the California Public Utilities Commission, an 
Independent Review Panel of experts shall be retained for the purpose 
of conducting a comprehensive study and investigation of the September 
9, 2010, explosion and fire along a Pacific Gas and Electric Company 
(``PG&E'') natural gas transmission pipeline in San Bruno, CA. The 
investigation shall include a technical assessment of the events and 
their root causes, and recommendations for action by the Commission to 
best ensure such an accident is not repeated elsewhere. The 
recommendations may include changes to design, construction, operation, 
maintenance, and replacement of natural gas facilities, management 
practices at PG&E in the areas of pipeline integrity and public safety, 
regulatory changes by the Commission itself, statutory changes to be 
recommended by the Commission, and other recommendations deemed 
appropriate by the Panel. The latter shall include examining whether 
there may be systemic management problems at the utility and whether 
greater resources are needed to achieve fundamental infrastructure 
improvements.
Specific Questions to Guide the Fact-Finding Investigation
  <bullet> What happened on September 9, 2010?

  <bullet> What are the root causes of the incident?

  <bullet> Was the accident indicative of broader management challenges 
        and problems at PG&E in discharging its obligations in the area 
        of public safety?

  <bullet> Are the Commission's current permitting, inspection, 
        ratemaking, and enforcement procedures as applied to natural 
        gas transmission lines adequate?

  <bullet> What corrective actions should the Commission take 
        immediately?

  <bullet> What additional corrective actions should the Commission 
        take?

  <bullet> What is the public's right to information concerning the 
        location of natural gas transmission and distribution 
        facilities in populated areas?
Membership and Support
    The membership of the Panel shall consist of no fewer than three 
experts, and no more than five, selected by the President of the 
Commission, and confirmed by a vote of the Commission. The President of 
the Commission shall select a leader for the Panel. The Panel shall 
exercise investigatory powers as granted by the Commission. Commission 
staff shall provide administrative support to members of the Panel. The 
Panel also shall be free to seek opinions and recommendations from 
expert consultants.
Compensation and Expenses
    Members of the Panel shall be paid a nominal sum. Reasonable 
expenses incurred by members will be paid. Expert consultants to the 
Panel shall be paid reasonable compensation.

    Senator Boxer. Thank you very much. Very helpful.
    Mr. Johns, we welcome you, President of Pacific Gas and 
Electric. We saw each other on the scene, and you were right 
there, and I'm glad to see you here again.

          STATEMENT OF CHRISTOPHER JOHNS, PRESIDENT, 
                PACIFIC GAS AND ELECTRIC COMPANY

    Mr. Johns. Well, thank you, Senator.
    I'd like to thank Chairman Lautenberg, Ranking Member 
Thune, you, Senator Boxer, and the members of the Subcommittee, 
for giving us the opportunity to be here today. And thank you 
for your focus on safety of our Nation's natural gas 
infrastructure.
    For Americans who live or work around our industry's 
pipelines and facilities, the potential stakes around this 
issue could not be higher. We were forcefully reminded of this 
fact again on the evening of September 9, when tragedy struck 
in San Bruno. The explosion there claimed eight lives. It 
resulted in many others being injured and hospitalized for 
burns. It left many families homeless, and it seriously damaged 
the homes of many more.
    Those of us who have been to the scene in San Bruno, as I 
have on several occasions, including the night of the fire, and 
who have spoken with the residents, won't ever forget what they 
saw in these experiences. It's absolutely heart-wrenching. And 
yet, it can't begin to compare with what the residents, 
themselves, experienced that night and in the difficult days 
that followed. My heart and prayers goes out to all the 
families and all the members of the community of San Bruno.
    Since that night, our thoughts and our focus at PG&E have 
been on doing the right thing in three critical areas:
    First, above all, getting immediate support and assistance 
to the people affected by this tragedy.
    Second, taking responsible action to assure everyone that 
our gas system is safe.
    And finally, learning that--what led to this tragedy, so 
that no other community in the United States has to experience 
this kind of ordeal.
    These priorities have guided everything we've done for the 
past several weeks. Even before the first responders had 
finished their heroic work in the hours after the explosion, we 
said clearly that PG&E would step up and do what's right for 
the families and the City of San Bruno. We gave Mayor Ruane and 
all the residents of San Bruno PG&E's commitment to stand with 
them, to rebuild the community and help people rebuild their 
lives.
    Mr. Mayor, I am reaffirming that commitment again today to 
you. Your leadership has been phenomenal throughout this. You 
and your entire team have just exemplified what leadership 
should be in America.
    Mr. Ruane. Thank you.
    Mr. Johns. To date, PG&E's assistance has taken several 
forms, from providing basic food, shelter, and clothing to 
establishing a relief fund of up to $100 million to help the 
folks in San Bruno. Through the Rebuild San Bruno Fund, we 
provide direct financial assistance to hundreds of households; 
we've covered costs of losses not covered by people's 
insurance; and we're reimbursing the city for certain costs it 
incurs to respond to this accident and to rebuild.
    In parallel with assisting the community, we've also taken 
steps to assure everyone that our gas system is safe. 
Individually and collectively, as an industry, every company 
that operates national--natural gas facilities shares a 
profound responsibility to protect public safety. It is, bar 
none, the highest duty that we are entrusted with.
    When a tragedy shakes the foundations of that trust, it is 
critical that we reach out and assure everyone that our system 
is sound. We've begun that process, and I know the industry is 
committed to doing that, as well.
    PG&E has met with public officials in dozens of cities and 
counties throughout our service territory over the past few 
weeks. We're keeping them apprised of the work we are now doing 
to reinspect our entire pipeline system. We're making sure they 
have the latest information about the location of any of PG&E's 
gas facilities in their communities. We're sharing detailed 
information about the maintenance standards and practices that 
we and the industry follow. And when we ultimately learn what 
led to this tragedy, we will be sharing with them whatever 
actions we need to take in response. While no one yet knows how 
this accident occurred, we know for certain that a tragedy like 
this should never happen.
    Finally, we recognize that, as an industry, we have a 
responsibility to make sure we are operating in accordance with 
the highest standards when it comes to pipeline safety. 
Moreover, we know these standards must be continually evaluated 
and updated to reflect any lessons learned.
    In this regard, I'd like to acknowledge, Senator Boxer, 
you've worked with Senator Feinstein to introduce new 
legislation on pipeline safety, and we look forward to working 
with you and your staffs to move that forward.
    Learning what happened at San Bruno will be an important 
part of that process, and PG&E is fully committed to 
cooperating with the various investigations that are now going 
on. We will continue to do so until all the questions are 
answered. And at that point, I know that PG&E and every company 
in our industry will focus on those findings and move swiftly 
to take whatever action is necessary to prevent another tragedy 
like this from every happening again.
    Thank you for having me.
    [The prepared statement of Mr. Johns follows:]

          Prepared Statement of Christopher Johns, President, 
                    Pacific Gas and Electric Company
    Chairman Lautenberg, Ranking Member Thune and members of the 
Subcommittee. My name is Chris Johns and I am President of Pacific Gas 
and Electric Company or PG&E. PG&E is one of the largest combined 
natural gas and electric utilities in the United States. Based in San 
Francisco, with nearly 20,000 employees, the company delivers 
electricity and natural gas to approximately 15 million people in 
Northern and Central California. PG&E's extensive natural gas system 
integrates more than 42,000 miles of natural gas distribution lines and 
more than 6,700 miles of natural gas transportation (or transmission) 
pipelines.
    I first want to thank you for providing me with the opportunity to 
be here today to participate in a hearing on the safety of our Nation's 
natural gas infrastructure.
    For Americans who live or work around natural gas pipelines and 
facilities, the potential stakes around this issue could not be higher.
    The events of the evening of September 9th are a stark reminder of 
that. On that evening, a rupture occurred on PG&E's natural gas 
transmission line running through the Crestmoor Canyon neighborhood of 
San Bruno, California resulting in an explosion. The results of that 
explosion were tragic. Seven people lost their lives. According to 
reports, dozens of people were taken to local hospitals and treated for 
serious burns and injuries. Fifteen acres burned. A large crater was 
created. Thirty-seven homes were destroyed and many more experienced 
damage. In total, 376 households were forced to evacuate. The days 
since have been an ordeal for the community; most of us cannot truly 
comprehend what the people of San Bruno went through that night, and 
continue to go through today. We are working with the National 
Transportation Safety Board (NTSB) to learn the cause of this tragic 
explosion.
    Those of us who have been to the scene of the accident, as I have 
on several occasions including the night of the fire, and who have 
spoken with a number of families from the neighborhood, will not ever 
forget these experiences.
    They are heart-wrenching. And yet, they can not begin to approach 
what the residents in that neighborhood witnessed and felt the evening 
of the disaster--and in the difficult days that have followed.
    My heart goes out to all the families and people affected by this 
tragedy.
    We know there is a long road to recovery ahead. We want to 
reiterate PG&E's commitment to stand by the people and community of San 
Bruno. We will do what's right to help rebuild the community--and to 
help people rebuild their lives.
    PG&E's attention and resources have been focused on three 
priorities:

        1. Getting help to the families and individuals affected.

        2. Assuring everyone that our system is safe.

        3. Cooperating fully with any and all investigations into the 
        causes of this terrible accident.
Helping the Community
    In the weeks since the tragedy, PG&E has been focused on helping 
the families affected by this accident and the City of San Bruno. On 
behalf of PG&E, I want extend our personal appreciation to San Bruno 
City Mayor Jim Ruane and all of the city officials whose heroic efforts 
and tremendous leadership are helping San Bruno to begin to recover 
from this tragedy.
    Some of the steps we have taken include:

  <bullet> Providing affected residents with immediate support in the 
        form of housing, clothing and financial assistance, such as 
        $1,000 pre-paid debit cards to help meet immediate needs;

  <bullet> Establishing the Rebuild San Bruno Fund, which is making up 
        to $100 million available to:

    <bullet> Provide direct emergency assistance, in the form of cash 
            disbursements for immediate expenses not covered by 
            insurance.

    <bullet> Ensure that residents are reimbursed for costs or losses 
            that may not be covered by insurance.

    <bullet> Provide financial assistance to the City of San Bruno for 
            certain costs it incurs as it responds to this accident and 
            to rebuild or repair public infrastructure and facilities.

  <bullet> Restoring power and gas service to the neighborhood and 
        conducting in-home safety checks.

    With regard to the Rebuild San Bruno Fund, PG&E has already 
provided San Bruno officials with an initial $3 million to help 
compensate the city for certain of its estimated expenses incurred to 
date.
    We have also now distributed checks to hundreds of households, in 
the amounts of $15,000, $25,000, or $50,000 each, depending on the 
extent of damage incurred. Residents have not been asked to waive any 
potential claims in order to receive this assistance. Also, these funds 
are being provided in addition to the company's ongoing provision of 
funds to ensure affected residents continue to have access to temporary 
housing and other basic necessities.
Restoring Public Confidence
    We recognize that the accident has shaken customers' confidence in 
the safety and integrity of our system both in the areas surrounding 
San Bruno and across PG&E's service area. We take these concerns very 
seriously and have taken steps to help restore that confidence. First, 
we re-inspected the three major pipelines that serve the San Francisco 
Peninsula. We also reduced the operating pressure of the transmission 
lines serving the area by 20 percent.
    In addition to these efforts we are conducting aerial inspections 
of our entire natural gas transmission system. In addition, we have 
begun the ground leak survey of the entire gas transmission system 
beginning with the high consequence areas.
    And, this past week we publicly released detailed information about 
PG&E's gas pipeline safety and maintenance practices, including some of 
the tools that we use in our engineering analyses and planning for 
future preventative maintenance work on transmission pipelines.
    In those communities throughout Northern and Central California 
where PG&E's gas transmission facilities are located, we have been 
meeting--and will continue to meet--face to face with public officials. 
These meetings give officials the opportunity to ask questions about 
our pipeline system and understand the steps we are taking to ensure 
its integrity and safety. We are also reviewing safety procedures 
concerning our natural gas system with first responders in those 
communities, and we are leaving behind detailed maps to ensure they 
know where our facilities are located.
    We are doing the same for our individual customers. In fact, 
customers can now go online and log in to their individual account to 
see whether or not any of PG&E's gas transmission lines run near their 
homes, and if so where the lines are located.
    As noted previously, we operate approximately 6,700 miles of 
natural gas transmission pipeline. We divide these pipelines into about 
20,000 pipeline segments. A segment is a length of contiguous pipe with 
the same specifications, e.g., class location, wall thickness, 
diameter, material. As part of normal operations, we regularly assess 
our pipelines. Among other steps, this work includes ongoing 
inspections, leak surveys, pipeline patrols, preventative, corrective 
and condition-based maintenance and 24-hour monitoring of system 
conditions.
    In the course of these efforts, any time we identify a threat to 
public safety, whether because of a customer's report or through our 
own ongoing assessments, we take action to address it. This includes 
priority dispatch of our first responders and crews. If there is an 
imminent hazard, we will not leave the site in question until proper 
safety conditions have been established.
    We also continue to invest significantly in our system, with the 
majority of these investments aimed at enhancing safety and 
reliability. In fact, over the past 5 years we have spent $30 million 
more on our gas transmission system than the amount authorized by the 
California Public Utilities Commission (CPUC).
    These investment decisions are informed and guided, in part, 
through PG&E's ongoing assessment and consideration of a number of 
factors for each of the approximately 20,000 segments of pipeline. Our 
engineers consider such criteria as the potential for third-party 
damage to the line, like what may occur if there is digging or 
construction in the area; the condition of the pipe, corrosion risk, 
and its specific design and physical characteristics; how close the 
particular segment is to areas that may be prone to ground movement; 
and how close it is to densely populated or environmentally sensitive 
areas. The data used in this assessment are updated regularly 
throughout the year to reflect the latest engineering evaluations, 
field tests, hands-on inspections and maintenance work.
    This procedure, which is part of our overall integrity management 
program, is followed in some form by almost every gas transmission 
pipeline operator in the United States.
    Nationwide, the natural gas industry operates 2.4 million miles of 
distribution and transmission pipelines. In total, companies in the 
industry spend an estimated $7 billion each year in safety-related 
activities. Moreover, the design, construction, operation, inspection 
and maintenance of all operating pipelines are subject to rigorous 
oversight by Federal and state regulators.
    Federal pipeline safety regulations apply to natural gas 
transmission and distribution pipelines in the United States and 
through annual certifications and agreements, nearly all individual 
states have enforcement responsibility for pipelines within their own 
state, including California. These agreements with Pipeline and 
Hazardous Materials Safety Administration (PHMSA) require that each 
state adopt and enforce the Federal regulations.
    This includes the adoption and implementation of a pipeline 
integrity management rule that adds a layer of protection for pipelines 
in certain areas that, for example, have 20 or more dwellings or a site 
such as a playground or religious facility in a specified area, which 
are referred to as high consequence areas, in addition to the multitude 
of periodic inspections and repairs performed on all pipelines 
throughout the system.
    Additionally, states may establish and enforce their own 
regulations in addition to the Federal regulations, provided they are 
consistent with, and at least as strict as, the Federal regulations. 
For example, the CPUC has adopted rules for natural gas distribution 
systems that require annual leak surveys for facilities in the vicinity 
of schools, hospitals and churches, which are not specifically required 
in Federal regulations. The CPUC also performs audits of our pipeline 
policies and practices.
    In an effort to summarize the industry's safety practices and 
information on current regulatory oversight, the American Gas 
Association (AGA), a trade association that represents natural gas 
distribution companies, has gathered relevant data in one place on its 
website and has also developed a Frequently Asked Questions document, 
which is included as an attachment to this written testimony.
    We will continue to work with our regulators, AGA, the Interstate 
Natural Gas Association of America, which represents natural gas 
transmission companies, and others to assess and update industry best 
practices. We recognize that, as an industry, we have a responsibility 
to make sure we are operating in accordance with the highest standards 
when it comes to pipeline safety and integrity. Moreover, we know these 
standards must be continually evaluated and updated to reflect any 
lessons learned as a result of tragedies like the San Bruno accident 
and those that have occurred around the country over the past years.
Cooperating with the Investigation
    We are all committed to identifying and learning from the root 
cause or causes of the tragic events in San Bruno. Once the causes are 
understood, Congress, the CPUC, our industry and others can take what 
has been learned to improve policies, procedures and best practices. 
However, this can only happen if the NTSB, the CPUC and other agencies 
have the information they need to conduct their investigations.
    During the past weeks we have, therefore, been making every effort 
to be fully responsive to all requests connected with the ongoing 
investigation. The information provided by the NTSB as a result of 
their investigation will allow us and others to understand whether the 
accident was isolated or has broader implications for policies 
surrounding pipeline safety. Until the NTSB has concluded its 
investigation, however, we cannot speculate about the causes of the 
accident and possible changes going forward. Once the results of the 
investigation are known, we will act on its findings to take the 
appropriate action.
Supporting Efforts to Improve National Pipeline Safety Regulations
    We also recognize that Congress and the Administration are focused 
on making our Nation's natural gas system the safest it can be. As 
Congress moves to reauthorize the Pipeline Safety Improvement Act of 
2006, we know that improvements will be made to pipeline safety that 
will bring about a safer national pipeline system. Toward that end, 
Senators Boxer and Feinstein have introduced legislation to enhance 
public safety, strengthen oversight and improve accountability. We 
support this effort and look forward to working with the Senators and 
other Members of Congress on legislation that achieves these important 
and necessary goals.
    Among the areas we believe warrant additional discussion in 
addition to those proposed in current legislative packages are 
providing for formalized benchmarking of safety practices among 
pipeline operators, reassessing the adequacy of current in-line and 
external testing methodologies and technologies, creating a national 
standard for set-backs of high-pressure pipes from residential areas, 
and conducting a broader review of the impacts of urbanization on the 
safe operation of the Nation's gas transmission system.
Conclusion
    Again, thank you for the opportunity to participate in today's 
hearing. We want to reiterate PG&E's firm commitment to stand by the 
people and community of San Bruno. We are committed to help rebuild the 
community--and to help the people of San Bruno rebuild their lives. We 
also want to acknowledge the importance of restoring the confidence of 
all the communities we serve in the safety and integrity of our 
pipeline system. We owe it to the public to ensure that they can feel 
confident in the gas and electric service we provide. And, we 
understand that in order to take action to prevent future tragedies, 
answers are needed as to what caused this horrible accident. We will 
continue to work cooperatively with those investigating the accident so 
that we, policymakers and others have the information needed to improve 
pipeline safety.
    Thank you and I look forward to your questions.

    Senator Boxer. Thank you very much, Mr. Johns.
    Now we will hear from Mr. Rick Kessler, Vice President of 
the Pipeline Safety Trust.

          STATEMENT OF RICK KESSLER, VICE PRESIDENT, 
                     PIPELINE SAFETY TRUST

    Mr. Kessler. Thank you, Senator Boxer. And I also want to 
thank Chairman Lautenberg, Ranking Member Thune, and the 
members of the Subcommittee.
    My name is Rick Kessler, and I'm testifying today in my 
purely voluntary and uncompensated role as Vice President of 
the Pipeline Safety Trust.
    The Trust was born from a tragedy in Bellingham, 
Washington. And riding on the facts of other tragedies in 
places like Edison, New Jersey; Carlsbad, New Mexico; Walnut 
Creek, California; and Carmichael, Mississippi, we've testified 
to Congress for years about the improvements needed in Federal 
regulations to help prevent further tragedies. We've also long 
talked about the need for more miles of pipeline to be 
inspected by ``smart pigs.'' We've pleaded for clear standards 
for leak detection, requirements for the placement of automatic 
and remotely controlled valves, closing the loopholes that 
allow some pipelines to remain unregulated, and for better 
information to be available so innocent people will know that 
if they live near a large pipeline--and whether that pipeline 
is safe.
    Yet, here we are again, after the most recent tragedies, in 
Michigan and California, asking again for the same things we've 
asked for in previous hearings, following previous tragedies. 
Clearly, little of our message has been heard, particularly by 
the Obama Administration, which has put out a proposal for 
reauthorization that didn't address any of the issues raised by 
San Bruno, and which we can only refer to as ``too little, too 
late.''
    We were pleased, however, to see some of our 
recommendations included as part of the legislation that you 
recently introduced with Senator Feinstein, and have been 
working with Chairman Lautenberg to include some of these pro-
safety provisions in his bill. We commend all of you for your 
efforts.
    But, we also caution that none of these bills are a 
panacea, and we hope that, this time, Congress and the 
Administration will pay close attention and provide a strong, 
comprehensive solution to pipeline safety, instead of offering 
a bandaid for a broken bone. It's our sincere desire not to be 
back here again in the future, saying the same things, after 
another tragedy.
    Sixteen years ago, when I first began working on pipeline 
safety, we were debating a requirement for remote shut-off 
valves on natural gas pipelines, in the wake of the Edison, New 
Jersey, incident and the 2-and-a-half-hours it took to shut off 
the flow of gas that fed the fireball, due to a lack of a 
remote-controlled shut-off valve. In San Bruno, in 2010, it's 
unacceptable that the only way to shut off a large pipeline 
spewing fire into a populated neighborhood, is to find someone 
with a key to a locked valve, have them drive to the valve, and 
shut it down by hand. Please, require remote valves in law for 
high-consequence areas this time.
    In San Bruno, we also learned that, because of old 
construction practices, this more-than-half-century-old 
pipeline couldn't accommodate an internal inspection device, 
known as a ``smart pig.'' Clearly, ``smart pigs'' are the best-
available technology for assessing the true condition of a 
pipeline. Again, this is another debate that should have been 
settled years ago. I know Chairman Lautenberg made a big push 
for this, back in the mid 1990s, in our home State. But, in 
consideration to the pipeline industry, lesser and cheaper 
forms of technology were allowed to be substituted. That was 
penny wise and pound foolish, in terms of the loss of life and 
property that ensued. Please require companies to upgrade their 
pipelines in populated areas to accommodate this in-line 
inspection technology.
    Now, just this Summer, over 800,000 gallons of crude oil 
spilled into the Kalamazoo River, and over 30,000 gallons 
spilled into a stream near Salt Lake City. Both spills showed 
that current leak detection system requirements for liquid 
pipelines aren't up to the task. This is another long-standing 
debate with the industry that needs to be put to rest by 
adopting a clear standard for leak detection systems along the 
lines of the one Alaska already has.
    People shouldn't be in the dark about whether they live 
near a high-pressure pipeline and what condition that pipeline 
is in. They have a right to know, and they should have access 
to that information. It will save lives, injuries, and 
property.
    Please mandate a complete review of the effectiveness of 
the industry-written, PHMSA-adopted program for public 
awareness, and require that basic information, such as the 
location of a high-consequence area, when pipelines were last 
inspected, what was found, and the content of spill response 
plans is easily available to the public.
    Also, please ensure the continued funding of the community 
technical assistance grants so local governments, like San 
Bruno and community organizations, can take a more active role 
in the oversight of pipelines that traverse their communities.
    These are just a few of the areas that we believe must be 
addressed forcefully in any reauthorization effort. In all, 
there are seven areas we believe Congress and the 
Administration must improve for the benefit of the American 
people: require remote or automatic shut-off valves for gas 
transmission pipelines and emergency flow-restriction devices 
on hazardous liquid pipelines; enhance requirements for 
accommodating internal inspection devices, or ``smart pigs,'' 
for inspection--and for inspection generally, including on 
currently unregulated lines; develop and implement enhanced 
standards and requirements for leak detection on hazardous 
liquid lines--we also support enhanced reporting of leaks on 
all lines, as required by H.R. 6008, the bipartisan CLEAN Act, 
sponsored by reps Schauer and Upton in the House--make more 
pipeline safety information publicly available; continue 
implementing funding and enhancing the technical assistance 
grants; make public awareness programs meaningful and 
measurable; and finally, ensure adequate distribution and 
promotion of the Pipelines and Informed Planning Alliances 
Report. This contains recommended practices for local 
government to adopt for greater safety when development is 
proposed near pipelines.
    Thank you again, Senator Boxer, for the opportunity to 
testify today. Our hearts go out to the citizens of San Bruno. 
The Pipeline Safety Trust stands ready to work with all or you, 
on both sides of the aisle, to ensure that such a tragedy never 
happens again and that our Nation's pipeline safety transport--
or, pipeline transport system is as safe as it could and should 
be.
    [The prepared statement of Mr. Kessler follows:]

          Prepared Statement of Rick Kessler, Vice President, 
                         Pipeline Safety Trust
    Good afternoon, Chairman Lautenberg, Ranking Member Thune and 
members of the Subcommittee. Thank you for inviting me to speak today 
on the important subject of pipeline safety. My name is Rick Kessler 
and I am testifying today in my purely voluntary role as the Vice 
President of the Pipeline Safety Trust. My involvement and experience 
with pipeline safety stems from my years as staff for the House Energy 
and Commerce Committee on such issues, starting in 1994 after a natural 
gas explosion in Edison, New Jersey--all too similar to what just 
occurred in San Bruno, California--destroyed a whole apartment complex 
and left 1 person dead and many, many people homeless.
    The Pipeline Safety Trust came into being after another pipeline 
disaster--the 1999 Olympic Pipeline tragedy in Bellingham, Washington 
that left three young people dead, wiped out every living thing in a 
beautiful salmon stream, and caused millions of dollars of economic 
disruption. While prosecuting that incident the U.S. Justice Department 
was so aghast at the way the pipeline company had operated and 
maintained their pipeline, and equally aghast at the lack of oversight 
from Federal regulators, that they asked the Federal courts to set 
aside money from the settlement of that case to create the Pipeline 
Safety Trust as an independent national watchdog organization over both 
the industry and the regulators. We have been trying to fulfill that 
vision ever since, but the spate of recent disasters makes us question 
whether our message is being heard.
    Born from a tragedy in Bellingham, but also riding on the emotion 
and facts of other tragedies in places like Edison, New Jersey; 
Carlsbad, New Mexico; Walnut Creek, California; and Carmichael, 
Mississippi; we have testified to Congress for years in response to 
such tragedies about the improvements needed in Federal regulations to 
help prevent more such tragedies. For years we have talked about the 
need for more miles of pipelines to be inspected by smart pigs. We have 
pleaded for clear standards for leak detection, requirements for the 
placement of automatic and remotely controlled valves, closing the 
loopholes that allow some pipelines to remain unregulated, and for 
better information to be available so innocent people will know if they 
live near a large pipeline and whether that pipeline is maintained and 
inspected in a way to ensure their safety.
    So here we are again after the most recent tragedies in Marshall, 
Michigan, and San Bruno California asking again for the same things we 
have asked for in previous hearings following previous tragedies. While 
we were pleased to see some of our recommendations included as part of 
legislation recently introduced by Senators Boxer and Feinstein, we 
hope this time Congress and the Administration will pay close attention 
and provide a strong, comprehensive solution to pipeline safety instead 
of offering a Band-Aid for a broken bone. It is our sincere desire not 
to be back here again in the future saying the same things after 
another tragedy.
Overview
    The availability of natural gas, oil and other fuels are vital to 
our economic well being and transporting those fuels through pipelines 
is without a doubt the safest way to move these highly dangerous 
substances. So the question isn't whether pipelines are a safe mode of 
transportation compared to other ways to move fuel, the real question 
is whether they are as safe as they could and should be and the 
secondary question is whether they are being regulated in the most 
efficient, effective and protective manner they could or should be.
    Unfortunately, the answer to both questions is: no.
    Today we will keep our testimony to the lessons that should be 
learned from the Marshall, Michigan and the San Bruno, California 
disasters. While bills have already been introduced to address some of 
the issues coming out from these most recent incidents Congress should 
not lose sight of the fact that there are other issues not related to 
these incidents that can have significant effects on those in more 
rural areas from Alaska to the Dakotas, and from New Mexico to 
Nebraska. We have provided information about these other issues in 
previous testimony to this committee this past summer, and we hope all 
that testimony will be reviewed to ensure a comprehensive pipeline 
safety bill emerges.
    Today we would like to focus on seven areas. They are:

  <bullet> Requiring remote or automatic shut off valves for gas 
        transmission pipelines and emergency flow restricting devices 
        on hazardous liquid pipelines.

  <bullet> Enhancing requirements for accommodating internal inspection 
        devices or ``smart pigs.''

  <bullet> Developing and implementing enhanced standards and 
        requirements for leak detection on hazardous liquid lines.

  <bullet> Making more pipeline safety information publicly available.

  <bullet> Continuing implementation and funding of Technical 
        Assistance Grants to Communities and boosting the Pipeline 
        Safety Information Grant Program.

  <bullet> Making public awareness programs meaningful and measurable.

  <bullet> Ensuring adequate distribution and promotion of the 
        Pipelines and Informed Planning Alliances report on recommended 
        practices that local government can adopt to provide greater 
        safety when development is proposed near transmission 
        pipelines.
Requiring Remote or Automatic Shut-Off Valves for Gas Transmission 
        Pipelines
    Sixteen years ago, when I first began working on pipeline safety, 
we were debating a requirement for remote or automatic shutoff valves 
on natural gas pipelines in the wake of the Edison, NJ accident and the 
two and a half hours it took to shut off the flow of gas that fed the 
fireball due to the lack of a remote controlled shut off valve. It is 
both puzzling and sad that we have to again debate the benefits of 
requiring remote or automatic shut off valves after another tragedy, 
this time in San Bruno, California.
    In 2010, it is unacceptable that the only way to shut off a large 
pipeline spewing fire into a populated neighborhood is to find someone 
with a key to a locked valve, have him or her drive to the valve and 
operate it manually. In good weather in San Bruno that method took an 
hour and a half to shut off the flow of fuel. How long would that 
method take after an earthquake? We ask that you direct the Secretary 
of Transportation to immediately begin a study to determine the type, 
placement, feasibility and phase in period for installation of more up-
to-date valves, and that a rule-making for such installation is 
accomplished by December 31, 2012.
    For liquid pipelines in 1992, 1996, 2002, and 2006, Congress 
required OPS to ``survey and assess the effectiveness of emergency flow 
restricting devices . . . to detect and locate hazardous liquid 
pipeline ruptures and minimize product releases'' \1\ with the first 
such requirement having a deadline in 1994 (16 years ago!). Following 
this analysis, Congress required OPS to ``prescribe regulations on the 
circumstances under which an operator of a hazardous liquid pipeline 
facility must use an emergency flow restricting device.'' \2\ (emphasis 
added)
---------------------------------------------------------------------------
    \1\ See 49 U.S.C. 60102(j)(1).
    \2\ See 49 U.S.C. 60102(j)(2).
---------------------------------------------------------------------------
    OPS/PHMSA never issued a formal analysis on emergency flow 
restricting device (EFRD) effectiveness. Instead, in its hazardous 
liquid pipeline integrity management rule,\3\ OPS rejected the comments 
of the NTSB, the U.S. Environmental Protection Agency, the Lower 
Colorado River Authority, the City of Austin, and the Environmental 
Defense Fund and chose to leave EFRD decisions up to pipeline operators 
after listing in the rule various criteria for operators to consider. 
Such an approach to EFRD use does not appear to meet Congressional 
intent, partly because the approach is essentially unenforceable and 
not protective of important environmental assets such as rivers and 
lakes including those not considered High Consequence Areas.
---------------------------------------------------------------------------
    \3\ See 49 CFR 195.452(i)(4).
---------------------------------------------------------------------------
    Congress needs to reiterate its previous mandates to PHMSA on EFRD 
use on liquid pipelines and ensure they are followed to mitigate the 
extent of future pipeline releases.
Enhanced Requirements for Accommodating Internal Inspection Devices or 
        ``Smart Pigs''
    In San Bruno, we've learned that because of the old construction 
practices, this more than half a century old pipeline could not 
accommodate internal inspection devices, known as ``smart pigs.'' 
Clearly, smart pigs represent the best available technology for 
assessing the true condition of a pipeline. Again, this is another 
debate that should have been settled years ago, but in consideration to 
much lobbying by the pipeline industry, lesser and cheaper forms of 
technology were allowed to be substituted for the best available 
technology. While the cause of the San Bruno failure is still unknown, 
it is clear that problems on pipelines like the one in San Bruno would 
have a far better chance of being identified early enough to prevent 
tragedies if in-line inspection was required. Isn't it finally time to 
require operators to present the Secretary with plans by a date certain 
for upgrading, at a minimum, the segments of their lines in High 
Consequence Areas to be able to accommodate these devices to help 
prevent future disasters like San Bruno?
Developing and Implementing Enhanced Standards and Requirements for 
        Leak Detection on Hazardous Liquid Lines
    In its hazardous liquid transmission pipeline integrity management 
rule, PHMSA requires that operators have a means to detect leaks, but 
there are no performance standards for such a system.\4\ This is in 
contrast to the State of Alaska, for example, which requires that all 
crude oil transmission pipelines have a leak detection system capable 
of promptly detecting a leak of no more than 1 percent of daily 
throughput.\5\ PHMSA listed in the integrity management rule various 
criteria for operators to consider when selecting such a device. Again, 
such an approach is virtually unenforceable and not protective of 
important environmental assets such as rivers and lakes including those 
not considered High Consequence Areas.
---------------------------------------------------------------------------
    \4\ See 49 CFR 195.452(i)(3).
    \5\ See 18 AAC 75.055(a)(1).
---------------------------------------------------------------------------
    The recent Enbridge spill in Michigan and the Chevron pipeline 
release near Salt Lake City are examples of what can go wrong when a 
pipeline with a leak detection system has no performance standards for 
operations. In both those incidents the pipelines had leak detection 
systems as required by regulations, but neither system was capable of 
detecting and halting significant spills.
    The Trust's position is that Congress needs to direct PHMSA to 
issue performance standards for leak detection systems used by 
hazardous liquid pipeline operators by a date certain to prevent damage 
from future pipeline releases.
Continuing to Make More Pipeline Safety Information Publicly Available
    Perhaps the key issue regarding increasing public awareness and 
education is to ensure that the information in which the public already 
has an interest is easily available.
    Over the past two reauthorization cycles, PH MSA has done a good 
job of providing increased transparency for many aspects of pipeline 
safety. In the Trust's opinion, one of the true successes of the 2006 
PIPES Act has been the rapid implementation by PHMSA of the enforcement 
transparency section of the Act. It is now possible for affected 
communities to log onto the PHMSA website (http://primis.phmsa.dot.gov/
comm/reports/enforce/Enforcement.html) and review enforcement actions 
regarding local pipelines. This transparency should increase the 
public's trust that our system of enforcement of pipeline safety 
regulations is working adequately or will provide the information 
necessary for the public to push for improvements in that system. PHMSA 
has also significantly upgraded its incident data availability and 
accuracy, and continues to improve its already excellent ``stakeholder 
communication'' website.
    One area where PHMSA could go even further in transparency would be 
to create a web-based system providing public access to basic 
inspection information about specific pipelines. An inspection 
transparency system would allow the affected public to review when 
PHMSA and its state partners inspected particular pipelines, what types 
of inspections were performed, what was found, and how any concerns 
were rectified. Inspection transparency should increase the public's 
trust in the checks and balances in place to make pipelines safe, and 
make clear inadequacies that need to be addressed. Just as Congress 
required PHMSA to institute Enforcement Transparency in PIPES, The 
Trust hopes you will require similar Inspection Transparency this year.
    There is also a need to make other information more readily 
available. This includes information about:

  <bullet> High Consequence Areas (HCAs). These are defined in Federal 
        regulations and are used to determine what pipelines fall under 
        more stringent integrity management safety regulations. 
        Unfortunately, this information is not made available to local 
        government and citizens so they know if they are included in 
        such improved safety regimes. Local government and citizens 
        also would have a much better day-to-day grasp of their local 
        areas and be able to point out inaccuracies or changes in HCA 
        designations.

  <bullet> State Agency Partners. States are provided with millions of 
        dollars of operating funds each year by the Federal Government 
        to help in the oversight of our Nation's pipelines. While there 
        is no doubt that such involvement from the states increases 
        pipeline safety, different states have different authority, and 
        states put different emphasis in different program areas. For 
        example just this past weekend the New York Times reported that 
        ``the California Public Utilities Commission, which oversees 
        most of the state's gas pipelines, told Federal regulators 
        several years ago, in documents, that it ``rarely'' fines any 
        gas pipeline operation for violations.'' The story \6\ went on 
        to say ``Records show that Michigan, Illinois, Arizona, 
        Colorado, New Jersey and Missouri rarely issue fines. And even 
        when other states issue fines, collections are uneven. In 
        places like Ohio, Georgia and Kentucky, records show, half or 
        less of all fines are paid.''
---------------------------------------------------------------------------
    \6\ http://www.nytimes.com/2010/09/25/us/
25pipeline.html?pagewanted=2&_r=1&hp.

    Each year PHMSA audits each participating state program, yet the 
        results of those program audits are not easily available. We 
        believe that these yearly audits should be available on PHMSA's 
        website and that some basic comparable metrics for states 
        should be developed. Citizens have a right to know what the 
        priorities of their state pipeline safety agencies are, and how 
---------------------------------------------------------------------------
        well they are using that inspection and enforcement authority.

  <bullet> Emergency Response Plans. The recent Gulf of Mexico tragedy 
        shows that it is crucial that these types of spill response 
        plans are well designed, adequately meet worst-case scenarios, 
        and use the most up-to-date technologies. While 49 CFR  194 
        requires onshore oil pipeline operators to prepare spill 
        response plans, including worst case scenarios, those plans are 
        difficult for the public to access. As has been made clear by 
        the huge Marshall, Michigan spill, those Federal plans are not 
        public documents, and they certainly were not created with 
        involvement and expertise of local government and interested 
        citizens.

    The review and adoption of such response plans also misses a great 
        opportunity to educate and increase awareness among the public. 
        Currently the process is closed to the public. In fact, PHMSA 
        has argued that it is not required to follow any public 
        processes, such as NEPA, for the review of these plans. If the 
        Gulf tragedy has taught us nothing else, it should be that the 
        industry and agencies could use all the help they can get to 
        ensure such response plans will work in the case of a real 
        emergency.

    It is always our belief that greater transparency in all aspects of 
        pipeline safety will lead to increased awareness, involvement, 
        review and ultimately safety. That is why we believe Congress 
        should make citizen right to know provisions a priority for 
        inclusion in this pipeline reauthorization. There are many 
        organizations, local and state government agencies, and 
        academic institutions that have expertise and an interest in 
        preventing the release of fuels to the environment. Greater 
        transparency would help involve these entities and provide 
        ideas from outside of the industry. The State of Washington has 
        passed rules that when complete spill plans are submitted for 
        approval the plans are required to be made publicly available, 
        interested parties are notified, and there is a 30-day period 
        for interested parties to comment on the contents of the 
        proposed plan. We urge Congress to require PHMSA to develop 
        similar requirements for the adoption of spill response plans 
        across the country, and that such plans for new pipelines be 
        integrated into the environmental reviews required as part of 
        the pipeline siting process.
Increasing Awareness and Education by Continuing Implementation and 
        Funding of Technical Assistance Grants to Communities
    Over the past year and a half, PHMSA has finally started the 
implementation of the Community Technical Assistance Grant program 
authorized as part of the Pipeline Safety Improvement Act of 2002 and 
clarified in the PIPES Act. Under this program, more than a million 
dollars of grant money has been awarded to communities across the 
country that wanted to hire independent technical advisors so they 
could learn more about the pipelines running through and surrounding 
them, or be valid participants in various pipeline safety processes. 
After the rash of pipeline tragedies from Texas to Michigan to 
California this year we suspect that many communities may be more 
interested than ever in finding out more about the pipelines in their 
midst.
    In the first round of grants, PHMSA funded projects in communities 
in seventeen states from California to Florida. Local governments 
gained assistance so they could better consider risks when residential 
and commercial developments are planned near existing pipelines. 
Neighborhood associations gained the ability to hire experts so they 
could better understand the ``real'' versus the imagined issues with 
pipelines in their neighborhoods. And farm groups learned first-hand 
about the impacts of already-built pipelines on other farming 
communities so they could be better informed as they participate in the 
processes involving the proposed routing of a pipeline through the 
lands where they have lived and labored for generations. All of the 
examples of local government implanting the PIPA recommendation we 
mentioned earlier were funded through these technical assistance 
grants. Overall--despite the unacceptably long delay in 
implementation--we view the first round of this new grant program as a 
huge success.
    However, ongoing funding for these grants is not clear, so the 
Trust asks that you ensure the reauthorization of these grants to 
continue to help involve those most at risk if something goes wrong 
with a pipeline. We further ask that you consider doubling the cap on 
the amount of an individual grant to $100,000, removing the limitation 
on funding sources for the grants, ensuring funds do not go to pipeline 
operators, and--most importantly--do whatever is necessary to ensure 
that the authorized funds are actually appropriated.
Making Public Awareness Programs Meaningful and Measurable
    Since the San Bruno disaster people in that neighborhood have asked 
why they had no idea they had such a pipeline in their midst. That is a 
good question since Federal regulations require pipeline operators to 
have a program that includes ``activities to advise affected 
municipalities, school districts, businesses, and residents of pipeline 
facility locations.'' Similarly in Marshall, Michigan it appears that 
emergency response personnel had little knowledge of a large oil 
pipeline in their community. It is becoming increasingly clear that the 
implementation of these required programs has not been effective.
    The Pipeline Safety Improvement Act of 2002 required pipeline 
operators to provide people living and working near pipelines basic 
pipeline safety information, and gave PHMSA the authority to set public 
awareness program standards and design program materials. In response 
to this Congressional mandate, PHMSA set rules that incorporated by 
reference the American Petroleum Institute's (API) recommended practice 
(RP) 1162 as the standard for these public awareness programs. 
According to RP 1162's Foreword (page iii) of API recommended practice, 
the intended audiences were not represented in the development of RP 
1162, though they were allowed to provide ``feedback.'' The omission of 
representatives from these audiences from the voting committee reduces 
the depth of understanding the RP could have had regarding the barriers 
and incentives for such programs, and undercuts the credibility of the 
recommended actions. The public awareness program regulations--49 CFR  
192.616 and 49 CRF  195.440--mandate that operators comply with RP 
1162. In essence, this amounts to the drafting of Federal regulations 
without the equal participation of the stakeholders the regulations are 
meant to involve. With non-technical subject matter, such as this 
recommended practice deals with, it is difficult to justify excluding 
the intended audiences from the process and allowing the regulated 
industries to write their own rules.
    This public awareness effort represented a huge and important 
undertaking for the pipeline industry, and as such the effectiveness of 
it will evolve over time. We were happy that the rules included a 
clause that set evaluation requirements that require verifiable 
continuous improvements. While we understand that the initial years of 
this program have been difficult, we have been disappointed in some of 
these efforts as they were clearly farmed out to contractors to meet 
the letter of the requirement instead of the intent of the requirement. 
Recently, the National Transportation Safety Board cited the failure of 
these programs in the investigation report of a deadly pipeline 
explosion in Mississippi that killed a girl and her grandmother. And 
again, the recent disasters in California and Michigan have well 
publicized the failure of the current industry developed system to 
adequately inform those it was meant to.
    An evaluation of the first 5 years of this program is due this 
year, and API has been working on an update of this recommended 
practice for some time now. One of the draft proposals from API is to 
remove the requirement to measure whether the programs have led to 
actual changes in behavior. We hope that Congress will make clear that 
the intent of this program is to change the behavior of the intended 
audiences to make pipelines safer, not to count how many innocuous 
brochures can be mailed. After tragedies like the one in San Bruno we 
should not have people asking why they didn't know about the pipelines 
in their neighborhoods, and we should not have emergency response 
professionals surprised to find out they have large dangerous pipelines 
in the jurisdictions.
Ensuring Adequate Distribution and Promotion of the Pipelines and 
        Informed Planning Alliances Report on Recommended Practices 
        That Local Government Can Adopt to Provide Greater Safety When 
        Development Is Proposed near Transmission Pipelines
    Section 11 of the Pipeline Safety Improvement Act of 2002 included 
a requirement that PHMSA and FERC provide a study of population 
encroachment on and near pipeline rights-of-way. That requirement led 
to the Transportation Research Board's (TRB) October 2004 report 
Transmission Pipelines and Land Use, which recommended that PHMSA 
``develop risk-informed land use guidance for application by 
stakeholders.'' PHMSA formed the Pipelines and Informed Planning 
Alliance (PIPA) in late 2007 with the intent of drafting a report that 
would include specific recommended practices that local governments, 
land developers, and others could use to increase safety when 
development was to occur near transmission pipelines.
    Most large pipelines were placed in rural areas years ago, but as 
the populated areas around our cities expand it has led to a growing 
encroachment of residential and commercial development near large high-
pressure pipelines. This increases the risk to the pipelines from 
related construction activities, as well as to the people who 
ultimately live and work nearby if something should go wrong with the 
pipeline.
    After more than 2 years of work by more than 150 representatives of 
a wide range of stakeholders, the draft report and the associated 46 
recommendations are finally due to be released any minute. This will be 
the first time information of this nature has been made widely 
available to local planners, planning commissions, and elected 
officials when considering the approval of land uses near transmission 
pipelines. We fully agree with the sentiment of Congress in the 
Pipeline Safety Improvement Act of 2002 that,

        ``The Secretary shall encourage Federal agencies and State and 
        local governments to adopt and implement appropriate practices, 
        laws, and ordinances, as identified in the report, to address 
        the risks and hazards associated with encroachment upon 
        pipeline rights-of-way . . .''

    A recent statewide survey of local government planning directors 
conducted by the Pipeline Safety Trust showed that to successfully 
implement these needed ``practices, laws, and ordinances'' will take a 
good deal of well targeted education and promotion by a wide range of 
stakeholders outside of the pipeline industry and PHMSA. In order to 
make this effort successful, the Trust asks that this year Congress 
authorize, just as was authorized in PIPES for the successful promotion 
of the 8-1-1 ``One Call'' number, $500,000/year to promote, 
disseminate, and provide technical assistance regarding the PIPA 
recommendations.
    Across the Nation neighborhoods are being built closer and closer 
to dangerous pipelines just like the recently impacted neighborhood in 
San Bruno was. Only if Congress gives PHMSA the resources it needs, 
along with a clear mandate, will the information local governments need 
to start considering these best land use practices near pipelines start 
to be instituted in time to prevent future San Brunos.
Conclusion
    Thank you again for this opportunity to testify today. The Pipeline 
Safety Trust hopes you will closely consider the ideas and concerns we 
have raised today and move a comprehensive pipeline safety reform and 
reauthorization bill forward soon. If you have any questions about our 
testimony, the Trust would be pleased to answer them and, of course, we 
stand ready to work with you and your colleagues on reauthorizing the 
pipeline safety laws that are so important to ensuring the well-being 
of millions of Americans and the environment that is their birthright.
    For any bill to be comprehensive we hope you will also review of 
testimony to you from June of this year and include the important fixes 
necessary to address these other outstanding issues:

  <bullet> Expanding the miles of pipelines that fall under the 
        Integrity Management rules.

  <bullet> Moving forward to address unregulated pipelines and 
        clarifying regulations of gathering and production pipelines.

  <bullet> Continuing to push state agencies on damage prevention.

  <bullet> Implementing expansion of Excess Flow Valve requirements.

  <bullet> Correcting the pipeline siting vs. safety disconnect, and 
        ensuring PHMSA's ability to provide adequate inspections when 
        pipelines are being constructed.

    Senator Boxer. Thank you, Mr. Kessler.
    I'm going to start with you. Did you say that your group 
has already suggested and recommended that there be remote 
shut-off valves in high-consequence areas?
    Mr. Kessler. Yes, Senator.
    Senator Boxer. Do you know when that was?
    Mr. Kessler. I don't, offhand, but it--I believe it was--we 
started recommending that--the group formed in 1999--I believe 
we started recommending it not long after.
    Senator Boxer. OK. So, it could be as many as 10 years ago.
    Mr. Kessler. Absolutely. And I know, from my work with the 
New Jersey delegation--I started with Senator Lautenberg--that 
he has been pushing for these since the Edison accident.
    Senator Boxer. I'm going to ask some tough questions to the 
PUC and to PG&E. So--I'm just saying they're hard questions, 
but I think they're important.
    According--this is to the CPUC--according to the New York 
Times, the CPUC reported, several years ago, that it, quote/
unquote, ``rarely fines gas pipeline operators for 
violations.'' Is this still the case? Can you provide, for the 
record, the annual total of fines levied over the past 5 years?
    Mr. Clanon. I don't know that off the top of my head, 
Senator, but I can get to the underlying point. And that is, 
how effective is the Public Utilities Commission's oversight of 
PG&E and of the other utilities? Just a couple of facts. The 
first----
    Senator Boxer. Well, I'm asking specifically about the 
fines. Is it true that you rarely fine the people you oversee? 
Is that still the case?
    Mr. Clanon. No, ma'am. That's not true at all. In fact----
    Senator Boxer. OK.
    Mr. Clanon.--since 1999, the PUC has levied about half a 
billion--$500 million in fines and restitution against the 
people that we regulate, including some tens of millions of 
dollars in fines and restitution from PG&E.
    Senator Boxer. OK. So, that article----
    Mr. Clanon. That's not even----
    Senator Boxer.--in the----
    Mr. Clanon.--close to----
    Senator Boxer.--New York Times is no longer true. That's 
good.
    Mr. Clanon.--hasn't been true since forever at the PUC, and 
certainly not since 1999.
    Senator Boxer. ``Forever at the PUC.'' Well, what year was 
that story? Well, the quote is in the story that was just 
printed, that several years ago they said they rarely fine any 
gas pipeline operator for a violation--but, you'll get me the 
details, will you not, for that?
    [The information referred to is contained in the appendix.]
    Mr. Clanon. I will. And I just want to lay this to rest 
right now, Senator. The PUC is a vigorous enforcer on the 
people that we regulate, to the tune of half a billion 
dollars----
    Senator Boxer. Yes.
    Mr. Clanon.--in fines and----
    Senator Boxer. That's why I----
    Mr. Clanon.--restitution.
    Senator Boxer.--was asking the question.
    Mr. Clanon. Yes.
    Senator Boxer. Because the New York Times said something 
other than that. It said, ``The CPUC, which oversees most of 
the State's pipelines, told Federal regulators several years 
ago, in documents, that it rarely fines any gas pipeline.'' So, 
that's why I'm just asking you, for the record, the fines on 
these gas pipelines.
    And for the CPUC, according the PHMSA, the CPUC only 
conducted inspections on 787 out of 935 inspection days for 
Fiscal Year 2010, which makes California rank just above 
Arkansas and Puerto Rico on its certification scores. These 
certification scores help determine grant funding for 
California. Are you aware of this low score, and can you 
explain it?
    Mr. Clanon. I don't know about that particular year. I know 
that, over the course of the last several years, we've actually 
been rated high by PHMSA. I don't know about that particular 
year.
    Senator Boxer. Well, this is this year.
    Mr. Clanon. Yes. So, I don't know the specifics of this 
year. But, I do know that, over the last several years, we've 
actually been rated very high, in terms of our PHMSA-
certified----
    Senator Boxer. OK.
    Mr. Clanon.--oversight.
    Senator Boxer. But, I'm asking you about Fiscal Year 2010, 
because this is getting to the current time. So, if you could 
respond to that in writing, as to why you think that was the 
case--maybe it's an aberration in Fiscal Year 2010--we'd like 
to know that.
    Mr. Clanon. I'd be happy to do that.
    [The information referred to is contained in the appendix.]
    Senator Boxer. Thank you very much.
    And, to Mr. Johns of PG&E, the Contra Costa Times recently 
reported that PG&E has failed to spend millions of dollars it 
designated for pipeline safety repairs over the past two 
decades--and this is a quote from the paper--``collecting $80 
million more than it spent for its gas pipeline replacement 
program.'' Is that accurate?
    Mr. Johns. I don't believe that that is accurate. In fact, 
we have spent $30 million more on the gas transportation side 
of our business than what we've been authorized to spend by the 
California Public Utilities Commission over the last 5 years.
    Senator Boxer. OK. So, you disagree with the Contra Costa 
Times?
    Mr. Johns. I didn't do any work to validate what their 
numbers were, but I do know that what we've spent over the last 
5 years is what I acknowledged.
    Senator Boxer. OK. They're talking about the past two 
decades. And we'll put that article in the record.
    [The information referred to follows:]

     PG&E Collected Millions More for Pipeline Repair than it Spent

Saturday, September 18, 2010--Contra Costa Times, Walnut Creek, Calif. 
                            By Mike Taugher

    For the past 20 years, PG&E has failed to spend tens of millions of 
dollars it told regulators it would use to replace aging gas pipelines, 
documents show.
    Between 1993 and 1995 alone, the company collected $80 million more 
than it spent for its gas pipeline replacement program.
    That sum easily would have been enough to replace gas transmission 
segments in Livermore and Fremont that the utility identified as the 
two highest risk pipelines in the Bay Area--with enough left over to 
fix a pipeline segment near the site of the San Bruno pipe identified 
as being an ``unacceptably high'' risk, according to regulatory 
documents.
    Those three projects would cost a total of $53.5 million, according 
to PG&E estimates.
    Regulators expressed concern about underspending on pipeline 
replacement as recently as 2007, when the California Public Utilities 
Commission required--possibly for the first time--that PG&E spend money 
collected for its pipeline replacement program for the originally 
stated purpose.
    Regulators said Friday that PG&E continued in recent years to spend 
less than forecast on pipeline replacement.
    ``It's the whole regulatory game. You come up with these very 
appealing things to spend on and it becomes a slush fund to spend on 
other purposes,'' said Mike Florio, a senior attorney for the consumer 
advocacy group TURN: The Utility Reform Network.
    In an e-mailed statement, PG&E said it has the flexibility to use 
the pipeline replacement money for other priorities.
    ``When we file our rate cases, we forecast to the best of our 
ability at the time what work we think will need to be done, and ask 
the Commission for funding to do that work,'' according to the 
statement from spokesman Paul Moreno. ``The Commission then gives us a 
budget and gives us the flexibility to spend that budget based on our 
assessment of priorities.''
    ``Because it is a forecast, things often change (emergencies, 
different pipes become priorities, etc.), so we redirect our allowed 
spending based on assessment of priorities.''
    Moreno said that between 1985 and 2009, the replacement program 
installed 2,111 miles of distribution and transmission pipelines at a 
cost of $1.5 billion. He said all of the pipeline replacement money 
spent elsewhere went to capital projects.
    In the aftermath of the Sept. 9 explosion in San Bruno, regulators 
are focusing again on PG&E's pipeline replacement spending.
    Earlier this week, the utilities commission asked the power company 
to compare how much it told regulators it would spend on pipeline 
safety since 2005 and how much it actually spent.
    Then on Friday it asked for information about any repairs scheduled 
on Line 132, which included the segment that exploded in San Bruno, and 
``a detailed explanation as to why any replacements or upgrades have 
not been completed.''
    But the concern about how PG&E spends money it collects to replace 
gas pipelines goes back to at least 1995, when regulators admonished 
the utility for collecting more than it needed during the previous 5 
years.
    ``Despite consistent underspending in previous years, we granted 
PG&E's full funding request . . . on the basis that PG&E should 
continue replacing old pipelines `as quickly as possible' in the 
interest of safety,'' utility commission members wrote in a 1995 
decision on PG&E's gas and electric rates.
    ``We stated our expectation that PG&E should use the authorized 
funds for their intended purpose and even accelerate the pace of the 
program,'' the decision continued. ``Between the time we issued the 
last general rate case decision and the filing of this one, PG&E has 
fallen short of our stated expectations.''
    In that decision, Commissioners noted that despite underspending, 
the pipeline replacement program appeared to be on schedule, and 
suggested they were awarding PG&E more than it needed.
    But regulators continued to grant the company's spending requests 
in hopes it would speed up pipe replacement, according to the 1995 
decision.
    The 1995 rate requests referred specifically to replacing 
neighborhood gas distribution lines, not the larger transmission lines 
like the one that exploded in San Bruno.
    But the funds were intended for a program that was used to replace 
both distribution and transmission lines.
    According to PG&E, that program was split at the end of 2009 so 
that transmission line replacements are now funded from a different 
program.
    Regulators said it is the utility's job, not theirs, to make 
decisions about specific projects, but they are likely to scrutinize 
more closely PG&E's spending.
    ``What you're identifying is a pattern,'' said Julie Fitch, Energy 
Division Director for the utilities commission, in response to a Bay 
Area News Group query. ``It's likely we're going to be asking them for 
more detail on what they are spending on and why.''
    Florio, the TURN attorney, said it is difficult to track how 
program money is spent.
    ``They collect money and they spend money, but there aren't any 
tags on the dollars to say it's earmarked for one thing or another,'' 
he said.
    Assemblyman Jerry Hill, D-San Mateo, said he was angered to hear 
earlier this week that PG&E had charged the public $5 million in rate 
increases several years to upgrade the transmission line 2.8 miles 
north of the line that exploded in San Bruno, yet still has not done 
the repairs.
    That section of line is in Hill's district, he said, just like the 
part that blew up.
    ``I'm not happy at all about that, and now I'm hearing there are 
other cases like that,'' Hill said. ``What it shows is a lack of proper 
oversight.''
    Amid demands by lawmakers that PG&E release its list of 100 high-
risk gas-line segments because of the disastrous San Bruno explosion, 
state regulators on Friday asked the utility for that list and other 
information about how the company compiled it and what it has or hasn't 
done to upgrade those risky pipelines.
    The letter from utilities commission Executive Director Paul Clanon 
to PG&E President Christopher Johns, seeks ``maps showing the location 
of each pipeline segment'' on the list as well as ``detailed 
description of the criteria PG&E uses in deciding which pipeline 
segments to characterize as high-priority projects.''
    The agency, which regulates PG&E, particularly sought information 
about high-risk pipes along gas-Line 132, where the explosion occurred. 
The Commission asked the company for ``a detailed explanation of the 
factors PG&E took into account in deciding to include such segment(s) 
on the list, and a detailed explanation to why any replacement or 
upgrades have not yet been completed.''
    The agency also asked the company to explain how long it would take 
to prepare a list of where on its gas transmission lines manual shut-
off valves can be replaced with remotely operated or automatic shut-off 
valves. Many experts believe automatic or remote values allow utilities 
to more quickly halt the flow of gas after explosions.
    Utilities commission spokeswoman Terrie Prosper said investigators 
with the agency and the National Transportation Safety Board, who are 
looking into the explosion, probably had asked for and received all of 
the information sought in the letter. However, she added, ``By Mr. 
Clanon asking for it, he can obtain the information as well and make it 
available to the public.''
    Bay Area News Group reporters Steve Johnson and Paul Rogers 
contributed to this story. Mike Taugher covers the environment. Contact 
him at 925-943-8257.

    Senator Boxer. So, if you could just answer that, 
specifically, ``over the past two decades,'' if they're right 
or wrong on $80 million being left on the table on its gas 
pipeline replacement program.
    Mr. Johns. I will have to get you the last----
    Senator Boxer. Oh, yes.
    Mr. Johns.--two decades. I can----
    Senator Boxer. I understand.
    Mr. Johns.--I can provide you with that.
    [The information referred to is contained in the appendix.]
    Senator Boxer. Yes. That's what we're asking. Thank you.
    Now, the San Francisco Chronicle reported that PG&E 
requested $5 million in 2008 to replace a different segment of 
the transmission pipe that exploded in San Bruno, but that the 
repair work on that segment was never completed. Is that 
accurate?
    Mr. Johns. That particular segment of pipeline, which was 
not the pipeline in question for today, was originally part of 
our rate filing in the 2007 time frame. And that request, at 
that time, was based on initial analysis, as part of our 
preventive maintenance program. When we did further analysis of 
that pipeline, we realized that the pipeline was still in--was 
in good order and did not require any immediate attention. And 
so, it was rescheduled, and other higher-priority work was done 
instead.
    Senator Boxer. OK. Well, here's what they said. They said--
I'll read it again--``PG&E requested $5 million in 2008 to 
replace a different segment of the transmission pipe that 
exploded in San Bruno, but that the repair work on that segment 
was never completed. It was also reported that PG&E requested, 
again, another $5 million in 2009 for that same segment. But 
now, that segment won't be replaced until 2013.''
    So, is the newspaper right? You requested $5 million, you 
didn't spend it. Then you went back and requested another $5 
million, and you're not going to spend it until 2013. Why were 
those repairs never completed?
    Mr. Johns. Senator, what we do is, is that we have over 
20,000 different pipeline segments that we constantly analyze 
and look out into the future as to potential needed repairs, 
preventive maintenance. And things will move up and down on 
that list, as far as priorities are concerned.
    So, for instance, if you have a pipeline in an area where 
maybe somebody's going to do some construction, that might move 
it up on the list of potential need for watching, because 
somebody might be able to dig into it. If they then complete 
the construction and move on, then that would move down the 
list. So, we are constantly reevaluating the need.
    So, the specific item that you looked at was originally on 
our list of things to do. And as we went out and did further 
work, we realized that we did not need to do that at that point 
in time, could do that later, but, instead, could do other 
high-priority work. And, as I said, in total over the last 5 
years, including the years that this particular pipeline 
segment was involved, we actually spent more that what was 
authorized by the CPUC. So, we took that $5 million and spent 
it on higher-priority items during that time.
    Senator Boxer. OK. By the way, this is the San Francisco 
Chronicle. I'm just asking you questions that were raised by 
these investigative reporters. So, I'm trying to understand it.
    So, what you're saying is, you asked the CPUC for $5 
million for this segment of pipe--not the one that exploded, 
but another segment of that same pipeline, to repair it. You 
didn't repair it, because it didn't need it. But, then you went 
right back and asked for another $5 million for the same 
segment. I'm confused. And you raised rates to cover that. Is 
that correct?
    Mr. Johns. We include not just this $5 million, but all of 
our segments that we plan to do work, in our filings with the 
Public Utilities Commission, to make sure we're doing our 
preventive maintenance. So, what we did with the $5 million in 
that year was--is, we worked on higher-priority work. And, as I 
said, we actually spent more than what was authorized.
    Senator Boxer. OK.
    Well, let me ask Mr. Clanon this question. What is your 
agency doing to ensure that repairs that are paid for by 
increased rates--in other words, they asked for a specific 
segment. You said yes. They didn't do it. Then they come back 
the next year, ask for it again. They still haven't done it. 
Are you checking and balancing this? Do you have a list of 
these areas they're supposed to fix? Do you check on them, that 
they're supposed to do it? Or how does that work? Do they send 
you an amended request and say, ``By the way, we decided not to 
do this, but we're going to use this $10 million for other 
things?'' How do you work it?
    Mr. Clanon. Senator, they request an overall budget for all 
their pipeline work. Let's say it's $200 million. They come in 
to the PUC; they say, ``We need $200 million to do pipeline 
work.'' And at the time of that filing, they say, ``And these 
are the projects that we think we need to do.'' There is a 
process--you've seen this process in action, I know, many 
times--at agencies like the PUC, outside interveners. 
Eventually, the Public Utilities Commissioners decide on an 
overall budget. The PUC doesn't say, ``You've got to fix this 
milepost right here.'' We're looking at an overall budget.
    There's a really important reason for that. It's so that 
folks, like Mr. Johns here, can exercise their professional 
judgment about where the money should be placed in an 
individual year.
    It's not surprising that individual projects can move up 
and down on that list. And it doesn't mean that the ratepayers 
are paying twice. What it means is that the utility managers 
are the ones responsible for deciding where the money that they 
get through the regulatory process should be spent.
    Does the regulator then come along later and say, ``OK, 
where was it spent? Was it spent wisely?'' Absolutely. That 
happens the next time that the utility comes in to ask for a 
budget. There's actually one of these proceedings every 2 or 3 
years at the PUC, and that's the kind of oversight that is 
levied.
    I think this particular charge by the San Francisco 
Chronicle is just based on a misunderstanding of the way that 
utilities are regulated. You don't want public utilities 
commissions deciding which particular fix has to be made in 
which particular year. You want the competent people at the 
utilities held accountable for those decisions. And that's the 
way it works.
    Senator Boxer. I guess my concern is, they come in and they 
say, ``We need to fix it.'' And they don't fix it, and then 
they say, ``Oh, let's ask for the same money again.'' And then 
they don't fix it until 2013. If you're only looking at that 
every 2 years, my own opinion is, I think you need to 
scrutinize these lists a little bit better. That from afar, 
seems to me, especially in light of what's happening here--
because they may decide to go ahead and fix something else 
that's not in a highly-populated area, and you may think it's 
more important to take care of those fixes.
    Mr. Clanon. I think you're very right, ma'am. And actually, 
there has been a step forward in this, just in the last 10 
days. PG&E actually made public, for the first time, in a 
broadcast way, a week ago yesterday, the list of the top 100 
transmission replacement and maintenance projects, and 
immediately went out and spoke to the local officials, folks 
like the mayor and the--and--in San Bruno--so that the local 
people also now understand, in PG&E service territory, where 
this list of projects is, so that they can help the PUC 
scrutinize those projects, help keep PG&E's management's feet 
to the fire, which is the appropriate thing when work that is 
scheduled is put off, probably for good reasons--but, 
increasing the public scrutiny by putting the information out 
there. I applaud PG&E for doing that.
    Senator Boxer. Well, it may be for good reason, but it 
could be wrong, too.
    Mr. Clanon. Absolutely.
    Senator Boxer. We need a check and balance.
    Mr. Clanon. Absolutely. And----
    Senator Boxer. OK. Let me ask you this. Why has the CPUC 
not required automatic or remote shut-off valves for 
transmission pipelines in high-consequence areas? And are you 
considering mandating the use of remote or automatic shut-off 
valves on all high-risk transmission lines?
    Mr. Clanon. We are, yes. In my testimony, as I mentioned, 
we've already asked PG&E for an analysis of PG&E's system to 
tell us where remote and automatic cutoff valves make sense. 
So, that's going to be an active issue for us, not 18 months 
from now, but actually right now. We're beginning that review 
already.
    As to why it hasn't been done to this point, I don't know 
that any State has been requiring that. I don't know that 
there's an example of it.
    Senator Boxer. Well, that's----
    Mr. Clanon. These valves are----
    Senator Boxer.--coming from California, you know we're 
always the leader.
    Mr. Clanon. Well, I'm with you on that. And maybe we'll be 
ahead of the curve on this one, too.
    Senator Boxer. I would hope so.
    Mr. Clanon. We need to talk about----
    Senator Boxer. Let me just say, this is the most serious 
accident in the country, in terms of lives lost. Am I correct?
    Mr. Clanon. I think that's absolutely right.
    Senator Boxer. All right. So, we have to take action and 
set the pace here. So, what I would like to see you do is work 
swiftly as you can. We now know, because we've gotten the 
information, how many miles we have of these high-consequence 
lines. And you know how close your friend lived to that line.
    Mr. Clanon. Yes.
    Senator Boxer. And that's just a disaster waiting to 
happen, now that we look at it, you know? So, it seems to me, 
we've been--we've not only been warned, we've been told that we 
have to take action. So, I'm going to ask you to submit in 
writing to me, What is the PUC's plan for moving ahead with 
these automatic shut-off valves? And let's be a leader on this.
    [The information referred to is contained in the appendix.]
    Senator Boxer. Now, when utilities request a rate increase 
for repairs of a line that's designated as high-consequence, 
how long do they have to complete those repairs? I suppose you 
don't have any distinction, here, whether it's high-consequence 
or not. You don't put a time limit on it?
    Mr. Clanon. We don't, yes. It's a thing that gets reviewed 
over time as the utility comes in for rate requests. It gets 
scrutinized by experts within the PUC process. It'll now also 
be scrutinized by folks at the local level and by the media, 
now that that----
    Senator Boxer. OK.
    Mr. Clanon.--that information is actually public. I think 
that will help us provide that kind of oversight.
    Senator Boxer. Well, if I could recommend this, just as a 
thought, what's the total number of lines that you oversee, 
intrastate?
    Mr. Clanon. It's a lot. It's something like 6,000 miles, 
just in PG&E's own----
    Senator Boxer. Well, what about all of them?
    Mr. Clanon.--territory. And double that, plus a little bit 
more----
    Senator Boxer. Twelve thousand.
    Mr. Clanon.--for the whole State, yes.
    Senator Boxer. OK. But, then if you look at that, and then 
approximately 3,000 miles--is that right?--is high-
consequence?--3,600. So, you have, let's just say, 
approximately, 12,000 miles of line and about 3,600 high-
consequence. Would you think about taking that 3,600 miles and 
just making that a priority, and separating it out from 
everything else you do? I mean, God help us if something 
happens in a community like this. If it's in a remote area, 
it's bad. But, here it's a disaster. So, will you take a look 
at that idea of changing your rules for the high-consequence 
lines?
    Mr. Clanon. Of course.
    Senator Boxer. That's good.
    Have you mandated a time-frame for PG&E to complete 
inspections and repairs on the top 100 high-risk segments list 
that the company recently released?
    Mr. Clanon. No. And, as I said--so, they're--now we have 
all the folks at the local level scrutiny--scrutinizing that 
list, along with folks at the PUC. So, the amount of oversight 
that that list is getting now will provide a strong feet-to-
the-fire for PG&E to make sure that the ones that are related 
to public safety are up at the top of the list. And I'm sure 
that's the way PG&E would want it anyway. But, now we've got 
much stronger public oversight, along with the PUC.
    Senator Boxer. OK.
    And, Mr. Johns, is PG&E complying with the directive issued 
by the CPUC on September 12, including immediate inspection of 
all natural gas lines? And what date is PG&E expected to fully 
comply with that directive?
    Mr. Johns. Senator, we have been immediately implementing 
all of the items that were directed by the CPUC, and they're--
depending on which item, some of them are already completed, 
some of them are moving forward to meet the dates that the CPUC 
put forth in their order last week. So, we have--as Mr. Clanon 
said, we have already reduced the pressure in the pipelines, 
the three pipelines in the peninsula. We have already completed 
the resurvey of those three pipelines. We've begun the aerial 
survey and the foot survey of the rest of our system, starting 
first with those high-consequence areas.
    Senator Boxer. OK. And, Mr. Johns, why did it take nearly 2 
hours to shut the gas off?
    Mr. Johns. Our team had to go through the process of 
getting to--get the tools and equipment, go through--6-o'clock-
in-the-evening traffic to get to those things. They did, and 
got there as quickly as they could, in order to turn the valves 
off and stop the gas flow. In fact, the team that went out 
there--and it was--the first responder actually went out before 
they were even called, because they could see that there was an 
incident out there. And, as I would expect them to, and as the 
great team members that they are, that they saw an accident 
that was occurring that required response immediately, and they 
got out there as quickly as they could.
    Senator Boxer. But, I'm assuming that you're not in any way 
saying that that's a good enough response--2 hours.
    Mr. Johns. What I'm saying is, is that I believe they got 
there----
    Senator Boxer. No, I'm not----
    Mr. Johns.--as quickly as they could.
    Senator Boxer.--asking you to--in other words, we all 
support everybody who was on the scene. But, you're not 
suggesting that that's an adequate situation, are you, for a 
future disaster like that, to take 2 hours to shut off this 
ball of fire?
    Mr. Johns. What I will say is, is that we will look at 
every way we can to make sure that responses are as quick as 
possible----
    Senator Boxer. OK, but that's----
    Mr. Johns.--and quicker than that.
    Senator Boxer.--not the--you--it's 6 o'clock at night, and 
you're in traffic. Don't you think we ought to have shut-off 
valves in place?
    Mr. Johns. What I believe is, is that we will work in--with 
the CPUC to put--to look where it makes sense, because shut-off 
valves, in that instance, would--assuming that they work--- 
would have turned it off faster than what we got there.
    Senator Boxer. Assuming they work, of course.
    Mr. Johns. Yes.
    Senator Boxer. So, you would agree that, had there been a 
shut-off valve, we could have averted the worst disaster, if 
those valves worked.
    Mr. Johns. What I will agree with is, is that if there were 
an automated shut-off valve or a remote-control----
    Senator Boxer. Yes.
    Mr. Johns.--shut-off valve in there, that the gas flow 
would have stopped faster than by the time our people got 
there. As you heard the Vice Chair say, he is investigating 
what the ramifications are, as far as the timing of it, in 
terms of the disaster----
    Senator Boxer. What's your understanding of how a shut-off 
valve works? Do you have some out there in place?
    Mr. Johns. What type of shut-off valve?
    Senator Boxer. I'm asking you. Do you have shut-off 
valves--remote shut-off valves, automatic shut-off valves? Do 
you work with those?
    Mr. Johns. We have those throughout our system.
    Senator Boxer. You do.
    Mr. Johns. We have manual valves----
    Senator Boxer. And have they ever worked for you?
    Mr. Johns. The remote shut-off valves?
    Senator Boxer. Yes.
    Mr. Johns. And the automatic shut-off valves? Yes, they 
have.
    Senator Boxer. OK. Could you get a letter to me, as to--
just to give me an example of where they've worked, and how 
they've worked?
    [The information referred to is contained in the appendix.]
    Mr. Johns. Yes, I can----
    Senator Boxer. Thank you. That would be very, very helpful.
    I know these are hard questions. Mr. Johns, the LA Times 
reported that PG&E's leak rate is at 6.2, annually, per 1,000 
miles of transmission pipes serving high-consequence areas. 
This is more than six times the average leak rate for the 
Nation's six other large operators. Can you explain why PG&E's 
leak rate is so high? And what actions are you taking to 
address this problem of leakage?
    Mr. Johns. Senator, I understand that the LA Times wrote 
that article.
    Senator Boxer. Yes.
    Mr. Johns. I do not know how they came up with the numbers. 
What I can tell you is, is that, when we compare ourselves 
across the industry on the leak rate per pipeline mile for 
high-concentration areas, our rate is .0057, and the industry's 
rate is .0049. Those are very close together. I don't know 
where the LA Times got their information.
    Senator Boxer. Well, we understand the reported leak rates 
at Southern California Gas--it's 2.3 per 1,000 miles, compared 
to 6.2 per 1,000 miles for you. That's for all your lines.
    Mr. Johns. Again, they referred to high-concentration 
areas. I have the information, that's on PHMSA's website that 
says, ``Here's what it is for high-concentration areas for the 
entire country,'' and the average is .0049.
    Senator Boxer. Well, I'm just talking about Southern 
California Gas.
    Mr. Johns. Yes, and I'm not familiar with what their----
    Senator Boxer. OK.
    Mr. Johns.--their rate is.
    Senator Boxer. Mr. Clanon, are you familiar with the leak 
rate of PG&E, compared to Southern California Gas?
    Mr. Clanon. I've seen some of those numbers. And one point 
to make about those numbers, without saying that they're not 
important, is that they vary pretty wildly during--from year to 
year. They're also pretty small. They go from 2 or 3 up to 9 or 
so in a year. So, the experience of 2 or 3 bad years can really 
skew those numbers.
    I don't want to pooh-pooh these numbers. I think that we 
have to look at them hard. But, it is important not to try to 
reduce something like gas pipeline safety to one number. I 
don't want to pooh-pooh that analysis. I think we have to look 
at it hard. But, the analysis of gas pipeline safety, in 
general, I think the Committee understands how complex that is, 
and so do we all, working in it.
    Senator Boxer. Mr. Johns, what methods does PG&E use to 
inspect transmission lines that are not able to use ``smart 
pig'' technology?
    Mr. Johns. Yes, there are three approved methods, by the 
Federal regulation. One of them is the ``smart pig'' 
methodology. The other one is referred to as ``external 
corrosion direct assessment,'' or ECDA, and the other one is 
high-pressure testing. And so, we utilize all three of those 
methodologies. We use the pigging where we possibly can. And if 
not, then we use, generally, the external corrosion detective 
methodology. And then we use the high-pressure testing, 
generally when we're putting in new lines.
    Senator Boxer. OK. And you recently released a list of the 
top 100 high-risk pipeline segments. When will inspections and 
repairs be completed on those segments?
    Mr. Johns. Yes, we did release those, as--Senator, as you 
and I talked about----
    Senator Boxer. Yes.
    Mr. Johns.--at your conference. We wanted to make those 
available to the public. And, in fact, starting just over the 
weekend, we made it available so that all of our customers 
could go online, in a secure----
    Senator Boxer. Good.
    Mr. Johns.--area, to see how far away they are from any of 
those.
    As far as our top 100 lines, as you refer to them, again, 
that is----
    Senator Boxer. Well, I think that was your list of the top 
100 high-risk pipeline segments.
    Mr. Johns. Our--it's our list of the top 100 planning 
segments. It's part of our risk-management process. It's for 
our future preventive maintenance programming. And I think, 
when people look at that list, what they will find is, is that 
there are some instances where there's planned replacement, 
because we want to make sure that we get ahead of that. There's 
other places where all we need to do is monitor it, or maybe 
other areas where we need to do just more testing. So----
    Senator Boxer. Well, when will----
    Mr. Johns.--there are dates associated with each one of 
those segments.
    Senator Boxer. So, can you tell me when those inspections 
and repairs will be completed on those top 100?
    Mr. Johns. We have made public when each one of those 
areas--and on there is a date as to, if there is construction 
to be done, when that construction is expected to be completed. 
Otherwise, it would be ongoing monitoring and further analysis. 
And that's also on that list. I'll be glad to give you that 
list.
    [The information referred to is contained in the appendix.]
    Senator Boxer. And before you're ordered to do this by 
CPUC, if they do order you, will you commit to installing 
remote access or automatic shut-off valves on those high-risk 
pipelines?
    Mr. Johns. I will work with the CPUC to put them in where 
everybody believes that they make sense to put in.
    Senator Boxer. So, you won't decide it. They'll decide it?
    Mr. Johns. No, we will work with them.
    Senator Boxer. OK.
    Mr. Johns. They've asked us to put together a list and an 
analysis of where and how to implement these, where they would 
make sense. We will complete that analysis and provide that to 
them by their deadline. And we will work with them--and, quite 
frankly, with the industry as a whole, because this is 
something that I think all companies need to be looking at, as 
to, ``Where do these make sense?'' so that we can run the 
safest pipelines possible.
    Senator Boxer. Well, again, where it makes sense is where 
the people live. I mean, that's clear. And if we have 10,000 
miles--12,000 miles of pipeline, and 3,600 are by people, 
that's where you've got to look first. So, that should guide 
you.
    Has PG&E found any leaks on transmission lines since CPUC 
ordered an immediate inspection of all gas lines following the 
explosion? Have you discovered any leaks?
    Mr. Johns. We completed the leak survey on the three 
pipelines in the peninsula. We found one leak, not on the 
pipeline, but at a valve. We immediately fixed it.
    Senator Boxer. Good. And you're continuing that----
    Mr. Johns. We are.
    Senator Boxer.--and make those improvements as soon as you 
can, not waiting until anyone smells any gas; you're just 
going.
    Mr. Johns. Senator, we have a very robust program, where 
we're constantly doing leak----
    Senator Boxer. Good.
    Mr. Johns.--surveys, we're walking our pipelines. And what 
I want to do is--make sure that you are aware is that--I assure 
you, if something is potentially endangering the public, we fix 
it immediately.
    Senator Boxer. OK.
    Mr. Johns. We do not put it on a list. We do not wait until 
later.
    Senator Boxer. Good.
    Mr. Johns. We fix it immediately.
    Senator Boxer. OK. You know, we're going to see what 
happened with this, and we don't know the answer yet.
    But, Mayor, I want to ask you something. Under the Pipeline 
Safety Improvement Act of 2002, each pipeline operator is 
required to develop and implement a continuing public education 
program to increase awareness for the public, and training for 
emergency response agencies. How often have you and your first 
responders worked with PG&E to ensure that our first responders 
are knowledgeable in the most up-to-date layout of your 
pipeline system, and ensure that you had accurate maps on hand 
and knew how to respond?
    Mr. Ruane. Senator, I'm not aware of any workings along 
with PG&E. Now, I may be just not up on the information, but 
I'm not aware of any.
    Senator Boxer. OK.
    Well, I just want to thank the panel. I think that we got 
very clear answers here. I think we got some ideas on how to 
move forward. And I hope we will work closely together.
    We did learn of the eighth victim. When you said it, Mr. 
Mayor, we had gotten a notification from the Governor that that 
was confirmed.
    We have to take steps, as the Mayor said, to ensure this 
never happens again, and that San Bruno is made whole. I mean, 
that's key.
    For me, it seems there are obvious things we have to do: 
immediate thorough inspections on these high-risk areas, and 
action to address any problem that is noted; shut-off valves in 
areas like this; better reporting so that we know the results 
of inspections; and greater oversight.
    We need a good bill. I think the Feinstein-Boxer bill is 
good, but you may have ideas to make it better, and I would 
look forward to everyone's help on that; we may have left 
something out. Mr. Kessler, Mr. Johns, Mr. Clanon, and Mayor, 
I'd like you to look at this bill, because we want to make it 
workable, and we want to make sure that people can look back to 
this time and say, ``That was the time they said, 'This won't 
happen again.''' Because Mr. Kessler is right, if we don't move 
these pipelines are not getting younger, you know. We know what 
causes these problems--corrosion, excavation, all these--we 
know. This isn't a mysterious thing. We need to take the 
information we have, and we need to make sure that we move 
forward and we fix the problem.
    And all of you have been invaluable to me and, I know, to 
Senator Feinstein, Senator Lautenberg, Senator Thune, and 
Senator Johanns, all who are really interested. This is a 
problem that we face nationwide, and I want to see California 
be the leader here. We have to do that, because we suffered 
this loss and we need to take action.
    So, I thank every single one of you for being here. I know 
this wasn't an easy time for any of us, but I think it was 
important to do this. As we try to make this right, there are a 
lot of people for whom their world can never be made right. So, 
we owe it to everybody to make sure nobody goes through what 
these families, these victims and their families, are going 
through.
    Thank you very much.
    [Whereupon, at 5:06 p.m., the hearing was adjourned.]
                            A P P E N D I X

                                       United States Senate
                                 Washington, DC, September 13, 2010
Hon. Cynthia L. Quarterman,
Administrator,
Pipeline and Hazardous Materials Safety Administration,
Washington, DC.

Dear Administrator Quarterman:

    This weekend, we witnessed the devastating damage in San Bruno, 
California where a natural gas pipeline explosion claimed the lives of 
at least four people and injured 60 others. More than three dozen homes 
were destroyed.
    Californians must feel confident that their communities are safe 
and that the regulatory agencies responsible for maintaining natural 
gas pipelines arc doing everything possible to guarantee their safety. 
It is critical that the public's confidence is restored and that 
utilities are held accountable for the safety of their pipelines.
    While this particular pipeline was an intrastate pipeline under the 
jurisdiction of the California Public Utilities Commission, we request 
that you immediately begin inspections of the 1,500 miles of interstate 
natural gas transmission pipelines in California that fall under 
Federal jurisdiction--with priority given to those near residential 
areas. We also ask that you provide us with the following information:

        1. The total number of miles of all interstate natural gas 
        transmission and distribution pipelines located within the 
        State of California and a list of those pipelines located in 
        residential areas.

        2. A list of California cities and counties in which these 
        pipelines are located.

        3. The installation dates for these pipelines and the dates any 
        upgrades or improvements were completed.

        4. The schedule by which these pipelines are inspected. Please 
        list the dates of the most recent inspections and any scheduled 
        future inspections.

    Given the seriousness of this matter, we request that this 
information be provided to us within the next few working days.
            Sincerely,
                                             Barbara Boxer,
                                             United States Senator.
                                          Dianne Feinstein,
                                             United States Senator.
                                 ______
                                 
     Pipeline and Hazardous Materials Safety Administration
                          U.S. Department of Transportation
                                 Washington, DC, September 27, 2010
Hon. Barbara Boxer,
U.S. Senate,
Washington, DC.

Dear Senator Boxer:

    Thank you for your letter of September 13, co-signed by Senator 
Dianne Feinstein, regarding the tragic events in San Bruno and your 
safety concerns about the natural gas transmission pipelines in 
California. All Californians as well as all Americans should feel 
confident that their communities are safe and that the State and 
Federal pipeline safety regulators are doing what is necessary to 
protect our citizens.
    As overseers of the Nation's 2.5 million miles of pipelines, the 
United States Department of Transportation (Department) holds the 
people's trust to ensure that pipeline operators are in compliance with 
pipeline safety regulations. I am committed to ensuring both human and 
environmental safety. Like all Americans, I am concerned by the recent 
tragedy in San Bruno and have directed my staff to fully support the 
National Transportation Safety Board in its investigation and the 
California Public Utility Commission in its enforcement actions.
    You asked that we immediately begin inspections of the 1,500 miles 
of federally regulated interstate natural gas transmission pipelines in 
California with priority to those near residential areas. Department 
engineers in the Pipeline and Hazardous Materials Safety Administration 
(PHMSA) inspect gas transmission, gas gathering and gas distribution 
(municipal) pipeline operators in the State of California. PHMSA 
regional personnel are currently in the process of developing their 
inspection plans for Fiscal Year 2011. These inspection plans take into 
consideration risks that each pipeline poses to the public and the 
environment as well as when an operator was last inspected. Higher risk 
pipelines are inspected more frequently than less risky pipelines. In 
general, the PHMSA Western Region schedule for inspecting pipelines is 
at least once every 2 to 3 years. So far for Fiscal Year 2011, two 
inspections that have already been tentatively planned in California 
are for Plains Exploration and Production Company and Rosetta 
Resources. Our current plan is to inspect all pipelines inspected in 
2008 in 2011, as well as many pipelines inspected in 2009, as resources 
permit.
    You asked for additional information about the number of pipeline 
miles in California, where the pipelines intersect residential areas, 
when the pipelines were installed and dates of recent inspections. I 
have enclosed the information you requested in your letter. An 
identical response has been sent to Senator Feinstein.
    I hope this information is helpful to you. If I can provide further 
assistance, please do not hesitate to contact me or Julia P. Valentine, 
Associate Administrator for the Office of Governmental, International 
and Public Affairs, at 202-366-4831.
            Regards,
                                     Cynthia L. Quarterman,
                                                     Administrator.
Enclosure
                                 ______
                                 
                               Enclosure
             PHMSA Responses to September 13, 2010 Request 
                From Senator Boxer and Senator Feinstein
1. The total number of miles of all interstate natural gas transmission 
        and distribution pipelines located within the State of 
        California and a list of those pipelines located in residential 
        areas.
    1,209 miles \1\ of active interstate natural gas transmission 
pipelines in the State of California have been reported to the National 
Pipeline Mapping System (NPMS).
---------------------------------------------------------------------------
    \1\ With the inclusion of Idled and inactive pipes (not currently 
operating but not removed from the system), the interstate mileage in 
NPMS Is about 1,500. The interstate mileage is only available through 
the National Pipeline Mapping System.
---------------------------------------------------------------------------
    102,659 miles of gas distribution main pipelines in the State of 
California were reported on calendar year 2009 Annual Reports.\2\ 
Distribution mileage is generally residential in nature.
---------------------------------------------------------------------------
    \2\ Source: Distribution main mites from PHMSA Form F7100.1-1 Data 
as of 9/17/2010.
---------------------------------------------------------------------------
    8,572,075 gas distribution service lines in the State of California 
were reported on calendar year 2009 Annual Reports.\3\
---------------------------------------------------------------------------
    \3\ Source: Number of Services from PHMSA Form F7100.1-1 Data as of 
9/17/2010.
---------------------------------------------------------------------------
    PHMSA does not maintain information on local land use and therefore 
we are unable to identify which of the gas transmission and 
distribution pipelines are specifically located in residential areas. 
However, based on computations of proximity of the mileage in the NPMS 
to densely populated areas from census information, we can say that 
there are about 3,636 miles of gas transmission miles within densely 
populated areas in California. Regardless, all of the active inspection 
units both within and outside of high consequence areas (HCAs) in 
California have been inspected since 2008 with the exception of two 
units scheduled for inspection this Fall.
2. A list of California cities and counties in which these pipelines 
        are located.

   Interstate and Intrastate Gas Transmission Pipelines by California
                             Urbanized Area
------------------------------------------------------------------------
      Urbanized Area         OPID          Operator Name         Mileage
------------------------------------------------------------------------
Antioch,CA                    2731  Chevron Pipe Line Co.            8.6
Antioch, CA                  31477  CPN Pipeline Company            28.9
Antioch, CA                  15007  Pacific Gas & Electric Co.      27.6
Antioch, CA                  18608  Standard Pacific Gas Line       12.3
                                     Inc.
Antioch,CA                   31296  Venoco, Inc.                     6.4
------------------------------------------------------------------------
Atascadero--El Paso de        2731  Chevron Pipe Line Co.            2.7
 Robles
(Paso Robles), CA
Atascadero--El Paso de       31684  ConocoPhillips                   0.0
 Robles
(Paso Robles), CA
Atascadero--El Paso de       15007  Pacific Gas & Electric Co.       0.5
 Robles
(Paso Robles), CA
Atascadero--El Paso de       18484  Southern California Gas         11.2
 Robles                              Co.
(Paso Robles), CA
------------------------------------------------------------------------
Bakersfield, CA               2731  Chevron Pipe Line Co.            5.7
Bakersfield, CA              32116  Dick Brown Technical             5.0
                                     Services
Bakersfield, CA                840  Mojave Pipeline Operating        1.2
                                     Company
Bakersfield, CA              15007  Pacific Gas & Electric Co.      24.3
------------------------------------------------------------------------
Camarillo, CA                18484  Southern California Gas          9.5
                                     Co.
------------------------------------------------------------------------
Chico, CA                    15007  Pacific Gas & Electric Co.       4.4
------------------------------------------------------------------------
Concord, CA                   2731  Chevron Pipe Line Co.            4.2
Concord, CA                  31477  CPN Pipeline Company             1.4
Concord, CA                  15007  Pacific Gas & Electric Co.      35.3
Concord, CA                  18608  Standard Pacific Gas Line        3.8
                                     Inc.
------------------------------------------------------------------------
Davis, CA                    15007  Pacific Gas & Electric Co.       9.9
------------------------------------------------------------------------
El Centro, CA                18484  Southern California Gas          7.3
                                     Co.
------------------------------------------------------------------------
Fairfield, CA                15007  Pacific Gas & Electric Co.      11.3
------------------------------------------------------------------------
Fresno, CA                   15007  Pacific Gas & Electric Co.      32.3
------------------------------------------------------------------------
Gilroy--Morgan Hill, CA      15007  Pacific Gas & Electric Co.      10.1
------------------------------------------------------------------------
Hemet, CA                    18484  Southern California Gas         17.4
                                     Co.
------------------------------------------------------------------------
Indio--Cathedral City--      18484  Southern California Gas          3.9
 Palm Springs, CA                    Co.
------------------------------------------------------------------------
Lancaster--Palmdale, CA      18484  Southern California Gas         30.1
                                     Co.
------------------------------------------------------------------------
Livermore, CA                15007  Pacific Gas & Electric Co.      15.3
Lodi, CA                     31697  Lodi Gas Storage, LLC            0.3
Lodi, CA                     15007  Pacific Gas & Electric Co.       8.2
------------------------------------------------------------------------
Lompoc, CA                   18484  Southern California Gas          2.9
                                     Co.
------------------------------------------------------------------------
Los Angeles--Long Beach--      117  Air Products & Chemicals        14.1
 Santa Ana, CA                       Inc.
Los Angeles--Long Beach--    31610  BP West Coast Products LLC      18.6
 Santa Ana, CA
Los Angeles--Long Beach--     2731  Chevron Pipe Line Co.           19.6
 Santa Ana, CA
Los Angeles--Long Beach--    32083  DCOR, LCC                        1.3
 Santa Ana, CA
Los Angeles--Long Beach--    26134  ExxonMobil Oil Corp.--West      47.8
 Santa Ana, CA                       Coast
Los Angeles--Long Beach--    31068  Seal Beach Gas Processing        1.1
 Santa Ana, CA                       Venture
Los Angeles--Long Beach--    18484  Southern California Gas        567.1
 Santa Ana, CA                       Co.
Los Angeles--Long Beach--    32253  Tesoro Los Angeles               0.7
 Santa Ana, CA                       Refinery
Los Angeles--Long Beach--    19410  Thums Long Beach Co.             4.1
 Santa Ana, CA
------------------------------------------------------------------------
Madera, CA                   15007  Pacific Gas & Electric Co.      13.3
------------------------------------------------------------------------
Manteca, CA                  15007  Pacific Gas & Electric Co.       3.8
------------------------------------------------------------------------
Merced, CA                   15007  Pacific Gas & Electric Co.      14.9
------------------------------------------------------------------------
Mission Viejo, CA            18484  Southern California Gas         33.0
                                     Co.
------------------------------------------------------------------------
Modesto, CA                  15007  Pacific Gas & Electric Co.      61.0
------------------------------------------------------------------------
Napa, CA                     15007  Pacific Gas & Electric Co.       8.8
------------------------------------------------------------------------
Oxnard, CA                   26134  ExxonMobil Oil Corp--West        0.9
                                     Coast
Oxnard, CA                   18484  Southern California Gas         51.0
                                     Co.
------------------------------------------------------------------------
Petaluma, CA                 15007  Pacific Gas & Electric Co.      14.2
------------------------------------------------------------------------
Porterville, CA              18484  Southern California Gas          4.0
                                     Co.
------------------------------------------------------------------------
Redding, CA                  32304  City of Redding                  0.9
Redding, CA                  15007  Pacific Gas & Electric Co.      27.7
------------------------------------------------------------------------
Riverside--San Bernardino,   18484  Southern California Gas        118.2
 CA                                  Co.
------------------------------------------------------------------------
Sacramento, CA               15007  Pacific Gas & Electric Co.     140.7
Sacramento, CA               30749  Sacramento Municipal            10.1
                                     Utility District
------------------------------------------------------------------------
Salinas, CA                  15007  Pacific Gas & Electric Co.      30.0
------------------------------------------------------------------------
San Diego, CA                18112  San Diego Gas & Electric       193.9
                                     Co.
San Diego, CA                18484  Southern California Gas         29.6
                                     Co.
------------------------------------------------------------------------
San Francisco--Oakland, CA    2731  Chevron Pipe Line Co.           12.0
San Francisco--Oakland, CA   32308  Northern California Power        0.7
                                     Authority
San Francisco--Oakland, CA   15007  Pacific Gas & Electric Co.     199.2
San Francisco--Oakland, CA   18608  Standard Pacific Gas Line        8.3
                                     Inc.
------------------------------------------------------------------------
San Jose, CA                 15007  Pacific Gas & Electric Co.      87.4
San Jose, CA                 32054  Silicon Valley Power             2.2
------------------------------------------------------------------------
San Luis Obispo, CA          18484  Southern California Gas         10.2
                                     Co.
------------------------------------------------------------------------
San Rafael--Novato, CA       15007  Pacific Gas & Electric Co.      31.8
------------------------------------------------------------------------
Santa Barbara, CA            32083  DCOR, LLC                        0.1
Santa Barbara, CA            18484  Southern California Gas         75.5
                                     Co.
------------------------------------------------------------------------
Santa Clarita, CA            26134  ExxonMobil Oil Corp.--West       0.1
                                     Coast
Santa Clarita, CA            18484  Southern California Gas         42.5
                                     Co.
------------------------------------------------------------------------
Santa Cruz, CA               15007  Pacific Gas & Electric Co.      22.5
------------------------------------------------------------------------
Santa Maria, CA              18484  Southern California Gas         22.4
                                     Co.
------------------------------------------------------------------------
Santa Rosa, CA               15007  Pacific Gas & Electric Co.      24.9
------------------------------------------------------------------------
Seaside--Monterey--Marina,   15007  Pacific Gas & Electric Co.      16.1
 CA
------------------------------------------------------------------------
Stockton, CA                 15007  Pacific Gas & Electric Co.      27.9
------------------------------------------------------------------------
Temecula--Murrieta, CA       18484  Southern California Gas         33.4
                                     Co.
------------------------------------------------------------------------
Thousand Oaks, CA            18484  Southern California Gas         40.1
                                     Co.
------------------------------------------------------------------------
Tracy, CA                    15007  Pacific Gas & Electric Co.       4.3
------------------------------------------------------------------------
Turlock, CA                  15007  Pacific Gas & Electric Co.       9.3
------------------------------------------------------------------------
Vacaville, CA                15007  Pacific Gas & Electric Co.       8.5
------------------------------------------------------------------------
Vallejo, CA                  15007  Pacific Gas & Electric Co.      16.1
------------------------------------------------------------------------
Victorville--Hesperia--App   15007  Pacific Gas & Electric Co.       0.4
 le Valley, CA
Victorville--Hesperia--App   18484  Southern California Gas          1.5
 le Valley, CA                       Co.
Victorville--Hesperia--App   18536  Southwest Gas Corp.              8.7
 le Valley, CA
------------------------------------------------------------------------
Visalia, CA                  18484  Southern California Gas          3.8
                                     Co.
------------------------------------------------------------------------
Watsonville, CA              15007  Pacific Gas & Electric Co.      12.3
------------------------------------------------------------------------
Yuba City, CA                31477  CPN Pipeline Company             1.9
Yuba City, CA                15007  Pacific Gas & Electric Co.      32.8
                                    TOTAL:                       2,546.6
------------------------------------------------------------------------
Please note: PHMSA was unable to identify a comprehensive, reliable
  source for California political city boundaries. These statistics use
  the U.S. Census' Urbanized Area boundaries. Urbanized areas are based
  on population density and correspond closely to city boundaries.
Source: National Pipeline Mapping System, 09/10.


   Interstate and Intrastate Gas Transmission Pipelines by California
                                 County
------------------------------------------------------------------------
          County             OPID          Operator Name         Mileage
------------------------------------------------------------------------
Alameda                      32308  Northern California Power        0.7
                                     Authority
Alameda                      15007  Pacific Gas & Electric Co.     170.2
------------------------------------------------------------------------
Amador                       15007  Pacific Gas & Electric Co.      21.2
------------------------------------------------------------------------
Butte                        15007  Pacific Gas & Electric Co.     117.4
Butte                        31287  Wild Goose Storage Inc.         13.3
------------------------------------------------------------------------
Calaveras                    15007  Pacific Gas & Electric Co.      17.7
------------------------------------------------------------------------
Colusa                       15007  Pacific Gas & Electric Co.     186.6
Colusa                       31287  Wild Goose Storage Inc.         20.4
------------------------------------------------------------------------
Contra Costa                  2731  Chevron Pipe Line Co.           45.1
Contra Costa                 31477  CPN Pipeline Company            56.7
Contra Costa                 15007  Pacific Gas & Electric Co.     206.0
Contra Costa                 18608  Standard Pacific Gas Line       40.8
                                     Inc.
Contra Costa                 31296  Venoco, Inc.                    27.5
------------------------------------------------------------------------
El Dorado                    15007  Pacific Gas & Electric Co.       4.4
------------------------------------------------------------------------
Fresno                       31394  California Gas Gathering        33.8
                                     Inc.
Fresno                        2731  Chevron Pipe Line Co.           45.0
Fresno                       15007  Pacific Gas & Electric Co.     485.2
Fresno                       18484  Southern California Gas         32.3
                                     Co.
------------------------------------------------------------------------
Glenn                        15007  Pacific Gas & Electric Co.     150.4
------------------------------------------------------------------------
Humboldt                     15007  Pacific Gas & Electric Co.      97.3
------------------------------------------------------------------------
Imperial                     31891  North Baja Pipeline LLC         57.8
Imperial                     18484  Southern California Gas        143.2
                                     Co.
------------------------------------------------------------------------
Kern                          2731  Chevron Pipe Line Co.          179.4
Kern                         31477  CPN Pipeline Company            13.9
Kern                         32116  Dick Brown Technical            12.0
                                     Services
Kern                         26134  ExxonMobil Oil Corp.--West       1.7
                                     Coast
Kern                           997  Midway Sunset Cogeneration       3.8
                                     Co.
Kern                           840  Mojave Pipeline Operating      227.7
                                     Company
Kern                         15007  Pacific Gas & Electric Co.     377.9
Kern                         18201  Seneca Resources Corp.           3.8
Kern                         18484  Southern California Gas        466.0
                                     Co.
------------------------------------------------------------------------
Kings                         2731  Chevron Pipe Line Co.           36.1
Kings                        15007  Pacific Gas & Electric Co.      74.7
Kings                        18484  Southern California Gas        137.2
                                     Co.
------------------------------------------------------------------------
Lassen                       30838  Tuscarora Gas Transmission     101.2
                                     Company
------------------------------------------------------------------------
Los Angeles                    117  Air Products & Chemicals        14.1
                                     Inc.
Los Angeles                  31610  BP West Coast Products LLC      18.6
Los Angeles                   2731  Chevron Pipe Line Co.           17.9
Los Angeles                  26134  ExxonMobil Oil Corp.--West      48.0
                                     Coast
Los Angeles                  18484  Southern California Gas        675.9
                                     Co.
Los Angeles                  32253  Tesoro Los Angeles               0.7
                                     Refinery
Los Angeles                  19410  Thums Long Beach Co.             4.1
------------------------------------------------------------------------
Madera                       15007  Pacific Gas & Electric Co.     118.2
------------------------------------------------------------------------
Marin                        15007  Pacific Gas & Electric Co.      40.5
------------------------------------------------------------------------
Mendocino                    15007  Pacific Gas & Electric Co.      49.9
------------------------------------------------------------------------
Merced                       15007  Pacific Gas & Electric Co.     160.0
------------------------------------------------------------------------
Modoc                        15007  Pacific Gas & Electric Co.      80.6
Modoc                        30838  Tuscarora Gas Transmission      86.9
                                     Company
------------------------------------------------------------------------
Monterey                      2731  Chevron Pipe Line Co.           26.5
Monterey                     26134  ExxonMobil Oil Corp.--West       0.9
                                     Coast
Monterey                     15007  Pacific Gas & Electric Co.     208.0
------------------------------------------------------------------------
Napa                         15007  Pacific Gas & Electric Co.      49.8
------------------------------------------------------------------------
Nevada                       15007  Pacific Gas & Electric Co.      16.6
------------------------------------------------------------------------
Orange                        2731  Chevron Pipe Line Co.            1.7
Orange                       32083  DCOR, LLC                        1.8
Orange                       26134  ExxonMobil Oil Corp.--West       1.1
                                     Coast
Orange                       31068  Seal Beach Gas Processing        1.1
                                     Venture
Orange                       18484  Southern California Gas        181.7
                                     Co.
------------------------------------------------------------------------
Placer                       15007  Pacific Gas & Electric Co.      72.9
------------------------------------------------------------------------
Riverside                     4280  El Paso Natural Gas Co.         43.2
Riverside                    32093  Ex El Pipeline Services         14.1
                                     LLC
Riverside                    31891  North Baja Pipeline LLC         24.0
Riverside                    18484  Southern California Gas        780.0
                                     Co.
------------------------------------------------------------------------
Sacramento                   31477  CPN Pipeline Company             7.1
Sacramento                   31697  Lodi Gas Storage, LLC           13.6
Sacramento                   15007  Pacific Gas & Electric Co.     166.0
Sacramento                   32203  Rosetta Resources                3.9
Sacramento                   30749  Sacramento Municipal            39.7
                                     Utility District
Sacramento                   18608  Standard Pacific Gas Line       13.5
                                     Inc.
------------------------------------------------------------------------
San Benito                   15007  Pacific Gas & Electric Co.     184.4
------------------------------------------------------------------------
San Bernardino                4280  El Paso Natural Gas Co.         50.3
San Bernardino                 844  Kern River Gas                 237.1
                                     Transmission Co.
San Bernardino                 840  Mojave Pipeline Operating      234.3
                                     Company
San Bernardino               15007  Pacific Gas & Electric Co.     528.6
San Bernardino               20044  Praxair, Inc.                    2.2
San Bernardino               12874  Questar Pipeline Company        36.2
San Bernardino               18484  Southern California Gas        730.8
                                     Co.
San Bernardino               18536  Southwest Gas Corp.             20.6
San Bernardino               19610  Transwestern Pipeline            0.9
                                     Company LLC
------------------------------------------------------------------------
San Diego                    31477  CPN Pipeline Company             2.1
San Diego                    18112  San Diego Gas & Electric       256.1
                                     Co.
San Diego                    18484  Southern California Gas         43.0
                                     Co.
------------------------------------------------------------------------
San Francisco                15007  Pacific Gas & Electric Co.      19.2
------------------------------------------------------------------------
San Joaquin                  31697  Lodi Gas Storage, LLC           23.6
San Joaquin                  15007  Pacific Gas & Electric Co.     262.6
San Joaquin                  31296  Venoco, Inc.                     8.1
------------------------------------------------------------------------
San Luis Obispo               2731  Chevron Pipe Line Co.           45.8
San Luis Obispo              31684  ConocoPhillips                   9.6
San Luis Obispo              15007  Pacific Gas & Electric Co.      43.4
San Luis Obispo              18484  Southern California Gas        131.2
                                     Co.
------------------------------------------------------------------------
San Mateo                    15007  Pacific Gas & Electric Co.     104.2
------------------------------------------------------------------------
Santa Barbara                32083  DCOR, LLC                        0.1
Santa Barbara                 4908  ExxonMobil Production            1.4
                                     Company
Santa Barbara                18667  Plains Exploration &             7.4
                                     Production Company (PXP)
Santa Barbara                18484  Southern California Gas        203.7
                                     Co.
------------------------------------------------------------------------
Santa Clara                  31477  CPN Pipeline Company             0.9
Santa Clara                  15007  Pacific Gas & Electric Co.     178.1
Santa Clara                  32054  Silicon Valley Power             2.2
------------------------------------------------------------------------
Santa Cruz                   15007  Pacific Gas & Electric Co.      55.0
------------------------------------------------------------------------
Shasta                       32304  City of Redding                  2.8
Shasta                       15007  Pacific Gas & Electric Co.     184.0
------------------------------------------------------------------------
Siskiyou                     15007  Pacific Gas & Electric Co.      41.3
------------------------------------------------------------------------
Solano                       31477  CPN Pipeline Company            29.6
Solano                       31697  Lodi Gas Storage, LLC            6.7
Solano                       15007  Pacific Gas & Electric Co.     284.8
------------------------------------------------------------------------
Sonoma                       15007  Pacific Gas & Electric Co.     126.0
------------------------------------------------------------------------
Stanislaus                   15007  Pacific Gas & Electric Co.     198.5
------------------------------------------------------------------------
Sutter                       31477  CPN Pipeline Company            23.0
Sutter                       15007  Pacific Gas & Electric Co.     131.4
------------------------------------------------------------------------
Tehama                       15007  Pacific Gas & Electric Co.     181.9
------------------------------------------------------------------------
Trinity                      15007  Pacific Gas & Electric Co.      36.2
------------------------------------------------------------------------
Tulare                       18484  Southern California Gas        151.4
                                     Co.
------------------------------------------------------------------------
Ventura                      31067  Aera Energy LLC                  1.2
Ventura                      26134  ExxonMobil Oil Corp.--West       0.9
                                     Coast
Ventura                      18484  Southern California Gas        293.8
                                     Co.
Ventura                      32178  Vintage Production               1.6
                                     California LLC
------------------------------------------------------------------------
Yolo                         15007  Pacific Gas & Electric Co.     177.0
Yolo                         30749  Sacramento Municipal            35.9
                                     Utility District
------------------------------------------------------------------------
Yuba                         15007  Pacific Gas & Electric Co.      62.8
------------------------------------------------------------------------
                                    TOTAL:                      11,989.1
------------------------------------------------------------------------
Source: National Pipeline Mapping System, 09/10; mileage represents in-
  service miles.

3. The installation dates for these pipelines and the dates any 
        upgrades or improvements were completed.
    Operators are required to report the decade of installation for 
pipelines jurisdictional to PHMSA on a yearly basis. Below is a summary 
of the total miles reported in California on calendar year 2009 Annual 
Reports:

----------------------------------------------------------------------------------------------------------------
                                  Pre-    1940-    1950-    1960-    1970-    1980-    1990-    2000-
                      Unknown     1940     1949     1959     1969     1979     1989     1999     2009     TOTAL
----------------------------------------------------------------------------------------------------------------
Transmission
----------------------------------------------------------------------------------------------------------------
Onshore                    72      553      998    3,363    2,151      823    1,051    2,044      874    11,930
----------------------------------------------------------------------------------------------------------------
Offshore                    0        0        0        0       10        0        8        0        0        18
----------------------------------------------------------------------------------------------------------------
Gathering
----------------------------------------------------------------------------------------------------------------
Onshore                    14        0        0       40       59       20       81       10        3       228
----------------------------------------------------------------------------------------------------------------
Offshore                    0        0        0        0       40        0       45        3        0        87
----------------------------------------------------------------------------------------------------------------
System Total               86      553      999    3,403    2,260      843    1,185    2,057      877    12,263
----------------------------------------------------------------------------------------------------------------
Source: 2009 Gas Transmission and Gathering Annual Reports PHMSA F7100.2-1.


--------------------------------------------------------------------------------------------------------------------------------------------------------
        Gas Distribution            Unknown    Pre- 1940  1940- 1949  1950- 1959  1960- 1969  1970- 1979  1980- 1989  1990- 1999  2000- 2009     TOTAL
--------------------------------------------------------------------------------------------------------------------------------------------------------
Miles of Main                           147       4,929       6,356      15,828      14,949      16,425      17,480      12,705      13,840     102,659
--------------------------------------------------------------------------------------------------------------------------------------------------------
Number of Services                    2,490     178,763     344,058   1,173,203   1,174,889   1,521,456   1,770,891   1,193,827   1,212,498   8,572,075
--------------------------------------------------------------------------------------------------------------------------------------------------------
Source: 2009 Gas Distribution Annual Reports PHMSA 7100.1-1.

4. The schedule by which these pipelines are inspected. Please list the 
        dates of the most recent inspections and any scheduled future 
        inspections.
    PHMSA uses a risk-based inspection planning approach to prioritize 
which companies and which segments of pipeline should be inspected and 
what type of inspection is needed. The risk-based inspection planning 
process, which annually occurs in the fall for the subsequent year, 
considers company inspection and compliance history as well as 
performance indicators such as leaks, reported incidents and safety 
related condition reports. Additional safety factors are considered 
such as the proximity to populated or environmentally sensitive areas 
and the material properties of the pipeline itself. The process 
considers how long it has been since the last inspection to assure that 
every pipeline company is inspected on a regular basis. PHMSA also 
factors in any safety concerns we might have that are not otherwise 
accounted for. There are many types of inspections, from a standard 
inspection, which focuses on shorter segments of pipeline, to a 
comprehensive company-wide integrated inspection. We inspect for 
compliance with operator qualification requirements and drug prevention 
and alcohol misuse regulations. PHMSA may also perform special 
inspections targeted on specific safety concerns and investigates all 
public complaints. Because of the nature of our planning process, it is 
not possible to provide a list of all scheduled future inspections. We 
have provided below the information that we currently have available.
    The most recent (or scheduled) inspection date for each federally 
inspected unit is shown below.\4\ Plans at this time are to include the 
units inspected in 2008 in the 2011 inspection schedule as well as some 
of the units inspected in 2009.
---------------------------------------------------------------------------
    \4\ Source: PHMSA Safety Monitoring & Reporting Tool (SMART); Data 
as of 9/17/2010; Unit lists may include inactive/idled pipes that are 
not operating currently but not vacated and removed from the system so 
they are still considered inspection units by PHMSA.
---------------------------------------------------------------------------
    Pipeline systems inspected by the California Public Utilities 
Commission are scheduled by their office and not included below.

------------------------------------------------------------------------
     Gas Transmission and Gathering Systems           Most Recent or
------------------------------------------------   Scheduled Inspection
OPID                     Name                              Date
------------------------------------------------------------------------
117   Air Products & Chemicals Inc.                             2/4/2010
          Unit 72616
          Unit 34285                                            2/2/2010
          Unit 10785                                           1/21/2009
------------------------------------------------------------------------
840   Mojave Pipeline Operating Company
          Unit 8325                                            4/27/2009
------------------------------------------------------------------------
844   Kern River Gas Transmission Co.
          Unit 53735                                            2/9/2010
------------------------------------------------------------------------
997   Midway Sunset Cogeneration Co.
          Unit 71425                                           2/19/2008
------------------------------------------------------------------------
999   Breitburn Energy Corp.
          Unit 4335                                            6/18/2008
------------------------------------------------------------------------
2731  Chevron Pipe Line Co.
          Unit 3495                                            9/18/2008
          Unit 35105                                           9/17/2008
          Unit 65045                                           3/12/2009
------------------------------------------------------------------------
4280  El Paso Natural Gas Co.
      Inspected with Unit 8325                                 4/27/2009
------------------------------------------------------------------------
4908  ExxonMobil Production Company
          Unit 4525                                            3/31/2010
------------------------------------------------------------------------
1287  Questar Pipeline Company
 4
          Unit 25745                                            4/4/2008
------------------------------------------------------------------------
1866  Plains Exploration & Production Company
 7     (PXP)
          Unit 4305                                            8/31/2009
          Unit 8105                                   Scheduled: 10/2010
          Unit 16465                                            9/3/2009
          Unit 30165                                            9/1/2009
------------------------------------------------------------------------
1941  Thums Long Beach Co.
 0
          Unit 4365                                            6/18/2009
------------------------------------------------------------------------
2004  Praxair, Inc.
 4
          Unit 4105                                            7/24/2008
------------------------------------------------------------------------
2608  Plains Marketing, L.P.
 5
          Unit 29355                                           11/3/2008
------------------------------------------------------------------------
2613  ExxonMobil Oil Corp--West Coast
 4
          Unit 3425 (idle line not in use but                  8/29/2007
       not
          abandoned, therefore still on record)
------------------------------------------------------------------------
3074  Sacramento Municipal Utility District
 9
          Unit 12655                                            8/3/2009
------------------------------------------------------------------------
3083  Tuscarora Gas Transmission Company
 8
          Unit 13265                                            5/9/2008
------------------------------------------------------------------------
3096  Bulldog Gas & Power LLC
 5
          Unit 72395                                           3/10/2008
------------------------------------------------------------------------
3106  Aera Energy LLC
 7
          Unit 3415                                            7/14/2009
          Unit 4565                                            9/13/2010
          Unit 5205                                            8/24/2010
          Unit 5305                                            8/25/2010
          Unit 60935                                            6/3/2008
------------------------------------------------------------------------
3106  Seal Beach Gas Processing Venture
 8
          Unit 58735                                           6/16/2008
------------------------------------------------------------------------
3122  Occidental of Elk Hills, Inc.
 8
          Unit 28805                                            7/7/2008
------------------------------------------------------------------------
3129  Pacific Operators Offshore
 5
          Unit 14165                                           9/12/2008
------------------------------------------------------------------------
3129  Venoco, Inc.
 6
          Unit 3345                                            3/12/2008
          Unit 8135                                            5/12/2008
          Unit 8585                                            5/15/2008
------------------------------------------------------------------------
3139  California Gas Gathering Inc.
 4
          Unit 70875                                           3/25/2008
------------------------------------------------------------------------
3147  CPN Pipeline Company
 7
          Unit 3445                                            4/19/2010
          Unit 4375                                            4/20/2010
          Unit 48015                                           4/22/2010
          Unit 71285                                          10/15/2008
------------------------------------------------------------------------
3154  Greka Energy
 1
          Unit 30185                                           5/12/2008
------------------------------------------------------------------------
3161  BP West Coast Products L.L.C.
 0
          Unit 58335                                           8/16/2010
------------------------------------------------------------------------
3168  ConocoPhillips
 4
          Unit 67495                                           8/19/2009
------------------------------------------------------------------------
3180  Linn Western Operating, Inc.
 6
          Unit 4545                                             7/7/2008
------------------------------------------------------------------------
3189  North Baja Pipeline LLC
 1
          Unit 44375                                           11/7/2008
------------------------------------------------------------------------
3190  Edison Mission Operations and Maintenance
 4
          Unit 54935                                          11/17/2008
------------------------------------------------------------------------
3191  Inergy Propane, LLC
 9
          Unit 70895                                           1/28/2008
------------------------------------------------------------------------
3195  City of Vernon
 5
          Unit 56735                                           8/16/2010
------------------------------------------------------------------------
3198  Scholl Canyon Landfill Gas Limited
 6
          Unit 57335                                           8/14/2008
------------------------------------------------------------------------
3205  Silicon Valley Power
 4
          Unit 62755                                           1/19/2010
------------------------------------------------------------------------
3208  DCOR, LLC
 3
          Unit 4555                                            7/13/2010
          Unit 4635                                            6/21/2010
          Unit 4765                                             6/7/2010
          Unit 10755                                           8/18/2008
          Unit 10765                                          10/21/2008
------------------------------------------------------------------------
3209  Ex El Pipeline Services LLC
 3
          Unit 50425                                           5/23/2008
------------------------------------------------------------------------
3211  Dick Brown Technical Services
 6
          Unit 18745                                           3/11/2009
          Unit 31765                                           5/26/2009
          Unit 64635                                           3/25/2009
          Unit 67065                                           5/27/2009
------------------------------------------------------------------------
3217  Vintage Production California LLC
 8
          Unit 51295                                            5/5/2009
          Unit 69595                                           8/23/2010
------------------------------------------------------------------------
3220  Rosetta Resources
 3
          Unit 69835                                  Scheduled: 12/2010
------------------------------------------------------------------------
3230  City of Redding
 4
          Unit 73017                                           3/15/2010
------------------------------------------------------------------------
3225  Tesoro Los Angeles Refinery
 3
          Unit 10775                                           3/24/2008
------------------------------------------------------------------------
3230  Northern California Power Authority
 8
          Unit 72516                                           5/20/2009
------------------------------------------------------------------------


------------------------------------------------------------------------
         Municipal Distribution Systems               Most Recent or
------------------------------------------------   Scheduled Inspection
OPID                     Name                              Date
------------------------------------------------------------------------
1171  Long Beach Gas Dept, City of
 2
          Unit 1205                                            3/29/2010
------------------------------------------------------------------------
1508  Palo Alto, City of
 4
          Unit 555                                             3/16/2009
------------------------------------------------------------------------
3109  Island Energy
 7
          Unit 15255                                          12/14/2009
------------------------------------------------------------------------
3159  City of Susanville
 9
          Unit 62155                                           7/19/2010
------------------------------------------------------------------------
3211  City of Victorville
 9
          Unit 67505                                           4/14/2009
------------------------------------------------------------------------

                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                       Hon. Cynthia L. Quarterman
    Question 1. What steps will PHMSA be taking in the next 6 months to 
address the aging and corroding infrastructure of our oil and natural 
gas pipelines to prevent future spills and environmental damage? What 
steps will PHMSA take in the next year?
    Answer. PHMSA plans to take a number of steps in the next six to 
twelve months to further improve pipeline safety, address aging 
infrastructure issues and prevent future spills and environmental 
damage.

        1. PHMSA is in the process of finalizing the Administration's 
        rulemaking that accelerate the compliance deadlines contained 
        in the Control Room Management final rule published in December 
        2009 (RIN 2137-AE64). The Control Room Management Rule is broad 
        reaching and addresses not only the hardware and process 
        improvement aspects of control room operations, but it also 
        focuses on the corrosive effects of human fatigue. The 
        deadlines contained in the original rule would require 
        operators to fully implement these requirements by February 
        2013. On September 17, 2010, PHMSA published a Notice of 
        Proposed Rulemaking (NPRM) that proposed to expedite the 
        program implementation deadline to August 1, 2011, for most of 
        the requirements, except for certain provisions regarding 
        adequate information and alarm management, which would have a 
        program implementation deadline of August 1, 2012. PHMSA 
        proposed this rule so that the Control Room Management rule's 
        safety benefits to the public, property, and the environment 
        will be realized sooner. The comment period for this NPRM will 
        close on November 16, 2010. PHMSA is also accelerating joint 
        planning with our State pipeline safety partners so that we can 
        begin compliance inspections as soon as the first deadlines 
        elapse next fall.

        2. PHMSA is in the process of finalizing rules impose 
        regulatory protections governing lower pressure (aka, low 
        stress) hazardous liquid pipelines operating in more rural 
        areas; these pipelines have been regulated under PHMSA 
        hazardous liquid regulations (49 CFR Part 195) near populated 
        areas for many years.

        3. PHMSA is preparing to expand the scope of its inspection and 
        enforcement efforts through two major new initiatives that are 
        intended to improve pipeline safety. PHMSA and its many State 
        partners are preparing to begin inspections and enforcement for 
        two major new regulatory initiatives: public awareness programs 
        and distribution integrity management programs (DIMP). Starting 
        later this year and extending into next year, PHMSA and its 
        State partners will conduct public awareness inspections and 
        carry out enforcement actions where non-compliance is 
        identified. And beginning in fall 2011, PHMSA and its State 
        partners will begin inspections of integrity management 
        programs of natural gas distribution operators. PHMSA has 
        worked with its State partners to develop a nationally 
        consistent safety oversight program supported by joint training 
        of State and Federal inspectors. This effort takes a 
        substantial commitment of resources by both State and Federal 
        regulators.
        PHMSA issued a Final Rule creating the DIMP regulations on 
        December 4, 2009. These regulations require operators of gas 
        distribution pipelines to develop and implement integrity 
        management programs. The purpose of DIMP is to enhance safety 
        by identifying and reducing pipeline integrity risks. The 
        requirements of DIMP are similar to those required for gas 
        transmission pipelines, but tailored to reflect the differences 
        in and among distribution pipelines. PHMSA believes that DIMP 
        will provide substantial improvements to the safety of gas 
        distribution pipelines. DIMP, for the first time, requires 
        installation of excess flow valves in single family homes for 
        all new connections and when major rehabilitation is done to 
        existing connections.

        4. PHMSA plans to issue new reporting requirements for all 
        pipeline operators that will expand the amount of information 
        required to be provided on reports filed annually. This 
        expanded information includes new requirements for operators to 
        include state-by-state information on their hazardous liquid 
        pipelines and other specific information about an operator's 
        system that can help improve safety. PHMSA makes all this data 
        immediately available to its State pipeline safety partners, 
        and expects increased data to improve pipeline safety.

        5. PHMSA plans to issue an NPRM proposing to amend the 
        regulations to give PHMSA the authority to pursue enforcement 
        against third party excavators who damage energy pipeline 
        infrastructure because they violated State and Federal 
        requirements for safe digging practices. (PHMSA already has 
        this authority with respect to operators and their 
        contractors.) Under the proposed regulations, PHMSA would be 
        able to take such enforcement action only where a State partner 
        was shown to have an inadequate enforcement program with 
        respect to violations of damage prevention laws. PHMSA believes 
        that this proposed regulatory change will encourage States to 
        strengthen their excavation damage prevention laws and to 
        adequately enforce those laws.

        6. In November, PHMSA plans to issue final consensus best 
        practices on land use management near hazardous liquid and 
        natural gas transmission pipelines. These best practices 
        emanate from a multi-year effort led by PHMSA, and were 
        developed in partnership with a wide range of stakeholders 
        including the National League of Cities, the National 
        Association of County Officials, home builders, community 
        officials, and energy pipeline operators. PHMSA expects these 
        best practices to reduce the likelihood and impacts of pipeline 
        accidents.

        7. PHMSA published an Advanced Notice of Proposed Rulemaking 
        (ANPRM) (RIN 2137-AE66) on hazardous liquid pipelines on 
        October 18, 2010, and will collect comments in response to it 
        in the coming months. PHMSA is considering whether changes are 
        needed to the regulations covering hazardous liquid onshore 
        pipelines. In particular, through the ANPRM, PHMSA is seeking 
        comments on whether it should extend regulation to certain 
        pipelines currently exempt from regulation; whether other areas 
        along a pipeline should either be identified for extra 
        protection or be included as additional high consequence areas 
        (HCAs) for integrity management (IM) protection; whether to 
        establish and/or adopt standards and procedures for minimum 
        leak detection requirements for all pipelines; whether to 
        require the installation of emergency flow restricting devices 
        in certain areas; whether revised valve spacing requirements 
        are needed on new construction or existing pipelines; whether 
        repair timeframes should be specified for pipeline segments in 
        areas outside the HCAs that are assessed as part of the IM; and 
        whether to establish and/or adopt standards and procedures for 
        improving the methods of preventing, detecting, assessing and 
        remediating stress corrosion cracking in hazardous liquid 
        pipeline systems. PHMSA will evaluate public comments in 
        response to the ANPRM as it determines whether and how to 
        improve the regulations covering hazardous liquid onshore 
        pipelines.

    In addition to taking the steps described above, PHMSA will 
continue in the coming year to implement its broad safety oversight 
program, including in the areas of integrity management, public 
awareness, operator qualification inspection, and enforcement. 
Additionally, we will analyze risk factors relative to the age of the 
Nation's pipelines and determine what action is needed to mitigate any 
identified issues.

    Question 2. The importation of oil from the oil sands of Canada has 
been increasing and is becoming a more significant source of oil for 
the U.S. However, this product is far more corrosive than standard 
crude. The sulfur content can be over 200 times higher than light 
crude, which can be severely damaging to pipelines. What steps is PHMSA 
taking to assure the American public that this highly-corrosive product 
is safe to move through pipelines into and through the U.S.? Should 
there be additional regulations and inspections required for pipelines 
transporting this more-corrosive product?
    Answer. The crude oil streams being transported in our crude oil 
pipelines from Canada are a mix of product from numerous domestic and 
Canadian oil production fields. The operator has a regulatory 
requirement to ensure that the crude oil is not corroding the pipe by 
monitoring the characteristics of the oil, evaluating the need for 
using corrosion inhibitors to minimize the deleterious effects of the 
oil, and periodically assessing the condition of the pipeline through 
the use of internal inspection devices to ensure that the corrosion 
control program is working.

        PHMSA has not identified any specific pipeline safety concerns 
        regarding transport of Canadian crude oil. In general, we are 
        not aware of any study indicating sulfur levels in crude oil 
        would specifically cause concern with pipelines. Sulfur derived 
        compounds can add to concerns over stress related corrosion 
        cracking (SCC); however, the concern for SRCC arises if there 
        is a gaseous condition with the crude. As long as the oil 
        remains in liquid form, the sulfur does not affect the 
        pipeline. The Canadian crude oil does not have a tendency to 
        create a gaseous condition and such issues to date have not 
        been identified.

    If PHMSA sees systemic corrosion problems stemming from the 
transport of Canadian crude oil that cannot be addressed by the current 
regulations, further consideration will be given to additional safety 
regulations. PHMSA would appreciate any research on this issue the 
Committee may have that indicates pipeline safety concerns.

    Question 3. Recognizing the need to balance national security 
considerations, what changes is PHMSA going to make to allow state and 
local government officials access to response plans, in order to make 
sure that these plans are adequate to ensure the safety of the 
individuals living along those pipelines? If on-site-only reviews are 
the extent of the review that the government has, what additional 
training and follow-up is PHMSA planning to ensure that all inspectors 
have the proper skills and expertise to thoroughly review these plans?
    Answer. PHMSA receives, reviews, and approves facility response 
plans (FRPs) for onshore oil pipelines, required by the Federal Water 
Pollution Control Act and the Oil Pollution Act. PHMSA also provides 
Federal and State agencies responsible for coordinating emergency 
response and spill clean-up with plans applicable to an emergency 
situation as requested. Earlier this year, PHMSA issued an Advisory 
Bulletin reminding operators of their responsibilities to review and 
update their oil spill response plans and to comply with other 
emergency response requirements to ensure the necessary response to a 
worst case discharge from their pipeline facility.
    Since the focus of the hearing for the San Bruno incident was 
natural gas pipelines, the discussion below focuses on ``Emergency 
Plans,'' also required by PHMSA regulations.
    PHMSA requires that natural gas and all hazardous liquid pipeline 
operators have written procedural manuals for operations, maintenance 
and emergency procedures. These manuals arc the emergency plans that 
PHMSA engineers review during their periodic inspections of the 
operators. While PHMSA does not normally receive or keep copies of 
those plans, operators are required to establish and maintain 
procedures for responding to pipeline emergencies. The plans include 
the liaison with public officials concerning the location of their 
pipelines and other facilities, and the procedures, roles, and 
responsibilities that are assigned to those officials during 
emergencies. PHMSA has issued an Advisory Bulletin to remind operators 
of these requirements and that PHMSA and its State Partners will be 
stepping up our inspection and enforcement regarding emergency response 
and planning,
    Additionally, pipeline operators are required to implement public 
awareness plans to inform people living and working near a pipeline how 
to recognize and react to an emergency situation.
    To assist agencies that need to contact pipeline operators in their 
jurisdiction, State and local first response agencies can enter into an 
agreement to receive pipeline geospatial information from PHMSA's 
National Pipeline Mapping System (NPMS). The NPMS public viewer shows 
major pipelines mapped on a county-by-county basis, as well as points 
of contact for each pipeline operator. PHMSA provides maps to other 
Federal agencies such as EPA and USCG.
    There are specialists in each PHMSA region, the Community 
Assistance and Technical Services inspectors, who conduct outreach to 
State and local officials concerning the benefits and risks that 
pipelines pose to their community. These specialists can provide 
valuable assistance for local officials who must consider safety, 
emergency response and land use in their jurisdictions.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                       Hon. Cynthia L. Quarterman
    Question. You have testified that ``there are currently 113 
inspection positions authorized, and there are currently 96 inspectors 
on-board. We have hired 4 people who should be in within the next 2 
months, and there are 13 positions being advertised,'' and that PHMSA 
will quickly act to hire new inspectors if Congress authorizes them. 
However, the 2006 PIPES Act authorizes 135 inspectors for Fiscal Year 
2010, not 113. How do you account for this contradiction?
    Answer. The 2006 PIPES Act, Section 18(e) requires the Secretary to 
``ensure that the number of positions for pipeline inspection and 
enforcement personnel'' at PHMSA does not fall below 135 for Fiscal 
Year 2010. In Fiscal Year 2010, PHMSA allocated 138 positions for 
pipeline inspection and enforcement personnel. To further explain the 
comment made during testimony, the 138 positions include an allocation 
of 113 positions for inspection personnel, PHMSA's field presence 
conducting daily examinations of pipeline operators' facilities and 
records to verify compliance. The remaining 25 positions are allocated 
for enforcement personnel which include attorneys, technical 
specialists, and other individuals who work in tandem with PHMSA's 
inspectors to process violations, civil penalties, and other 
enforcement actions. As of November 17, 2010, PHMSA has 119 of its 138 
inspection and enforcement staff on board-100 inspectors and 19 
enforcement staff. We are currently in the process of hiring 8 
additional inspection and enforcement staff-6 inspectors and 2 
enforcement personnel.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                        Hon. Christopher A. Hart
    Question 1. NTSB has been critical of PHMSA's auditing procedures 
when evaluating an operator's integrity management program. Does the 
NTSB believe PHMSA is doing a good job in overseeing its state 
partners?
    Answer. The integrity management program concept is responsive to 
the fact that one size does not necessarily fit all, and each program 
can be more precisely tailored to the needs of each situation. However, 
individual tailoring places increased responsibility on the individual 
pipeline operators, who must develop their programs, and on PHMSA, who 
must approve and oversee the programs.
    We have found in past pipeline accidents that individual operators 
did not adequately implement their integrity management programs and 
that PHMSA did not adequately oversee them. In these two recent 
pipeline accidents--San Bruno, CA, and Marshall, MI--we will be looking 
at whether those issues need to be addressed again, and we will examine 
the level of oversight of the pipeline operators exercised by PHMSA and 
the California Public Utilities Commission.

    Question 2. How extensively used are automatic or remote-controlled 
shut-off valves compared to valves that are manually controlled? Are 
there any technical or practical limitations on the installation of 
automatic or remote-controlled shut-off valves and what do they cost?
    Answer. As part of a pipeline operator's integrity management 
program, the location and existence of remote control or automatic 
shut-off valve information should be available to PHMSA, and PHMSA 
should have accurate information on the use of these types of valves. 
The NTSB is on the record supporting automatic and remote controlled 
shut-off valves, especially in urban and environmentally sensitive 
areas.
    The NTSB is not aware of any specific limitations in using 
automatic or remote controlled shutoff valves in pipelines in either 
urban or rural areas. Currently, operators are not required to install 
these valves as a prescriptive regulation. As seen in San Bruno, the 
use of an automatic or remote controlled valve could have made a 
difference in the response time and stopped the flow of gas sooner.
                                 ______
                                 
           State of California--Public Utilities Commission
                                  San Francisco, CA, March 25, 2011
Hon. John D. Rockefeller IV, Chair
Hon. Barbara Boxer, Member
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Re: September 28, 2010 Senate Committee on Commerce, Science, and 
            Transportation hearing on Pipeline Safety: Assessing the 
            San Bruno, California Explosion and Other Recent Accidents

Dear Senators Rockefeller and Boxer:

    I am writing to respond to questions Senator Boxer asked of me 
during the above hearing on September 28, 2010. Please accept my 
sincere apology for only now responding to these questions.
    On March 11, 2011, your staff forwarded the questions below, my 
responses to which immediately follow:
    1. On pages 79 and 80 of the [hearing] transcript, Senator Boxer 
requested the Federal document filed by CPUC and mentioned by the New 
York Times where CPUC confesses to regulators that they rarely fine any 
gas pipeline operator for a violation. Do you have that document?
    We were unable to locate any specific document stating that the 
CPUC rarely issued fines to gas pipeline operators for violations. 
However, as documented on the Pipeline and Hazardous Materials Safety 
Administration (PHMSA) website, it is clear that the CPUC has not 
issued as many fines as some other states have. In the past, the CPUC 
has tried to work cooperatively with gas utilities to encourage them to 
voluntarily report violations of state and Federal rules. This practice 
was motivated by the assumption that fining the pipeline companies for 
self-reported violations would act as a disincentive to report future 
violations. As part of the CPUC's review of our own regulatory 
procedures following the San Bruno explosion, it is clear that this 
approach may not be the most effective approach in promoting pipeline 
safety. In fact, yesterday, the CPUC issued an order to show cause 
directing Pacific Gas and Electric Company (PG&E) to appear at a 
hearing to show why it should not be found in contempt for failing to 
comply with a CPUC pipeline records search order. A proposed stipulated 
resolution of that order would impose a $6 million fine on PG&E.
    The CPUC recently opened a rulemaking (Order Instituting Rulemaking 
on the Commission's Own Motion to Adopt New Safety and Reliability 
Regulations for Natural Gas Transmission and Distribution Pipelines and 
Related Rulemaking Mechanisms, R.1102-019) to revise its General Order 
112-E, Rules Governing Design, Construction, Testing, Operation, and 
Maintenance of Gas Gathering, Transmission, and Distribution Piping 
Systems. As part of this rulemaking, the CPUC will explore establishing 
an expedited enforcement process for issuing penalties to gas pipeline 
operators for violations of all applicable laws, rules, and 
regulations.

    2. On page 81 of the transcript, Senator Boxer requested a written 
explanation from CPUC as to why their FY 2010 inspection record was 
below their average and the industry's. Mr. Clanon agreed to this 
request. Can you please provide this in writing?
    In recent years, California has experienced severe budget deficits 
that have adversely affected the CPUC's ability to conduct inspections 
and investigations. As a result, the CPUC has not been able to maintain 
the number of field days required by PHMSA in order to receive the 
maximum grant it is entitled to. In response to the San Bruno accident, 
the CPUC hired four new utilities engineers. This will allow our Gas 
Safety Program to increase the number of inspections and investigations 
it conducts annually. The CPUC will continue to make every effort to 
ensure that it meets the required number of field days suggested by 
PHMSA.

    3. On page 90, Senator Boxer asked the CPUC to submit their plan in 
writing for moving ahead with more automatic shut off valves.
    As mentioned above, the CPUC recently opened a rulemaking to 
address gas safety issues and to revise its General Order 112-E. As 
part of the Rulemaking, the CPUC will consider adopting modifications 
to General Order 112-E requiring gas utilities to develop criteria for 
installing either automatic or remotely-controlled valves on pipelines 
located in high consequence areas. The CPUC's Rulemaking will address a 
pipeline's location, accessibility, and an operator's emergency 
response capability in weighing the advantages of these valves. The 
CPUC will require that Pacific Gas and Electric (PG&E) establish a list 
of recommended locations where manual valves could be replaced with 
remotely-controlled or automatic valves on its natural gas transmission 
pipelines. PG&E provided the CPUC with a preliminary analysis which it 
plans to use as part of its pipeline 2020 Program.
    I want to assure you that we are fully committed to improving 
pipeline safety in California. Since the tragic San Bruno explosion, we 
have ordered pressure reductions on certain pipelines in high 
consequence areas, and directed PO&E to implement the National 
Transportation Safety Board's (NTSB) Safety Recommendations and conduct 
a complete and comprehensive records search of pipeline documents in 
order to determine valid Maximum Allowable Operating Pressure levels. 
In February, the CPUC opened the rulemaking mentioned above to 
establish new rules for the safe and reliable operation of natural gas 
pipelines in California.
    We have upcoming public participation hearings in San Bruno, Santa 
Rosa, and Los Angeles in order to hear public testimony related to gas 
pipeline safety and the CPUC's regulation of natural gas transmission 
and distribution pipelines. We also continue to aggressively pursue 
answers as to why the pipeline in San Bruno ruptured. Yesterday, our 
Commissioners began consideration of a $6 million fine against PG&E 
solely for not responding to our pipeline records search request, and 
we have entered a penalty phase in our case involving PG&E's 
recordkeeping. We expect that the NTSB's report on the pipeline 
rupture, as well as that of the Independent Review Panel the CPUC 
commissioned, will offer insight into other ways the CPUC and the 
utilities it regulates can improve pipeline safety. We welcome your 
interest and input into this very important process.
    Please do not hesitate to contact me or my staff if you need us to 
clarify these responses or if you have any other questions or concerns.
            Sincerely,
                                               Paul Clanon,
                                                Executive Director.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                           Christopher Johns
    Question 1. Senator Boxer requested further information on whether 
the Contra Costa Times article was correct as to PG&E leaving $80 
million dollars of pipeline safety money on the table.
    Answer. An article in the Contra Costa Times sparked public 
scrutiny into PG&E's spending on its Gas Pipeline Replacement Program 
(GPRP). PG&E initiated the GPRP in 1985 as a multi-year program to 
upgrade its gas distribution facilities. From the beginning of the 
program in 1985 through the end of 2009, PG&E replaced over 2,100 miles 
of pipeline system-wide, and spent approximately $1.7 billion 
(including replacement of copper services). Although the GPRP included 
some gas transmission facilities in the early phases of the program, it 
is now entirely focused on gas distribution pipeline. The segment of 
pipe that ruptured in San Bruno on September 9 was classified by PG&E 
as a transmission pipeline.
    The Contra Costa Times article focused in particular on PG&E's 
spending on the GPRP in comparison to the General Rate Case (GRC) 
targets. The article stated that ``[b]etween 1993 and 1995 alone, the 
company collected $80 million more than it spent for its gas pipeline 
replacement program.'' This discussion in the article is based on the 
California Public Utility Commission's (CPUC) 1996 GRC Final 
Decision.\1\ As the article itself noted, the Commission's decision 
explains that, ``[n]otwithstanding PG&E's underspending of budgeted 
funds in this program [GPRP] in every year since 1985, PG&E has kept 
the program on target.'' \2\ Furthermore, in the subsequent 1999 GRC 
decision, the CPUC expressly found that the GPRP ``has been and remains 
on schedule.'' \3\
---------------------------------------------------------------------------
    \1\ Decision 95-12-055 (Dec. 20, 1995).
    \2\ Id. (mimeo) at 56.
    \3\ Decision 00-02-046 (Feb. 17, 2000), Finding of Fact No. 107.
---------------------------------------------------------------------------
    The GPRP is only one part of PG&E's broader pipeline safety and 
maintenance efforts and, as noted, no longer includes work on gas 
transmission pipelines. To provide a more complete picture of PG&E's 
spending on transmission pipelines, the charts below show recorded 
expense and capital for the entire Gas Transmission line of business 
from 2000-2009.\4\ For context, PG&E's recorded spending data is 
compared to the imputed targets from the company's rate case decisions 
for this 10 year period. This data shows that:
---------------------------------------------------------------------------
    \4\ We are providing data starting in 2000 in part because PG&E's 
recent spending on safety and maintenance is more directly relevant to 
its current practices. Furthermore, changes in PG&E's method of 
accounting for and grouping categories of work prior to 2000 make 
comparisons with the pre-2000 period challenging.

  <bullet> In total, PG&E spent $2.107 billion on gas transmission 
        capital and expense work during 2000-2009. This reflects total 
        spending of $202 million more than the imputed target for that 
---------------------------------------------------------------------------
        period.

  <bullet> PG&E spent $1.3 billion on gas transmission capital work 
        during 2000-2009. This represents $178 million more than the 
        imputed target.

  <bullet> During the same period, PG&E spent $892 million on pipeline 
        safety, replacement, and maintenance work (in the work 
        categories for Integrity Management, Pipeline Reliability, 
        Systems Maintenance, and Mark & Locate). This represents $65 
        million more than the imputed target for 2000-2009 in those 
        work categories.

        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        

    Question 2. Senator Boxer requested a letter describing instances 
in which remote and automatic shut off valves have worked in PG&E's 
operation.
    Answer. PG&E has hundreds of automatic over pressure protection 
control valves that protect pipelines from exceeding their maximum 
operating pressure. PG&E also has some lines with rupture control 
valves for specific needs and the 24 hour control center has the 
ability to shut down some pipeline systems via remote control.
    Automatic valves are fully automated valves that will operate 
without human intervention when specific operating conditions on the 
pipeline arise. Remote-controlled valves can be remotely operated from 
a control center. It is possible to have automated, remote-controlled 
valves.
    The process for turning off automated valves is different for each 
type of valve:

        Remotely controlled valves: these are valves operated by remote 
        control from our 24-hour manned Gas Control Center

        Automatic valves: these are valves with control programs 
        triggered to operate via a specified change in pipeline 
        conditions and do not require remote control or personnel 
        onsite

    PG&E has identified an instance in which mainline valves on L-300 
equipped with automatic shut-off capability were activated. Between 
milepoints 299 and 328, approximately 1 month after L-300 had been hit 
by an agricultural soil ripper, the line ruptured. The automatic shut-
off valves that were activated operated successfully.
    PG&E is committed to further deploying automated valve technology 
throughout our natural gas pipeline system. As part of our Pipeline 
2020 Program, PG&E has committed to install more than a dozen automated 
or remote shut-off valves as part of a pilot program. To execute this 
pilot program effectively, it will be necessary to have a pipeline 
system that offers the greatest flexibility, or redundancy, to reroute 
supplies while those valves and their related infrastructure are 
installed on other sections. In addition, we continue to work on the 
systems necessary to support this automated technology, such as 
software systems, to ensure that these automated valves operate 
effectively and safely.

    Question 3. Senator Boxer requested a list of when inspections and 
repairs are to be completed on the top 100 high-risk pipelines in 
PG&E's network.
    Answer. Attached, please find PG&E's March 9, 2011 submission to 
the California Public Utilities Commission regarding our Updated Long 
Range Gas Transmission Pipeline Planning Input Top 100 Segments 2007--
2009. The document identifies pipeline segments that the company has 
prioritized for engineering analysis, monitoring or, in some instances, 
future repair or replacement. The document also provides a status 
update regarding where these segments are in terms of monitoring, 
inspections, replacements and repair of the segments.
                               Attachment
                           Pacific Gas and Electric Company
                                   San Francisco, CA, March 9, 2011

Paul Clanon, Executive Director
California Public Utilities Commission
San Francisco, CA 94102-3298

Re: Updated Long Range Gas Transmission Pipeline Planning Input
Top 100 Segments--2007-2009

Dear Mr. Clanon:

    On February 11, 2011, PG&E provided a combined list of the segments 
included on PG&E's 2007, 2008 and/or 2009 Top 100 lists for long-range 
evaluation and planning, along with updated notes on their status as of 
February 10, 2011.
    Attached to this letter is an update to the combined list provided 
on February 11, 2011. The changes, which mostly reflect location 
information, are summarized in the table below.

------------------------------------------------------------------------
 Page       Map No.              Deletion            Addition/Revision
------------------------------------------------------------------------
    5         Map 2(a)                            City: Livermore
------------------------------------------------------------------------
    7       Map 4(e-f)                            City: Fremont
------------------------------------------------------------------------
    9       Map 5(o-q)                            City: Manteca
------------------------------------------------------------------------
   11       Map 8(a-e)                            City: Stanford
------------------------------------------------------------------------
   11         Map 8(f)   Mile point: 20.43 City:  Mile point: 19.72
                          Palo Alto                City: Woodside
------------------------------------------------------------------------
   12        Map 12(a)   County: Contra Costa
------------------------------------------------------------------------
   14           Map 15   County: Contra Costa
------------------------------------------------------------------------
   17        Map 19(b)                            City: Roseville
------------------------------------------------------------------------
   18           Map 23   Description: near        Description: in
------------------------------------------------------------------------
   20      Map 27(a-c)                            City: Clovis
------------------------------------------------------------------------
   21      Map 27(d-j)                            City: Clovis
------------------------------------------------------------------------
   25      Map 36(d-e)   City: Jersey Island      City: Bethel Island
------------------------------------------------------------------------
   28           Map 43   Description: through
                          the rural area
------------------------------------------------------------------------
   30           Map 53   Description: in          Description: near
------------------------------------------------------------------------
   30           Map 56                            City: West Sacramento
------------------------------------------------------------------------
   30        Map 57(a)                            City: Marysville
------------------------------------------------------------------------
   31        Map 57(b)                            City: Olivehurst
------------------------------------------------------------------------
   33           Map 63   Description: 100         Description: 101
------------------------------------------------------------------------
   33           Map 66                            City: Morgan Hill
                                                   Description: Morgan
                                                   Hill and San Martin
------------------------------------------------------------------------

    Please contact me should you have any questions.
            Sincerely,
                                           Brian K. Cherry,
                                                    Vice President,
                                                  Regulatory Relations.
cc: Michael R. Peevey, President
Timothy A. Simon, Commissioner
Mike Florio, Commissioner
Catherine Sandoval, Commissioner
Julie Fitch, Energy Division
Richard Clark, Consumer Protection Safety Division
Julie Halligan, Consumer Protection Safety Division
Frank Lindh, General Counsel
Harvey Y. Morris, Legal Division
Patrick S. Berdge, Legal Division
Joe Como, Division of Ratepayer Advocates
                                 ______
                                 
                                                      March 9, 2011

          Long Range Gas Transmission Pipeline Planning Input

             Top 100 Segments--2007, 2008 and Updated 2009

    PG&E's top priority is to ensure the safety of our natural gas 
system. PG&E employs a comprehensive inspection and monitoring program 
to help achieve this goal. PG&E monitors system status in real time on 
a 24-hour basis, and regularly conducts leak surveys, patrols and 
maintenance of all of its natural gas pipelines. Any issues identified 
as a threat to public safety are immediately addressed.
    PG&E also uses the data it collects daily on its gas transmission 
pipeline system to help plan and prioritize future work as part of its 
long-term risk management planning. As described below, PG&E's ``Top 
100'' lists have been a component of this risk management program. As 
part of our efforts to enhance operations, PG&E has begun developing 
our Pipeline 2020 program, which is focused on modernizing our pipeline 
infrastructure, spurring development of next-generation pipeline 
inspection technologies, enhancing public safety awareness and 
emergency response planning, and developing industry-leading best 
practices, including state-of-the-art risk assessment techniques. Going 
forward, PG&E will use these new risk management techniques to guide 
its future work.
    PG&E's risk management tools include a program that evaluates data 
on each of the approximately 20,000 pipeline segments within PG&E's 
natural gas transmission pipeline system based on the following 
criteria:

  <bullet> the potential for third party damage like dig-ins from 
        construction,

  <bullet> the potential for corrosion,

  <bullet> the potential for ground movement, and

  <bullet> the physical design and characteristics of the pipe segment.

    PG&E also considers the proximity of a pipeline segment to high-
density populations and environmentally-sensitive areas, as well as 
potential reliability impacts.
    Based on all of these factors, PG&E determines which segments 
warrant further evaluation, monitoring or other future action. 
Historically, these segments have been included each year on a Top 100 
list to help guide the development of future plans. As conditions 
changed from year to year, PG&E reevaluated which segments were 
included on the list.
    The Top 100 lists were used as engineering planning tools. Their 
primary function has been to highlight segments for further engineering 
investigation, monitoring or other long-term follow-up, but they do not 
determine which segments are designated for immediate repair or 
replacement.
    PG&E has taken a range of appropriate actions depending on 
circumstances specific to each segment referenced on a Top 100 list. 
For example, if a segment was listed due to a high level of 
construction activity in the area, PG&E might have enhanced the surface 
markings of the pipeline and conducted additional outreach to help 
avoid accidental dig-ins. In other circumstances, where, for example, a 
segment was on the list due to its physical design and characteristics, 
PG&E may have increased its monitoring, patrolling or proposed to 
replace the segment.
    The list below includes the segments on PG&E's 2007, 2008 and/or 
2009 lists for long-range evaluation and planning, along with updated 
notes on their status as of February 10, 2011. As shown in the status 
summary below, 86 percent of pipeline segments that were listed only in 
2007 or 2008 have been completed. For segments on the 2009 list, 56 
percent have been completed and the rest are in various phases of 
action.
    For ease of reference, PG&E has retained the same map numbers used 
in the 2009 list submitted in September 2010. This list also is 
available on PG&E's website at http://www.pge.com/planninginput/, along 
with maps to assist customers with specific questions about the 
location of PG&E's natural gas transmission lines.
Factor Key
    A pipeline segment is identified for further study and long-range 
planning based upon its risk for one or more of five unique factors:

  <bullet> Potential for Third-Party Damage: Third-party damage is the 
        number one risk to PG&E's pipeline system. Indications that a 
        pipe segment may be at risk for third-party damage include 
        third-party construction activity in the immediate area of the 
        pipeline's location, whether or not the line segment has a 
        history of third-party damage, the depth of cover over the 
        pipeline, the pipe diameter, the degree of surface marking 
        available for the location of the pipe segment, and local 
        awareness of the potential for third-party damage in the 
        immediate area of the pipeline's location. Some of the actions 
        PG&E would take to reduce this risk factor include additional 
        marking of the pipeline location (when possible), additional 
        education in the immediate area for the 811 system to call 
        before digging, and monitoring of construction activity and/or 
        permits in the area around the pipeline.

  <bullet> Potential for Corrosion: Factors include items such as the 
        external coating design, the resistivity of the soil, and other 
        ground-based factors which could reduce the thickness of the 
        pipe wall. Some of the actions PG&E would take to reduce this 
        risk include regular and ongoing monitoring (PG&E monitors both 
        electronically and by physically checking its cathodic 
        protection system every 2 months at over 6,000 locations in its 
        natural gas transmission system), increasing or replacing the 
        external protective coating of the pipe, or replacement of the 
        pipe itself.

  <bullet> Potential for Ground Movement: Factors include the proximity 
        to seismically active areas, and the potential for soil erosion 
        or landslides around the pipeline. Some of the actions PG&E 
        would take to reduce this risk include increased monitoring, 
        changing the soil material in which the pipe segment is buried, 
        changing the alignment of the pipe segment, or burying the pipe 
        segment at a greater depth beneath the ground level (for 
        erosion prevention).

  <bullet> Physical Design and Characteristics: Factors include items 
        such as the age of pipe, the type of welding performed on the 
        pipe, the fittings used in the pipeline, and the materials used 
        to manufacture the pipe. Some of the actions PG&E would take to 
        reduce this risk factor include replacement of the pipe or 
        fittings in order to upgrade or improve the design or 
        characteristics of the line segment or reducing pipeline 
        pressure.

  <bullet> Overall: A pipeline segment with an ``Overall'' factor is 
        included on the list based upon its ranking in more than one of 
        the factors outlined above but not based upon any single 
        factor.
Rank
    PG&E's Top 100 list for a particular year was composed of the 
segments that ranked highest in each of the above five categories. It 
is important to note the ``rank'' that PG&E previously included in its 
2009 Top 100 list and has also included in this combined 2007-2009 list 
is a relative ranking of these segments. PG&E has provided this 
``rank'' as a means of comparing the total risk management score of a 
segment on a particular Top 100 list against the other segments on that 
list.
Status Key
  <bullet> Monitoring: PG&E is monitoring and reviewing these pipeline 
        segments to see if they need to be addressed through a specific 
        project.

  <bullet> Initiated: PG&E has determined that the pipeline segment 
        merits further study and analysis.

  <bullet> Engineering: PG&E is defining the scope of the project and 
        readying it for construction.

  <bullet> Construction: PG&E has a project that is under construction.

  <bullet> Completed: PG&E has determined that no further action is 
        warranted on this segment due to the completion of an 
        investigation that results in improved/updated pipeline 
        information or the completion of an evaluation or construction 
        project.

    Regardless of status, every segment identified below remains within 
PG&E's comprehensive inspection and monitoring program discussed above. 
Any issues identified as a threat to public safety are immediately 
addressed.
Status Summary
    The following table provides a brief summary of the current status 
of the pipeline segments on PG&E's 2007, 2008 and 2009 Top 100 lists. 
Note that there are 78 pipeline segments on the 2007 and/or 2008 lists 
that do not also appear on the 2009 list. Also, note that the total 
number of individual segments on an annual list varies because some 
segments qualify for the list in more than one risk factor category 
(e.g., both for Potential for Ground Movement and Potential for 
Corrosion), reducing the total number of unique segments to less than 
100. Conversely, in some years segments rank the same in a risk factor 
category, with these ``ties'' increasing the total number of segments 
to more than 100. For this reason, the 2007 list contains 85 segments 
and the 2008 list contains 110 segments. In total, there are 178 unique 
pipeline segments on the 2007-2009 Top 100 lists.

----------------------------------------------------------------------------------------------------------------
                                     Segments Only on 2007 and/or 2008             Current 2009 Segments
                                                   Lists                 ---------------------------------------
   Status as of February 2011    ----------------------------------------
                                         Count                 %                 Count                 %
----------------------------------------------------------------------------------------------------------------
Completed                                        67                 86%                  56                 56%
Construction or Engineering                       8                 10%                  27                 27%
Initiated or Monitoring                           3                  4%                  17                 17%
----------------------------------------------------------------------------------------------------------------
TOTALS                                           78                100%                 100                100%
----------------------------------------------------------------------------------------------------------------

    PG&E's goal is to be the best in class nationally on gas safety as 
we work to earn back the trust and confidence of our customers. Our 
current programs and the improvements that will come through our 
Pipeline 2020 program are key elements to achieving that goal.
      

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                              Year
  Map No.    Pipeline       Segment       Location:  County    On     Description as of February 2011        Factor          Status as of       Rank
                                               (City)         List                                                          February 2011
--------------------------------------------------------------------------------------------------------------------------------------------------------
1(a)             L103   Segment 117.1,          San Benito    2007   Segment 117.1 is located in an        Potential for      Engineering      2007: 71
                        Mile Points                           2008    unpopulated area on steep          Ground Movement                       2008: 94
                         11.00-11.42                          2009    terrain which is particularly                                            2009: 71
                                                                      susceptible to ground motion.
                                                                      It will be replaced as part of
                                                                      a project to relocate 6 miles
                                                                      of pipe between Hwy 156 and
                                                                      Crazy Horse Rd. near San Juan
                                                                      Bautista due to exposure to the
                                                                      San Andreas fault line and
                                                                      through hillsides which are
                                                                      susceptible to landslides and
                                                                      soil erosion problems.
1(b)             L103   Segment 117.3,          San Benito    2007   The ground movement risk for          Potential for                 Comple2007: 77
                        Mile Points                           2008    segment 117.3 was reduced based    Ground Movement                       2008: 94
                         11.42-11.42                                  on PG&E's system-wide
                                                                      assessment of U.S. Geological
                                                                      Survey data on the severity of
                                                                      erosion, including in the area
                                                                      in which this segment lies,
                                                                      causing this segment not to
                                                                      appear on the 2009 list.
                                                                     (Notwithstanding its removal
                                                                      from the list, this segment of
                                                                      pipe is part of the project to
                                                                      relocate 6 miles of pipe
                                                                      between Hwy 156 and Crazy Horse
                                                                      Rd. near San Juan Bautista
                                                                      discussed at Map No. 1(a).
                                                                      Status: Engineering.)
1(c)             L103   Segment 117.5,          San Benito    2007   See description for Map No.           Potential for      Engineering      2007: 72
                        Mile Points                           2008    1(a).                              Ground Movement                       2008: 92
                         11.42-11.65                          2009                                                                             2009: 72
2(a)             L107   Segment 127.1,             Alameda    2008   This section of Line 107 is       Physical Design &      Engineering      2008: 90
                        Mile Points            (Livermore)    2009    located across the open hills                     Characteristics        2009: 74
                         14.00-14.82                                  from south Livermore to Arroyo
                                                                      del Valle. Based upon a
                                                                      recently completed engineering
                                                                      analysis, PG&E plans to convert
                                                                      this section from transmission
                                                                      pipeline to distribution feeder
                                                                      main.
2(b)             L107   Segment 127.5,             Alameda    2008   See description for Map No.       Physical Design &      Engineering     2008: 107
                        Mile Points                           2009    2(a).                                             Characteristics     2009: 89/90
                         14.82-15.12
2(c)             L107   Segment 127.57,            Alameda    2009   See description for Map No.         Physical Design      Engineering   2009: 89/90
                        Mile Points                                   2(a).                                            &Characteristics
                         15.13-15.36
2(d)             L107   Segment 127.6,             Alameda    2008   See description for Map No.       Physical Design &      Engineering     2008: 104
                        Mile Points                           2009    2(a).                                             Characteristics        2009: 91
                         15.36-15.36
2(e)             L107   Segment 127.7,             Alameda    2008   See description for Map No.       Physical Design &      Engineering     2008: 100
                        Mile Points                           2009    2(a).                                             Characteristics     2009: 79/80
                         15.36-15.70
3(a)             L107   Segment 129,               Alameda    2008   This section of Line 107 is       Physical Design &      Engineering     2008: 101
                        Mile Points            (Livermore)    2009    located across the open hills                     Characteristics     2009: 79/80
                         15.89-16.40                                  south of Livermore from Arroyo
                                                                      del Valle to the Vallecitos
                                                                      Valley. Based upon a recently
                                                                      completed engineering analysis,
                                                                      PG&E plans to convert this
                                                                      section from transmission
                                                                      pipeline to distribution feeder
                                                                      main..
3(b)             L107   Segment 131.5,             Alameda    2009   See description for Map No.           Potential for      Engineering      2009: 82
                        Mile Points                                   3(a).                              Ground Movement
                         17.11-18.00
3(c)             L107   Segment 132.2,             Alameda    2007   See description for Map No.           Potential for      Engineering      2007: 69
                        Mile Points                           2009    3(a).                              Ground Movement                       2009: 73
                         18.00-18.67
4(a)             L107   Segment 139,               Alameda    2007   This section of L107 is located       Potential for      Engineering      2007: 78
                        Mile Points                           2008    across the open hills through      Ground Movement                       2008: 93
                         21.07-22.29                          2009    the Vallecitos Valley to             Potential for                       2009: 77
                                                                      Calaveras Rd in Sunol. Based                      Corrosion (2007
                                                                      upon a recently completed                and 2008)
                                                                      engineering analysis, PG&E
                                                                      plans to convert this section
                                                                      from transmission pipeline to
                                                                      distribution feeder main.
                                                                     In addition, the external
                                                                      corrosion risk for segment 139
                                                                      was reduced based on inspection
                                                                      of its coating condition,
                                                                      causing this segment not to
                                                                      appear on the 2009 list for
                                                                      potential corrosion (though the
                                                                      segment remained on the list
                                                                      for ground movement).
4(b)             L107   Segment 140,               Alameda    2008   The external corrosion risk for       Potential for                 Compl2008: 109
                        Mile Point                                    segment 140 was reduced based                     Corrosion
                         22.29                                        on inspection of its coating
                                                                      condition, causing this segment
                                                                      not to appear on the 2009 list.
4(c)             L107   Segment 141,               Alameda    2008   See description for Map No.           Potential for                 Compl2008: 108
                        Mile Points                                   4(b).                                             Corrosion
                         22.29-22.301
4(d)             L107   Segment 141.8,             Alameda    2008   See description for Map No.           Potential for                 Compl2008: 103
                        Mile Points                                   4(b).                                             Corrosion
                         22.34-22.79
4(e)             L107   Segment 150,               Alameda    2007   The ground movement risk for          Potential for                 Comple2007: 81
                        Mile Points              (Fremont)    2008    this segment was reduced based     Ground Movement                       2008: 99
                         25.73-26.01                                  on PG&E's system-wide
                                                                      reassessment of U.S. Geological
                                                                      Survey data on the severity of
                                                                      erosion, including in the area
                                                                      in which this segment lies,
                                                                      causing this segment not to
                                                                      appear on the 2009 list.
4(f)             L107   Segment 151,               Alameda    2007   See description for Map No.           Potential for                 Comple2007: 61
                        Mile Points              (Fremont)    2008    4(e).                              Ground Movement                       2008: 77
                         26.01-26.509                                (Notwithstanding its removal
                                                                      from the list, PG&E plans to
                                                                      replace this segment in 2011 or
                                                                      2012 in order to accommodate
                                                                      the work described on L131
                                                                      below. See Map No. 14. Status:
                                                                      Engineering.)
5(a)             L108   Segment 111,           San Joaquin    2007   This segment consists of 2,897        Potential for                 Comple2007: 45
                        Mile Points                                   feet of pipe near Airport Way                     Corrosion
                         6.25 -6.82                                   and S Kasson Rd in Manteca. The
                                                                      external corrosion risk for
                                                                      this segment was reduced based
                                                                      on investigation of pipe
                                                                      strength and wall thickness,
                                                                      causing this segment not to
                                                                      appear on the 2008 and 2009
                                                                      lists.
5(b)             L108   Segment 122.1,         San Joaquin    2008   PG&E replaced this segment as     Physical Design &                 Comple2008: 81
                        Mile Points                                   part of a project that replaced                   Characteristics
                         11.74-12.14                                  2.5 miles of pipe from Woodward
                                                                      Rd to West Ripon Rd (MP 11.74
                                                                      to 14.15) due to the design
                                                                      materials used. Construction
                                                                      was completed in 2010.
5(c)             L108   Segment 122.3,         San Joaquin    2008   See description for Map No.       Physical Design &                 Comple2008: 82
                        Mile Points                                   5(b).                                             Characteristics
                         12.14-12.16
5(d)             L108   Segment 123,           San Joaquin    2007   See description for Map No.       Physical Design &                 Comple2007: 64
                        Mile Points                           2008    5(b).                                             Characteristics        2008: 78
                         12.16-12.47
5(e)             L108   Segment 123.7,         San Joaquin    2008   See description for Map No.       Physical Design &                 Comple2008: 67
                        Mile Points                                   5(b).                                             Characteristics
                         12.47-12.51
5(f)             L108   Segment 123.8,         San Joaquin    2008   See description for Map No.       Physical Design &                 Comple2008: 53
                        Mile Points                                   5(b).                                             Characteristics
                         12.51-12.59
5(g)             L108   Segment 124,           San Joaquin    2008   See description for Map No.       Physical Design &                 Comple2008: 54
                        Mile Points                                   5(b).                                             Characteristics
                         12.59-12.69
5(h)             L108   Segment 124.3,         San Joaquin    2008   See description for Map No.       Physical Design &                 Comple2008: 46
                        Mile Points                                   5(b).                                             Characteristics
                         12.69-12.70
5(I)             L108   Segment 124.6,         San Joaquin    2008   See description for Map No.         Physical Design                 Comple2008: 38
                        Mile Points                           2009    5(b).                                            &Characteristics     2009: 43/44
                         12.70-12.72
5(j)             L108   Segment 125,           San Joaquin    2008   See description for Map No.       Physical Design &                 Comple2008: 49
                        Mile Points                           2009    5(b).                                             Characteristics     2009: 43/44
                         12.72-12.76
5(k)             L108   Segment 125.05,        San Joaquin    2008   See description for Map No.       Physical Design &                 Comple2008: 68
                        Mile Points                                   5(b).                                             Characteristics
                         12.76-12.79
5(l)             L108   Segment 125.1,         San Joaquin    2008   See description for Map No.       Physical Design &                 Comple2008: 83
                        Mile Points                                   5(b).                                             Characteristics
                         12.79-13.19
5(m)             L108   Segment 125.3,         San Joaquin    2008   See description for Map No.       Physical Design &                 Comple2008: 84
                        Mile Points                                   5(b).                                             Characteristics
                         13.19-13.21
5(n)             L108   Segment 126,           San Joaquin    2008   See description for Map No.       Physical Design &                 Comple2008: 85
                        Mile Points                                   5(b).                                             Characteristics
                         13.21-13.71
5(o)             L108   Segment 126.3,         San Joaquin    2008   See description for Map No.       Physical Design &                 Comple2008: 86
                        Mile Points              (Manteca)            5(b).                                             Characteristics
                         13.71-13.73
5(p)             L108   Segment 127,           San Joaquin    2007   See description for Map No.       Physical Design &                 Comple2007: 65
                        Mile Points              (Manteca)    2008    5(b).                                             Characteristics        2008: 87
                         13.73-14.13
5(q)             L108   Segment 127.3,         San Joaquin    2008   See description for Map No.       Physical Design &                 Compl2008: 106
                        Mile Points              (Manteca)            5(b).                                             Characteristics
                         14.13--14.15
6(a)             L108   Segment 140.9,         San Joaquin    2008   PG&E plans to replace this            Potential for      Engineering      2008: 50
                        Mile Points                                   segment as part of a project to  Third Party Damage
                         37.04-37.14                                  enable an in-line inspection
                                                                      assessment to be performed.
                                                                      PG&E plans to commence
                                                                      construction in 2011.
6(b)             L108   Segment 144,           San Joaquin    2007   The external corrosion risk for       Potential for                 Comple2007: 50
                        Mile Points                                   segment 144 was reduced based                     Corrosion
                         38.00-38.17                                  on inspection of its coating
                                                                      condition, causing this segment
                                                                      not to appear on the 2008 and
                                                                      2009 lists.
6(c)             L108   Segment 145,           San Joaquin    2007   The external corrosion risk for       Potential for                 Comple2007: 51
                        Mile Points                           2008    segment 145 was reduced based                     Corrosion              2008: 47
                         38.17-39.00                                  on inspection of its coating
                                                                      condition, causing this segment
                                                                      not to appear on the 2009 list.
6(d)             L108   Segment 146.35,        San Joaquin    2007   Replace 8,000 feet of pipe        Physical Design &        Initiated      2007: 30
                        Mile Points                           2008    through the rural area near                       Characteristics        2008: 29
                         39.18-39.21                          2009    Armstrong Rd near Lodi due to       Overall (2009)                    2009: 2/3/4
                                                                      the design materials used.
6(e)             L108   Segment 146.6,         San Joaquin    2007   See description for Map No.       Physical Design &        Initiated      2007: 31
                        Mile Points                           2008    6(d).                                             Characteristics        2008: 30
                         39.21-39.23                          2009                                        Overall (2009)                    2009: 2/3/4
6(f)             L108   Segment 147,           San Joaquin    2007   See description for Map No.       Physical Design &        Initiated      2007: 32
                        Mile Points                           2008    6(d).                                             Characteristics        2008: 31
                         39.23-39.47                          2009                                        Overall (2009)                    2009: 2/3/4
6(g)             L108   Segment 147.05,        San Joaquin    2008   The external corrosion risk for       Potential for                 Comple2008: 33
                        Mile Points                                   segment 147.05 was reduced                        Corrosion
                         39.47-39.60                                  based on inspection of its
                         (33)                                         coating condition, causing this
                                                                      segment not to appear on the
                                                                      2009 list.
6(h)             L108   Segment 159,           San Joaquin    2007   Replace 12,900 feet of pipe near  Physical Design &        Initiated      2007: 76
                        Mile Points                                   W Peltier Rd, east of Lodi due                    Characteristics
                         44.9-45.93                                   to the design materials used.
7(a)             L108   Segment 179.5,          Sacramento    2008   Replace 8,000 feet of pipe from   Physical Design &      Engineering      2008: 34
                        Mile Points            (Elk Grove)    2009    Laguna Blvd to Dwight Road in                     Characteristics        2009: 15
                         62.57-63.29                                  Elk Grove due to the design
                                                                      materials used. Construction is
                                                                      currently planned to commence
                                                                      in 2011.
7(b)             L108   Segment 179.7,          Sacramento    2007   See description for Map No.       Physical Design &      Engineering      2007: 60
                        Mile Points            (Elk Grove)            7(a).                                             Characteristics
                         63.29-63.50
8(a)             L109   Segment 137,                Santa Clar2007   PG&E has adjusted the cathodic        Potential for                 Comple2007: 57
                        Mile Points            (Palo Alto/    2009    protection system to better                       Corrosion              2009: 56
                         15.00-15.38             Stanford)            protect these pipeline segments
                                                                      from corrosion. More recent
                                                                      analysis has shown marked
                                                                      improvement. No further action
                                                                      relative to the potential for
                                                                      external corrosion is
                                                                      contemplated at this time.
8(b)             L109   Segment 137.19,             Santa Clar2009   See description for Map No.           Potential for                 Comple2007: 59
                        Mile Points            (Palo Alto/            8(a).                                             Corrosion           2009: 60/61/
                         15.38-15.65             Stanford)                                                                                           62
8(c)             L109   Segment 137.2,              Santa Clar2007   See description for Map No.           Potential for                 Comple2007: 56
                        Mile Points            (Palo Alto/            8(a).                                             Corrosion
                         16.80-16.93             Stanford)
8(d)             L109   Segment 137.32,             Santa Clar2007   See description for Map No.           Potential for                 Com2009: 60/61/
                        Mile Points            (Palo Alto/    2009    8(a).                                             Corrosion                    62
                         15.65-16.01             Stanford)
8(e)             L109   Segment                     Santa Clar2007   See description for Map No.           Potential for                 Comple2007: 58
                         137.8,\1\             (Palo Alto/    2009    8(a).                                             Corrosion           2009: 60/61/
                        Mile Points              Stanford)                                                                                           62
                         16.19-16.33
8(f)             L109   Segment 148,             San Mateo    2008   See description for Map No.           Potential for                 Comple2008: 79
                        Mile Points             (Woodside)            8(a).                                             Corrosion
                         19.71-19.72
9(a)             L114   Segment 106,     Solano/Sacramento    2009   PG&E has conducted an                 Potential for      Engineering   2009: 84/85
                        Mile Points                                   engineering review of the          Ground Movement
                         3.18-3.80                                    potential for ground movement
                                                                      along this segment, crossing
                                                                      the Sacramento River and
                                                                      adjacent levees from Sherman
                                                                      Island north. This project
                                                                      includes L114-2, segment 101,
                                                                      discussed at Map No. 24(b).
                                                                      Based on this review, PG&E is
                                                                      planning to replace this
                                                                      crossing in 2013.
9(b)             L114   Segment 120,           Sacramento/Cont2009   PG&E has evaluated the potential      Potential for      Engineering   2009: 88/87
                        Mile Points                       Costa       of rerouting gas to allow the      Ground Movement
                         7.32-7.69                                    removal of 7,500 feet of three
                                                                      pipeline segments (L-114,
                                                                      segment 120; L114-1, segment
                                                                      103, discussed at Map No.
                                                                      24(a); and SP4Z, segment 112,
                                                                      discussed at Map No. 24(c))
                                                                      crossing the San Joaquin River,
                                                                      underwater, near the Antioch
                                                                      Bridge due to the potential for
                                                                      ground movement. Based upon
                                                                      this evaluation, PG&E plans to
                                                                      remove these pipeline segments
                                                                      from service in 2011.
10               L114   Segment 153.2,             Alameda    2009   Evaluate the potential                Potential for        Initiated      2009: 69
                        Mile Points                                   replacement of 7,000 feet of       Ground Movement
                         28.00-28.87                                  pipe between Vasco Rd and
                                                                      Dalton Crossover, located on
                                                                      steep slopes from the North
                                                                      Livermore Valley to Vasco Rd
                                                                      due to the potential for ground
                                                                      movement.
11               L130   Segment 101,     Solano/Sacramento    2009   PG&E has completed an                 Potential for      Engineering      2009: 34
                        Mile Points                                   engineering analysis of 4,000      Ground Movement
                         0.00-0.50                                    feet of pipe crossing the
                                                                      Sacramento River near the Rio
                                                                      Vista Bridge due to the
                                                                      potential for ground movement.
                                                                      This section of pipeline is
                                                                      located underwater. In
                                                                      conjunction with the Army Corp.
                                                                      of Engineer's dredging project
                                                                      planned for 2013, PG&E, plans
                                                                      to replace this crossing in
                                                                      2013.
12(a)            L131   Segment 134.2,             Alameda    2007   PG&E has evaluated the            Physical Design &        Initiated      2007: 79
                        Mile Points                                   replacement of this section of                    Characteristics
                         27.02-27.05                                  L131, which is located over the
                                                                      steep hills north of Livermore,
                                                                      and plans to replace this
                                                                      segment.
                                                                     In addition, as part of PG&E's
                                                                      transmission integrity
                                                                      management program, an in-line
                                                                      inspection assessment is
                                                                      planned for 2011.
12(b)            L131   Segment 151,               Alameda    2009   PG&E has evaluated the                Potential for        Initiated      2009: 70
                        Mile Points           (Pleasanton)            replacement of 4,990 feet of       Ground Movement
                         37.89-38.49                                  pipeline between Ruby Hills to
                                                                      Foleys Crossover in Pleasanton
                                                                      and Sunol due to the potential
                                                                      for ground movement, and plans
                                                                      to replace this segment. This
                                                                      pipeline is located on the
                                                                      steep slopes over the Pigeon
                                                                      Pass near Hwy 84 south of
                                                                      Livermore.
                                                                     In addition, as part of PG&E's
                                                                      transmission integrity
                                                                      management program, an in-line
                                                                      inspection is planned for 2011.
13               L131   Segment 157.2,             Alameda    2007   Replace 1,350 feet of pipe at         Potential for                 Comple2007: 53
                        Mile Points                (Sunol)    2008    Calaveras Rd, Sunol due to the     Ground Movement                       2008: 60
                         42.16-42.35                          2009    potential for ground movement.                                           2009: 59
                                                                      This segment of L131 is located
                                                                      on a steep hillside in the
                                                                      Sunol Valley immediately
                                                                      northeast of the Calaveras
                                                                      Fault and Road, just southeast
                                                                      of I-680. Construction was
                                                                      completed in October 2010.
14(a)            L131   Segment 164,     Alameda (Fremont)    2007   The ground movement risk for          Potential for                 Comple2007: 84
                        Mile Points                           2008    segment 164 was reduced based      Ground Movement                      2008: 105
                         46.34-46.84                                  on PG&E's system-wide
                                                                      reassessment of U.S. Geological
                                                                      Survey data on the severity of
                                                                      erosion, including in the area
                                                                      in which this segment lies,
                                                                      causing this segment not to
                                                                      appear on the 2009 list.
                                                                     (Notwithstanding its removal
                                                                      from the list, this segment is
                                                                      part of the project to remove
                                                                      22,363 feet of pipe between the
                                                                      Vargas Rd and Irvington Station
                                                                      from transmission service
                                                                      discussed at Map No. 14(b).,
                                                                      Status: Engineering)
14(b)            L131   Segment 165,     Alameda (Fremont)    2007   PG&E plans to remove 22,363 feet      Potential for      Engineering      2007: 42
                        Mile Points                           2008    of pipe between the Vargas Rd      Ground Movement                       2008: 45
                         46.96-48.23                          2009    and Irvington Station from                                               2009: 31
                                                                      transmission service, either by
                                                                      converting the pipe to a
                                                                      distribution main or into an
                                                                      outer, unpressurized casing in
                                                                      which a new pipeline would be
                                                                      inserted. This section of L131
                                                                      is located over the steep
                                                                      slopes from the Vargas Rd to
                                                                      Mission Blvd and through a 10-
                                                                      15 foot easement through
                                                                      central Fremont to I-880.
                                                                      Construction to permanently
                                                                      remove this from transmission
                                                                      service currently is planned
                                                                      for 2012.
                                                                     In addition, as part of PG&E's
                                                                      transmission integrity
                                                                      management program, an in-line
                                                                      inspection assessment is
                                                                      planned for 2011.
14(c)            L131   Segment 167.9,   Alameda (Fremont)    2007   See description for Map No.           Potential for      Engineering      2007: 33
                        Mile Points                           2008    14(b).                             Ground Movement                       2008: 21
                         48.94-49.36                          2009                                               Overall                       2009: 12
14(d)            L131   Segment 169,     Alameda (Fremont)    2007   See description for Map No.           Potential for      Engineering      2007: 37
                        Mile Points                           2008    14(b).                             Ground Movement                       2008: 44
                         49.38-50.46                          2009                                                                             2009: 22
15               L131   Segment 115,            Sacramento    2009   PG&E plans to complete an             Potential for        Initiated      2009: 75
                        Mile Points                                   engineering review of 2,066        Ground Movement
                         7.39-7.75                                    feet of pipe located in the
                                                                      rural area near Sherman Island
                                                                      Levee Rd and the Antioch Bridge
                                                                      on Sherman Island in 2011.
                                                                      Based on this review, PG&E will
                                                                      determine whether any repair,
                                                                      replacement or other action is
                                                                      warranted.
16(a)            L132   Segment 106,                Santa Clar2007   The ground movement risk for          Potential for                 Comple2007: 24
                        Mile Points             (San Jose)            segment 106 was reduced based      Ground Movement
                         1.27-1.34                                    on PG&E's system-wide                      Overall
                                                                      reassessment of U.S. Geological
                                                                      Survey data, including on the
                                                                      ground movement risk associated
                                                                      with this segment, causing this
                                                                      segment not to appear on the
                                                                      2008 and 2009 lists.
                                                                     (Notwithstanding its removal
                                                                      from the list, PG&E currently
                                                                      plans to replace this segment
                                                                      as part of a project to replace
                                                                      pipe due to the potential for
                                                                      ground movement. PG&E plans to
                                                                      commence construction in 2012.
                                                                      Status: Engineering.)
16(b)            L132   Segment 106.7,              Santa Clar2007an PG&E plans to replace this            Potential for      Engineering      2007: 34
                        Mile Points                  Jose)    2009    segment as part of a project to    Ground Movement                       2009: 26
                         1.35-1.87                                    replace pipe due to the
                                                                      potential for ground movement.
                                                                      PG&E plans to commence
                                                                      construction in 2012.
16(c)            L132   Segment 112.7,              Santa Clar2007   This segment is part of a                   Overall      Engineering      2007: 19
                        Mile Points                (Santa Clar2008    project to replace pipe and                                              2008: 11
                         3.05-3.067                                   install other facilities in
                                                                      order to internally inspect
                                                                      L132 through the urban areas
                                                                      between Milpitas and Crystal
                                                                      Springs reservoir. PG&E plans
                                                                      to commence construction in
                                                                      2012 and to complete the in-
                                                                      line inspection assessments in
                                                                      2013.
16(d)            L132   Segment 113,                Santa Clar2007   See description for Map No.                 Overall      Engineering      2007: 16
                        Mile Points                (Santa Clar2008    16(c).                                                                    2008: 6
                         3.067-3.3
16(e)            L132   Segment 189,             San Mateo    2007   The replacement of this segment             Overall      Engineering      2007: 21
                        Mile Points             (South San            in South San Francisco had been
                         42.13-43.55            Francisco)            planned for 2009. However,
                                                                      analysis by PG&E's pipeline
                                                                      engineers in early 2008 showed
                                                                      that the segment did not need
                                                                      replacement at that time. This
                                                                      updated analysis was
                                                                      subsequently confirmed by a
                                                                      March 2009 direct assessment of
                                                                      this segment. PG&E currently
                                                                      plans to replace this segment
                                                                      in 2012.
17(a)            L138   Segment 116,                Fresno    2007   PG&E has completed an                 Potential for       Monitoring      2007: 36
                        Mile Points            (Riverdale)    2008    engineering review of 6,061                       Corrosion              2008: 23
                         22.70-23.40                          2009    feet of pipe between Elkhorn                                             2009: 49
                                                                      Ave and Hwy 99 near Caruthers
                                                                      and Fresno for susceptibility
                                                                      to external corrosion. Based on
                                                                      cathodic protection survey
                                                                      results, the cathodic
                                                                      protection was determined to be
                                                                      satisfactory. Due to the
                                                                      presence of an outer pipe
                                                                      casing, which is required for
                                                                      railroad crossings but also
                                                                      increases the potential for
                                                                      corrosion, PG&E will continue
                                                                      to monitor these segments to
                                                                      determine whether future action
                                                                      is warranted.
17(b)            L138   Segment 129,                Fresno    2007   PG&E reassessed this segment          Potential for                 Comple2007: 46
                        Mile Points               (Easton)            from 2007 to 2008 due to the                      Corrosion
                         38.08-38.42                                  relocation of a nearby highway
                                                                      to a greater distance from
                                                                      segment 129, lowering the risk
                                                                      associated for this segment.
                                                                      This segment does not appear on
                                                                      the 2008 and 2009 lists.
17(c)            L138   Segment 130,\2\             Fresno    2007   PG&E plans to replace this        Physical Design &        Initiated      2007: 28
                        Mile Points                           2008    segment due to the design                         Characteristics        2008: 35
                         38.42-38.58                          2009    materials used. Construction is                                          2009: 16
                                                                      planned to commence in 2012.
17(d)            L138   Segment                     Fresno    2007   See description for Map No.       Physical Design &        Initiated      2007: 28
                         130.11,\3\                           2008    17(c).                                            Characteristics        2008: 41
                        Mile Points                           2009                                                                             2009: 20
                         38.59-38.59
17(e)            L138   Segment 145,                Fresno    2009   The third-party damage risk           Potential for                 Comple2009: 18
                        Mile Points               (Fresno)            assessment for this segment      Third Party Damage
                         48.29-48.64                                  increased in 2009 due to
                                                                      previous damage on a pipeline
                                                                      near this location. A
                                                                      subsequent engineering
                                                                      investigation concluded that
                                                                      this segment is not exposed to
                                                                      any elevated third party damage
                                                                      risk, that surface marking of
                                                                      the segment is adequate and
                                                                      therefore that no further
                                                                      action is warranted.
18               L147   Segment 110.6,           San Mateo    2009   PG&E has completed an             Physical Design &                 Comple2009: 46
                        Mile Points                  (San Carlos)     engineering review of the                         Characteristics
                         3.26-3.28                                    design materials of 105 feet of
                                                                      pipe near Brittan Ave and El
                                                                      Camino Real in San Carlos.
                                                                      Based upon the results of this
                                                                      review, PG&E has determined
                                                                      that no repair, replacement or
                                                                      other action is warranted.
19(a)            L173   Segment 102.1,              Placer    2007   An engineering review of this         Potential for                 Comple2007: 41
                        Mile Points            (Roseville)    2008    pipeline segment near Hwy 65     Third Party Damage                      2008: 39
                         1.01-1.11                            2009    and Washington Blvd in                                                   2009: 38
                                                                      Roseville has been conducted to
                                                                      assess risk for potential third-
                                                                      party damage. One third-party
                                                                      dig-in occurred nearby. Most of
                                                                      the area has been fully
                                                                      developed and the Blue Oaks
                                                                      overpass has been completed.
                                                                      The risk of third- party damage
                                                                      has been reduced and no further
                                                                      action is warranted.
19(b)            L173   Segment 102.6,              Placer    2008   See description for Map No.           Potential for                 Comple2008: 42
                        Mile Points              (Rocklin/    2009    19(a).                           Third Party Damage                      2009: 29
                         1.45-1.50              Roseville)
20(a)            L187   Segment 154.2,            Monterey    2007   This segment is located in a          Potential for                 Comple2007: 54
                        Mile Points                                   rural area near Hwy 101, south   Third Party Damage
                         58.47-58.48                                  of Salinas. It was assessed as
                                                                      having a potential for third-
                                                                      party damage. However, this
                                                                      assessment was revised in 2008
                                                                      after PG&E conducted an
                                                                      additional public information
                                                                      program in the area and
                                                                      concluded that the risk of
                                                                      future third party damage was
                                                                      no longer as high, causing the
                                                                      segment not to appear on the
                                                                      2008 or 2009 lists.
20(b)            L187   Segment 160,              Monterey    2009   PG&E has completed an                 Potential for                 Comple2009: 39
                        Mile Points                                   engineering review of 1,320      Third Party Damage
                         61.75-62.00                                  feet of pipe through the rural
                                                                      area near Hwy 101 across from
                                                                      Hartnell Rd near Salinas for
                                                                      the potential for damage by
                                                                      third parties. Based on this
                                                                      review, PG&E has performed
                                                                      notifications and installed
                                                                      additional line markers. No
                                                                      further action is warranted.
21(a)            L215   Segment 104,            Stanislaus    2008   PG&E conducted an engineering         Potential for                 Comple2008: 75
                        Mile Points                           2009    review of 3,310 feet of pipe                      Corrosion              2009: 65
                         3.00-3.43                                    between Hwy 33 in Patterson and
                                                                      Hwy 99 in Turlock based on
                                                                      corrosion monitoring data from
                                                                      segments 122.3 and 123. Three
                                                                      areas around the pipe were dug
                                                                      up to permit physical
                                                                      examinations of the pipe. Based
                                                                      on this review, no further
                                                                      action is warranted at this
                                                                      time.
21(b)            L215   Segment 122.3,          Stanislaus    2008   See description for Map No.           Potential for                 Comple2008: 69
                        Mile Points              (Turlock)    2009    21(a).                                            Corrosion           2009: 63/64
                         19.46-19.48
21(c)            L215   Segment 123,            Stanislaus    2008   See description for Map No.           Potential for                 Comple2008: 66
                        Mile Points              (Turlock)    2009    21(a).                                            Corrosion           2009: 63/64
                         19.56-19.74
22(a)         0401-01   Segment 104,                 Marin    2007   PG&E has completed an                       Overall                 Complet2007: 8
                        Mile Points           (San Rafael)    2009    engineering review of 1,887                                              2009: 99
                         2.40-2.48                                    feet of pipe through the
                                                                      suburban area along Lindaro St
                                                                      near Albert Park Ln in San
                                                                      Rafael. Based upon the results
                                                                      of this review, PG&E has
                                                                      determined that no repair,
                                                                      replacement or other action is
                                                                      warranted.
22(b)         0401-01   Segment 104.8,               Marin    2008   See description for Map No.                 Overall                 Complet2008: 4
                        Mile Points           (San Rafael)    2009    22(a).                                                                   2009: 14
                         2.48-2.76
23            0407-01   Segment 104.8,                Napa    2009   PG&E replaced 247 feet of pipe    Physical Design &                 Comple2009: 45
                        Mile Points                 (Napa)            near Foster Rd and Saint                          Characteristics
                         1.83-1.88                                    Francis Cir in Napa in 2009.
24(a)          L114-1   Segment 103,     Solano/Sacramento    2009   PG&E has evaluated the potential      Potential for      Engineering   2009: 87/88
                        Mile Points                                   of rerouting gas to allow the      Ground Movement
                         7.33-7.73                                    removal of 7,500 feet of three
                                                                      pipeline segments (L114-1,
                                                                      segment 103; L-114, segment
                                                                      120, discussed at Map No. 9(b);
                                                                      and SP4Z, segment 112,
                                                                      discussed at Map No. 24(c))
                                                                      crossing the San Joaquin River,
                                                                      underwater, near the Antioch
                                                                      Bridge due to the potential for
                                                                      ground movement. Based upon
                                                                      this evaluation, PG&E plans to
                                                                      remove these pipeline segments
                                                                      from service in 2011.
24(b)          L114-2   Segment 101,     Solano/Sacramento    2009   PG&E has completed an                 Potential for      Engineering   2009: 84/85
                        Mile Points                                   engineering review of the          Ground Movement
                         3.18-3.80                                    potential for ground movement
                                                                      along this segment, crossing
                                                                      the Sacramento River and
                                                                      adjacent levees from Sherman
                                                                      Island north. This project
                                                                      includes L114, segment 106,
                                                                      discussed at Map No. 9(a).
                                                                      Based on this review, PG&E
                                                                      plans to replace this crossing
                                                                      in 2013.
24(c)            SP4Z   Segment 112,     Solano/Sacramento    2009   See description for Map No.           Potential for      Engineering      2009: 83
                        Mile Points                                   24(a).                             Ground Movement
                         7.45-7.82
25(a)           L118A   Segment 166.1,              Madera    2008   The third-party damage risk for       Potential for                 Comple2008: 96
                        Mile Points                                   segment 166.1 was revised in     Third Party Damage
                         30.38-30.38                                  2009 after PG&E conducted an
                                                                      additional public information
                                                                      program in the area, causing
                                                                      the segment not to appear on
                                                                      the 2009 list. In addition,
                                                                      PG&E has confirmed that surface
                                                                      marking of the location is in
                                                                      place. Therefore, the risk of
                                                                      third- party damage has been
                                                                      reduced and no further action
                                                                      is warranted at this time.
25(b)           L118A   Segment 166.13,             Madera    2007   An engineering review of this         Potential for                 Comple2007: 75
                        Mile Points                           2008    pipe segment near Avenue 18 \1/  Third Party Damage                      2008: 97
                         30.38-30.40                          2009    2\ near Madera has been                                                  2009: 76
                                                                      conducted to assess risk for
                                                                      potential third party damage.
                                                                      One third party dig-in occurred
                                                                      nearby. However, farming
                                                                      operations over the pipeline
                                                                      have since changed, and the
                                                                      pipeline now lies beneath a
                                                                      farm road. In addition, PG&E
                                                                      has confirmed that surface
                                                                      marking of the location is in
                                                                      place, and conducted an
                                                                      additional public information
                                                                      program in the area. Therefore,
                                                                      the risk of third-party damage
                                                                      has been reduced and no further
                                                                      action is warranted at this
                                                                      time.
25(c)           L118A   Segment 166.17,             Madera    2007   See description for Map No.           Potential for                 Comple2007: 55
                        Mile Points                           2008    25(b).                           Third Party Damage                      2008: 63
                         30.40-31.06                          2009                                                                             2009: 55
26              L119B   Segment 101,            Sacramento    2009   PG&E has completed an             Physical Design &                 Comple2009: 54
                        Mile Points           (Sacramento)            engineering review of the                         Characteristics
                         0.00-0.01                                    design materials of 1,437 feet
                                                                      of pipe near Lampasas Ave and
                                                                      Grove Ave in Sacramento. Based
                                                                      upon the results of this
                                                                      review, PG&E has determined
                                                                      that no repair, replacement or
                                                                      other action is warranted.
27(a)         1202-16   Segment 100,                Fresno    2008   The third-party risk on this          Potential for                 Comple2008: 22
                        Mile Points               (Fresno/Clov2009    line is elevated due in part to  Third Party Damage                      2009: 19
                         0.00-0.08                                    a third-party dig-in in the
                                                                      local area, which elevates the
                                                                      risk of nearby segments under
                                                                      PG&E's integrity management
                                                                      program. A subsequent
                                                                      engineering investigation
                                                                      concluded that this segment is
                                                                      not exposed to any elevated
                                                                      third-party damage risk, that
                                                                      the segment lies beneath
                                                                      pavement or developed surfaces,
                                                                      and therefore that no further
                                                                      action is warranted.
27(b)         1202-16   Segment 101,                Fresno    2007   See description for Map No.           Potential for                 Comple2007: 38
                        Mile Points               (Fresno/Clov2008    27(a).                           Third Party Damage                      2008: 24
                         0.08-0.19                            2009                                                                          2009: 23/24/
                                                                                                                                                     25
27(c)         1202-16   Segment 101.1,              Fresno    2008   See description for Map No.           Potential for                 Comple2008: 25
                        Mile Points               (Fresno/Clov2009    27(a).                           Third Party Damage                   2009: 23/24/
                         0.19-0.27                                                                                                                   25
27(d)         1202-16   Segment 101.2,              Fresno    2009   All segments (10,331 feet) of         Potential for       Monitoring      2009: 27
                        Mile Points               (Fresno/Clovis)     pipe along N Clovis Ave between                   Corrosion
                         0.27-0.49                                    E Shields Ave and E Ashlan Ave
                                                                      in Fresno and Clovis have been
                                                                      evaluated. Seven excavations
                                                                      were performed to examine the
                                                                      pipe for potential corrosion.
                                                                      Four of the sites examined
                                                                      showed no corrosion, and the
                                                                      remaining three showed a
                                                                      minimal amount of corrosion.
                                                                      Additional investigation in
                                                                      2010 indicated that while this
                                                                      segment is not exposed to any
                                                                      elevated external corrosion
                                                                      risk, minor adjustments to the
                                                                      cathodic protection levels may
                                                                      be appropriate. PG&E will
                                                                      continue to monitor cathodic
                                                                      protection levels in 2011 and
                                                                      make adjustments when
                                                                      necessary.
27(e)         1202-16   Segment 102,                Fresno    2008   See description for Map No.           Potential for                 Comple2008: 26
                        Mile Points               (Fresno/Clov2009    27(a).                           Third Party Damage                   2009: 23/24/
                         0.49-1.03                                                                                                                   25
27(f)         1202-16   Segment 103,                Fresno    2007   See description for Map No.           Potential for       Monitoring      2007: 28
                        Mile Points               (Fresno/Clov2008    27(d).                                            Corrosion Overall      2008: 17
                         1.03-1.05                            2009                                                                             2009: 13
27(g)         1202-16   Segment 103.1,              Fresno    2007   See description for Map No.           Potential for       Monitoring      2007: 44
                        Mile Points               (Fresno/Clov2009    27(d).                                            Corrosion              2009: 35
                         1.05-1.11
27(h)         1202-16   Segment 103.3,              Fresno    2007   See description for Map No.           Potential for       Monitoring      2007: 39
                        Mile Points               (Fresno/Clov2009    27(d).                                            Corrosion              2009: 33
                         1.11-1.20
27(I)         1202-16   Segment 115,                Fresno    2007   See description for Map No.           Potential for       Monitoring      2007: 23
                        Mile Points               (Fresno/Clov2008    27(d).                                            Corrosion Overall      2008: 15
                         1.67-2.42                            2009                                                                             2009: 21
27(j)         1202-16   Segment 117,                Fresno    2007   See description for Map No.                 Overall       Monitoring      2007: 20
                        Mile Points               (Fresno/Clov2008    27(d).                                                                   2008: 14
                         2.58-2.59                            2009                                                                             2009: 97
28              L142S   Segment 114,                  Kern    2009   PG&E conducted an in-line             Potential for       Monitoring      2009: 28
                        Mile Points          (Bakersfield)            inspection of 7,425 feet of                       Corrosion
                         7.30-8.70                                    pipe along S Union Ave between
                                                                      Watts Dr and 3rd St in
                                                                      Bakersfield due to the
                                                                      potential for external
                                                                      corrosion, and made all
                                                                      necessary repairs. As part of
                                                                      its monitoring effort, PG&E
                                                                      will conduct another in-line
                                                                      inspection of this line in
                                                                      September 2011.
29            1509-04   Segment 106,                Sutter    2009   PG&E has conducted an                 Potential for                 Comple2009: 47
                        Mile Points                 (Yuba City)       engineering review of 531 feet   Third Party Damage
                         0.78-0.88                                    of pipe through the suburban
                                                                      area near N Walton Ave and
                                                                      Bridge St in Yuba City for the
                                                                      potential for damage by third
                                                                      parties. Two third-party dig-
                                                                      ins occurred nearby. However,
                                                                      development around the pipeline
                                                                      has since been completed; the
                                                                      pipeline is now under a roadway
                                                                      and a landscape easement.
                                                                      Therefore, the risk of third-
                                                                      party damage has been reduced.
30(a)         1509-05   Segment 120.1,              Sutter    2007   PG&E has conducted an                 Potential for                 Comple2007: 49
                        Mile Points                 (Yuba City2008    engineering review of 1,371      Third Party Damage                      2008: 61
                         6.23-6.28                            2009    feet of pipe through the                                              2009: 36/37
                                                                      suburban area near N Walton Ave
                                                                      and Bridge St in Yuba City for
                                                                      the potential for damage by
                                                                      third parties. Two third-party
                                                                      dig-ins occurred nearby.
                                                                      However, development around the
                                                                      pipeline has since been
                                                                      completed; the pipeline is now
                                                                      under a roadway and a landscape
                                                                      easement. Therefore, the risk
                                                                      of third-party damage has been
                                                                      reduced.
30(b)         1509-05   Segment 120.2,              Sutter    2007   See description for Map No.           Potential for                 Comple2007: 52
                        Mile Points                 (Yuba City2008    30(a).                           Third Party Damage                      2008: 65
                         6.28-6.29                            2009                                                                             2009: 48
30(c)         1509-05   Segment 120.3,              Sutter    2007   See description for Map No.           Potential for                 Comple2007: 40
                        Mile Points                 (Yuba City2008    30(a).                           Third Party Damage                      2008: 62
                         6.29-6.33                            2009                                                                          2009: 36/37
30(d)         1509-05   Segment 121,                Sutter    2007   See description for Map No.           Potential for                 Comple2007: 43
                        Mile Points                 (Yuba City2009    30(a).                           Third Party Damage                      2009: 40
                         6.33-6.49
31            1815-15   Segment 130.3,            Monterey    2007   PG&E plans to complete an                   Overall        Initiated       2007: 5
                        Mile Points                           2008    engineering review of 437 feet                                            2008: 9
                         2.04-2.13                            2009    of pipe through the suburban                                              2009: 5
                                                                      area near Hwy 68 and Aguajito
                                                                      Rd near Monterey by June 2011.
                                                                      Based on this review, PG&E will
                                                                      determine whether any repair,
                                                                      replacement or action is
                                                                      warranted.
                                                                     In addition, as part of PG&E's
                                                                      transmission integrity
                                                                      management program, an external
                                                                      corrosion direct assessment is
                                                                      planned for 2011.
32(a)       L195A 3-1   Segment 100,            Sacramento    2009   In 2010 PG&E isolated this            Potential for                 Com2009: 57/58
                        Mile Points              (Isleton)            segment (i.e., capped the pipe   Third Party Damage
                         0.00-0.00                                    at both ends to prevent gas
                                                                      supply from reaching this
                                                                      segment) to mitigate the risk
                                                                      of damage by third-parties. No
                                                                      further action is warranted.
32(b)       L195A 3-1   Segment 102,            Sacramento    2009   See description for Map 32(a).        Potential for                 Com2009: 57/58
                        Mile Points              (Isleton)                                             Third Party Damage
                         0.00-0.04
32(c)       L195A 3-1   Segment 102.1,          Sacramento    2009   See description for Map 32(a).        Potential for                 Comple2009: 42
                        Mile Points              (Isleton)                                             Third Party Damage
                         0.04-0.17
33(a)           L210A   Segment 116,                Solano    2008   The third-party damage risk           Potential for                 Comple2008: 37
                        Mile Points            (Fairfield)            assessment for this segment      Third Party Damage
                         14.15-16.00                                  increased in 2008 due to
                                                                      previous damage on a pipeline
                                                                      near this location. A
                                                                      subsequent engineering
                                                                      investigation concluded that
                                                                      this segment is not exposed to
                                                                      any elevated third party damage
                                                                      risk, that surface marking of
                                                                      the segment is adequate and
                                                                      therefore that no further
                                                                      action is warranted.
                                                                     (Notwithstanding its removal
                                                                      from the list, PG&E plans to
                                                                      perform an internal line
                                                                      inspection on this segment in
                                                                      2011. See Map No. 33b. Status:
                                                                      Initiated.)
33(b)           L210A   Segment 117.5,              Solano    2008   Construction has been completed   Overall Potential                 Comple2008: 20
                        Mile Points            (Fairfield)    2009    to install equipment and modify         for Ground                (Constru2009: 1
                         18.73-18.86                                  the pipeline to allow an in-              Movement   Initiated (In-
                                                                      line inspection to be                                   Line Insp.)
                                                                      conducted. An in-line
                                                                      inspection assessment is
                                                                      scheduled for 2011.
33(c)           L210A   Segment 117.6,              Solano    2007   See description for Map No.           Potential for                 Comple2007: 47
                        Mile Points            (Fairfield)    2008    33(a).                           Third Party Damage                      2008: 51
                         18.86-18.96
33(d)           L210A   Segment 118.1,              Solano    2007   See description for Map No.                 Overall                 Complet2007: 4
                        Mile Points            (Fairfield)    2008    33(b).                                                            (Constru2008: 1
                         18.97-19.47                          2009                                                         Initiated (In-      2009: 10
                                                                                                                              Line Insp.)
34(a)           L300A   Segment 240.3,                Kern    2008   PG&E has conducted an                 Potential for                 Comple2008: 36
                        Mile Points          (Bakersfield)    2009    engineering review of this       Third Party Damage                      2009: 30
                         277.85-278.01                                pipeline segment located in the
                                                                      suburban area between Buena
                                                                      Vista Rd and Pacheco Rd in
                                                                      Bakersfield for the potential
                                                                      for damage by third parties.
                                                                      This segment was relocated due
                                                                      to the widening of the road and
                                                                      no further action is warranted.
34(b)           L300A   Segment 240.61,               Kern    2009   See description for Map No.           Potential for                 Comple2009: 32
                        Mile Points          (Bakersfield)            34(a).                           Third Party Damage
                         278.01-278.10
35(a)           L300B   Segment 193,        San Bernardino    2009   PG&E has completed an               Physical Design                 Com2009: 67/68
                        Mile Points                                   engineering review of the                        &Characteristics
                         161.02-161.07                                design materials of 843 feet of
                                                                      pipe through the rural area.
                                                                      Based on this review, PG&E
                                                                      determined that no repair,
                                                                      replacement or other action was
                                                                      warranted.
                                                                     In addition, as part of PG&E's
                                                                      transmission integrity
                                                                      management program, an external
                                                                      corrosion direct assessment is
                                                                      planned for 2011.
35(b)           L300B   Segment 194,        San Bernardino    2009   See description for Map No.       Physical Design &                 Com2009: 67/68
                        Mile Points                                   35(a)                                             Characteristics
                         161.43-161.48
36(a)           L316A   Segment 111,                      Cont2009ostPG&E has completed an                 Potential for                 Comple2009: 92
                        Mile Points                                   engineering review of 7,777                       Corrosion
                         0.61-0.78                                    feet of pipe between Jersey
                                                                      Island Rd on Jersey Island and
                                                                      Taylor Rd on Bethel Island.
                                                                      Based on cathodic protection
                                                                      survey results, the cathodic
                                                                      protection was determined to be
                                                                      adequate. No further assessment
                                                                      or work is planned at this
                                                                      time.
36(b)           L316A   Segment 112,                      Cont2009ostSee description for Map No.           Potential for                 Comple2009: 94
                        Mile Points                                   36(a).                                            Corrosion
                         0.79-1.000
36(c)           L316A   Segment 113,                      Cont2009ostSee description for Map No.           Potential for                 Comple2009: 86
                        Mile Points                                   36(a).                                            Corrosion
                         1.00-1.09
36(d)           L316A   Segment 115,                      Cont2009ostSee description for Map No.           Potential for                 Comple2009: 81
                        Mile Points            (Bethel Is)            36(a).                                            Corrosion
                         1.19 -1.23
36(e)           L316A   Segment 116,                      Cont2009ostSee description for Map No.           Potential for                 Comple2009: 78
                        Mile Points            (Bethel Is)            36(a).                                            Corrosion
                         1.23 -2.05
36(f)           L316A   Segment 117,                      Cont2009ostSee description for Map No.           Potential for                 Comple2009: 93
                        Mile Points            (Bethel Is)            36(a).                                            Corrosion
                         2.05 -2.31
37                  DCUSSegment 100,              Humboldt    2007   PG&E has conducted an                 Potential for                 Comple2007: 14
                        Mile Points             (Ferndale)    2008    engineering review of 28 feet      Ground Movement                        2008: 2
                         0.00 -0.01                           2009    of pipe through the rural area             Overall                        2009: 6
                                                                      near Fernbridge Dr and Depot St
                                                                      near Ferndale. Based upon the
                                                                      results of this review, PG&E
                                                                      has determined that no repair,
                                                                      replacement or other action is
                                                                      warranted.
38          DFDS 3543   Segment 100,                 Marin    2007   PG&E has completed an                       Overall                 Complet2007:18
                        Mile Points               (Novato)    2009    engineering review of 3 feet of                                          2009: 11
                         10.91-10.91                                  pipe near Redwood Blvd and
                                                                      Atherton Ave in Novato. Based
                                                                      the results of this review,
                                                                      PG&E has determined that no
                                                                      repair, replacement or other
                                                                      action is warranted.
39(a)       DRIP 7966   Mile Points                 Santa Clar2007   PG&E has completed an                 Potential for                 Complet2009: 7
                         0.00-0.00              (San Jose)    2009    engineering review of the          Ground Movement                        2007: 7
                                                                      potential for ground movement
                                                                      along 10 feet of pipe near
                                                                      Milpitas-Alviso Rd and Ranch Dr
                                                                      in San Jose. Based upon the
                                                                      results of this review, PG&E
                                                                      has determined that no repair,
                                                                      replacement or other action is
                                                                      warranted.
39(b)       DRIP 7970   Segment 651,                Santa Clar2007   PG&E completed an engineering     Physical Design &                 Complet2007: 7
                        Mile Points             (San Jose)            review of the physical design                     Characteristics
                         0.00-0.00                                    and characteristics of this 10             Overall
                                                                      foot pipeline segment located
                                                                      near Yerba Buena Rd in San
                                                                      Jose. Based upon the results of
                                                                      this review, PG&E determined
                                                                      that no repair, replacement or
                                                                      other action was warranted.
40          DRIP 7971   Segment 651,                Santa Clar2007   PG&E has completed an                 Potential for                 Complet2007: 1
                        Mile Points             (Milpitas)    2009    engineering review of the          Ground Movement                       2009: 17
                         0.00-0.00                                    potential for ground movement
                                                                      along 10 feet of pipe near
                                                                      Milpitas-Alviso Rd and Ranch Dr
                                                                      in Milpitas. Based upon the
                                                                      results of this review, PG&E
                                                                      has determined that no repair,
                                                                      replacement or other action is
                                                                      warranted.
41(a)             SP3   Segment 160.3,                    Cont2008ostReplace approximately 300 feet        Potential for      Engineering      2008: 48
                        Mile Points            (San Pablo)    2009    of pipe inside PG&E's San Pablo    Ground Movement                       2009: 41
                         198.49-198.49                                Station and crossing Rumrill
                                                                      Blvd in San Pablo due to the
                                                                      potential for ground movement.
                                                                      Construction is planned for
                                                                      2012. The small section of
                                                                      pipeline that includes this
                                                                      segment has been isolated
                                                                      (i.e., closed valves at both
                                                                      ends to prevent gas supply from
                                                                      reaching this segment) from the
                                                                      rest of PG&E's system, reducing
                                                                      its overall risk.
41(b)             SP3   Segment 160.36,                   Cont2008ostSee description for Map No.           Potential for      Engineering      2008: 56
                        Mile Points            (San Pablo)    2009    41(a).                             Ground Movement                    2009: 50/51/
                         198.49-198.49                                                                                                            52/53
41(c)             SP3   Segment 160.4,                    Cont2008ostSee description for Map No.           Potential for      Engineering      2008: 57
                        Mile Points            (San Pablo)    2009    41(a).                             Ground Movement                    2009: 50/51/
                         198.49-198.49                                                                                                            52/53
41(d)             SP3   Segment 160.5,                    Cont2008ostSee description for Map No.           Potential for      Engineering      2008: 58
                        Mile Points            (San Pablo)    2009    41(a).                             Ground Movement                    2009: 50/51/
                         198.49-198.52                                                                                                            52/53
41(e)             SP3   Segment 160.6,                    Cont2008ostSee description for Map No.           Potential for      Engineering      2008: 59
                        Mile Points            (San Pablo)    2009    41(a).                             Ground Movement                    2009: 50/51/
                         198.52-198.55                                                                                                            52/53
42(a)           X6337   Segment 100,                 Marin    2007   PG&E has completed an             Physical Design &                 Comple2007: 12
                        Mile Points               (Novato)    2009    engineering review of two 30-                     Characteristics       2009: 8/9
                         10.84-10.84                                  foot segments of pipe near                 Overall
                                                                      Redwood Blvd and Atherton Ave
                                                                      in Novato. Based upon the
                                                                      results of this review, PG&E
                                                                      has determined that no repair,
                                                                      replacement or other action is
                                                                      warranted.
42(b)           X6337   Segment 101,                 Marin    2007   See description for Map No.       Physical Design &                 Comple2007: 13
                        Mile Points               (Novato)    2009    42(a).                                            Characteristics       2009: 8/9
                         10.84-10.84                                                                             Overall
43              X6526   Segment 505,                 Kings    2009   PG&E has conducted an             Physical Design &                 Comple2009: 66
                        Mile Points            (Kettleman City)       engineering review of the                         Characteristics
                         0.24-0.24                                    design materials of about 9
                                                                      feet of pipe south of Kettleman
                                                                      City. Based upon the results of
                                                                      this review, PG&E has
                                                                      determined that no repair,
                                                                      replacement or other action is
                                                                      warranted.
44          DREG 4197   Segment 801,             San Mateo    2007   PG&E has completed an                       Overall                 Comple2007: 22
                        Mile Points       (East Palo Alto)    2008    engineering review of 18 feet                                            2008: 19
                         0.00-0.00                            2009    of pipe near Dumbarton Ave. and                                          2009: 95
                                                                      Donahoe St. in East Palo Alto.
                                                                      Based upon the results of this
                                                                      review, PG&E has determined
                                                                      that no repair, replacement or
                                                                      other action is warranted.
45(a)         7221-15   Segment 101,            Stanislaus    2007   PG&E has completed an              Overall Physical                 Complet2007: 3
                        Mile Points              (Modesto)    2008    engineering review of 6,709               Design &                       2008: 40
                         0.04-1.31                            2009    feet of pipe along Dale Rd                        Characteristics        2009: 96
                                                                      between Standiford Ave and
                                                                      Bangs Ave. Based on this
                                                                      review, PG&E determined that no
                                                                      repair, replacement or other
                                                                      action was warranted.
45(b)         7221-15   Segment 102.3,          Stanislaus    2007   See description for Map No.                 Overall                 Comple2007: 17
                        Mile Points              (Modesto)    2008    45(a).                                                                   2008: 32
                         1.44-1.51
46          DREG 3875   Segment 101,                 Marin    2009   PG&E has completed an                       Overall                 Comple2009: 98
                        Mile Points               (Novato)            engineering review of 285 feet
                         0.00-0.00                                    of pipe near Redwood Blvd and
                                                                      Atherton Ave in Novato. Based
                                                                      upon the results of this
                                                                      review, PG&E has determined
                                                                      that no repair, replacement or
                                                                      other action is warranted.
47          STUB 7912   Segment 551,            Stanislaus    2007   PG&E has completed an                       Overall                 Complet2007: 6
                        Mile Points              (Modesto)    2009    engineering review of 2 feet of                                         2009: 100
                         0.04-0.04                                    pipe near Dale Rd and Bangs Ave
                                                                      in Modesto as part of the
                                                                      effort described at Map No.
                                                                      45(a). Based on this review,
                                                                      PG&E determined that no repair,
                                                                      replacement or other action was
                                                                      warranted.
48(a)            L150   Segment 118.3,                Yolo    2008   PG&E plans to remove this                   Overall      Engineering      2008: 12
                        Mile Points                (Davis)            segment of pipe near Olive Dr.
                         17.51-17.89                                  and Richards Blvd. in Davis
                                                                      from transmission service by
                                                                      converting the pipe to a
                                                                      distribution main or retiring
                                                                      it. Construction to permanently
                                                                      remove this segment from
                                                                      transmission service currently
                                                                      is planned for 2011.
48(b)            L150   Segment 118.8,                Yolo    2007   See description for Map No.                 Overall      Engineering      2007: 25
                        Mile Points                (Davis)    2008    48(a).                                                                   2008: 10
                         18.08-18.09
48(c)            L150   Segment 119,                  Yolo    2007   See description for Map No.                 Overall      Engineering      2007: 15
                        Mile Points                (Davis)    2008    48(a).                                                                     2008:3
                         18.09-18.0913
49               L220   Segment 134.2,                Yolo    2007   This segment consists of 154                Overall                 Comple2007: 27
                        Mile Points                (Davis)            feet of pipe near Olive Dr in
                         22.14-22.17                                  Davis. This segment was
                                                                      assigned a lower risk value in
                                                                      2008 based upon improved
                                                                      external corrosion information,
                                                                      causing it not to appear on the
                                                                      2008 list. The risk value of
                                                                      the segment was lowered further
                                                                      in 2009 based upon improved
                                                                      geophysical information. No
                                                                      repair, replacement or other
                                                                      action is warranted.
50               L314   Segment 127,        San Bernardino    2008   PG&E inspected the coating            Potential for                 Comple2008: 74
                        Mile Points          (Victorville)            condition of this segment                         Corrosion
                         28.11-28.83                                  (4,446 feet of pipe through the
                                                                      rural area along N D St and Hwy
                                                                      15 in Victorville) in 2008 and
                                                                      reduced the external corrosion
                                                                      risk as a result of this
                                                                      inspection, causing it not to
                                                                      appear on the 2009 list.
51               L402   Segment 130,                Shasta    2008   The third-party damage risk           Potential for                 Comple2008: 43
                        Mile Points                                   assessment for this segment      Third Party Damage
                         24.00-25.00                                  increased in 2008 due to
                                                                      previous third-party damage to
                                                                      this segment. A subsequent
                                                                      engineering investigation
                                                                      concluded that this segment is
                                                                      not exposed to any elevated
                                                                      third party damage risk, that
                                                                      surface marking of the segment
                                                                      is adequate and therefore that
                                                                      no further action is warranted.
52            0126-01   Segment 101,                      Cont2007ostThis segment consists of 745          Potential for                 Comple2007: 73
                        Mile Points             (Richmond)            feet of pipe near W Gertude and                   Corrosion
                         0.00-0.1409                                  McKosken Rd in Richmond. Its
                                                                      potential for corrosion was
                                                                      reduced after PG&E determined
                                                                      that the segment lay in soil
                                                                      which was less corrosive than
                                                                      previously assessed and did not
                                                                      have an outer pipe casing. This
                                                                      reassessment caused the segment
                                                                      not to appear on the 2008 and
                                                                      2009 lists.
53              L057A   Segment 103,                      Cont2007ostPG&E conducted a survey of this       Potential for                 Comple2007: 80
                        Mile Points            (Brentwood)            pipeline segment near Fallman                     Corrosion
                         7.48-9.04                                    Rd near Brentwood to assess its
                                                                      potential susceptibility to
                                                                      external corrosion. Based upon
                                                                      the information obtained from
                                                                      that survey regarding the
                                                                      adequacy of the cathodic
                                                                      protection system and the
                                                                      pipeline coating condition,
                                                                      PG&E determined that no repair
                                                                      or replacement of this segment
                                                                      was warranted.
54            0603-01   Segment 101.2,              Solano    2008   PG&E conducted an investigation             Overall                 Comple2008: 16
                        Mile Points            (Fairfield)            of this segment of pipe through
                         0.005-0.20                                   the suburban area along
                                                                      Illinois St. in Fairfield.
                                                                      Based upon the results of this
                                                                      investigation, PG&E determined
                                                                      that no repair, replacement or
                                                                      other action was warranted.
55            0646-01   Segment 115.3,                Yolo    2008   This segment consists of 302          Potential for                 Comple2008: 98
                        Mile Points                                   feet of pipe in a rural area                      Corrosion
                         10.25-10.31                                  along County Rd 97A and Hwy 5
                                                                      near Woodland. PG&E improved
                                                                      the cathodic protection of this
                                                                      segment, reducing the external
                                                                      corrosion risk and causing it
                                                                      not to appear on the 2009 list.
56              L119A   Segment 109.7,                Yolo    2007   The third-party damage risk           Potential for                 Comple2007: 62
                        Mile Points      (West Sacramento)    2008    assessment for this segment      Third Party Damage                      2008: 72
                         8.57-8.58                                    increased in 2007 due to
                                                                      previous third-party damage to
                                                                      this segment. A subsequent
                                                                      engineering investigation
                                                                      concluded that this segment is
                                                                      not exposed to any elevated
                                                                      third party damage risk, that
                                                                      surface marking of the segment
                                                                      is adequate and therefore that
                                                                      no further action is warranted.
57(a)           L124B   Segment 123.5,                Yuba    2008   The external corrosion risk for       Potential for                 Comple2008: 76
                        Mile Points           (Marysville/            this segment was reduced based                    Corrosion
                         20.04-20.10           Olivehurst)            on an inspection of its coating
                                                                      condition, causing this segment
                                                                      not to appear on the 2009 list.
57(b)           L124B   Segment 125,                  Yuba    2008   See description for Map No.           Potential for                 Comple2008: 89
                        Mile Points           (Marysville/            57(a).                                            Corrosion
                         20.35-20.55           Olivehurst)
58(a)           L126B   Segment 103,              Humboldt    2007   The fault crossing in this area       Potential for                 Comple2007: 85
                        Mile Points               (Eureka)    2008    (16,197 feet of pipe near New      Ground Movement                      2008: 110
                         1.43-2.16                                    Tompkins Hill Rd. in Eureka)
                                                                      was assigned a lower risk value
                                                                      in 2009 based upon improved
                                                                      geophysical information,
                                                                      causing it not to appear on the
                                                                      2009 list.
58(b)           L126B   Segment 104,              Humboldt    2007   See description for Map No.           Potential for                 Comple2007: 83
                        Mile Points               (Eureka)    2008    58(a).                             Ground Movement                      2008: 102
                         2.17-2.73
58(c)           L126B   Segment 105,              Humboldt    2007   See description for Map No.           Potential for                 Comple2007: 48
                        Mile Points               (Eureka)    2008    58(a).                             Ground Movement                       2008: 55
                         2.73-4.00                                   The external corrosion risk for       Potential for
                                                                      this segment was reduced based                    Corrosion (2007)
                                                                      on inspection of its coating
                                                                      condition, causing this segment
                                                                      not to appear on the 2008 and
                                                                      2009 lists for potential for
                                                                      corrosion.
58(d)           L126B   Segment 106,              Humboldt    2007   See description for Map No.           Potential for                 Comple2007: 74
                        Mile Points               (Eureka)    2008    58(c).                             Ground Movement                       2008: 95
                         4.00-4.69                                                                         Potential for
                                                                                                                        Corrosion (2007)
58(e)           L126B   Segment 106.85,           Humboldt    2007   The external corrosion risk for                    Completed2007: 82
                        Mile Points               (Eureka)            segment 106.85 was reduced
                         4.70-4.71833                                 based on inspection of its
                                                                      coating condition, causing this
                                                                      segment not to appear on the
                                                                      2008 and 2009 lists.
                                                                     Potential for Corrosion
58(f)           L126B   Segment 107.6,            Humboldt    2007   See description for Map No.           Potential for                 Comple2007: 35
                        Mile Points               (Eureka)    2008    58(a).                             Ground Movement                       2008: 27
                         5.093-5.133
59            1301-01   Segment 124,                Sonoma    2008   The third-party damage risk                 Overall                 Comple2008: 18
                        Mile Point 0.00         (Petaluma)            assessment for this segment
                                                                      increased in 2008 due to
                                                                      previous third-party damage to
                                                                      this segment. This segment is
                                                                      now located inside a fenced
                                                                      PG&E station. A subsequent
                                                                      engineering investigation of
                                                                      this area confirmed that this
                                                                      segment is not exposed to any
                                                                      elevated third party damage
                                                                      risk and therefore that no
                                                                      further action was warranted.
60(a)            L138C  Segment 105.3,              Fresno    2008   PG&E conducted a survey of this       Potential for                 Comple2008: 52
                        Mile Points               (Fresno)            pipeline running along North                      Corrosion
                         44.72-44.81                                  and Cedar in Fresno for
                                                                      susceptibility to external
                                                                      corrosion. Based upon the
                                                                      information obtained from that
                                                                      survey regarding the adequacy
                                                                      of the cathodic protection
                                                                      system, PG&E determined that no
                                                                      repair, replacement or other
                                                                      action was warranted.
60(b)            L138C  Segment 105.6,              Fresno    2008   See description for Map No.           Potential for                 Comple2008: 64
                        Mile Points               (Fresno)            60(a).                                            Corrosion
                         44.81-44.90
61              L142S   Segment 116.3,                Kern    2007   This segment consists of 65 feet      Potential for                 Comple2007: 68
                        Mile Points          (Bakersfield)            of pipe along V St north of                       Corrosion
                         8.9927-9.01                                  Brundage Ln, in Bakersfield.
                                                                      The external corrosion risk for
                                                                      this segment was reduced based
                                                                      on inspection of its coating
                                                                      condition, causing the segment
                                                                      not to appear on the 2008 and
                                                                      2009 lists.
62              L162A   Segment 113.2,         San Joaquin    2007   This segment consists of 814                Overall                 Complet2007:26
                        Mile Points                (Tracy)    2008    feet of pipe near Grant Line                                              2008: 7
                         7.07-7.22                                    and Macarthur in Tracy. In
                                                                      2009, PG&E updated its system-
                                                                      wide risk assessment of certain
                                                                      properties relative to the
                                                                      external corrosion risk which
                                                                      reduced the relative risk for
                                                                      this segment, and the risk due
                                                                      to third party damage for this
                                                                      segment in particular was
                                                                      reduced due to an additional
                                                                      public information program.
                                                                      This segment does not appear on
                                                                      the 2009 list.
63              L177A   Segment 215.1,            Humboldt    2008   The fault crossing in this area       Potential for                 Comple2008: 28
                        Mile Points              (Fortuna)            (2,251 feet of pipe near Hwy 36    Ground Movement
                         170.57-171.00                                and Hwy 101 near Fortuna) was
                                                                      assigned a lower risk value in
                                                                      2009 based upon improved
                                                                      geophysical information,
                                                                      causing it not to appear on the
                                                                      2009 list.
64(a)           L181B   Segment 104.6,            Monterey    2007   The third-party damage risk           Potential for                 Comple2007: 67
                        Mile Points                           2008    assessment for this segment      Third Party Damage                      2008: 88
                         2.17-2.18                                    increased in 2007 due to
                                                                      previous third-party damage to
                                                                      this segment. A subsequent
                                                                      engineering investigation
                                                                      concluded that this segment is
                                                                      not exposed to any elevated
                                                                      third party damage risk, that
                                                                      surface marking of the segment
                                                                      is adequate and therefore that
                                                                      no further action is warranted.
64 (b)          L181B   Segment 104.8,            Monterey    2007   See description for Map No.           Potential for                 Comple2007: 66
                        Mile Points                           2008    64(a).                           Third Party Damage                      2008: 80
                         2.18-2.21
65              L197B   Segment 105,           San Joaquin    2008   The third-party damage risk           Potential for                 Complet2008: 5
                        Mile Points                                   assessment for this segment      Third Party Damage
                         4.14-4.40                                    increased in 2008 due to                   Overall
                                                                      previous damage on a pipeline
                                                                      near this location. A
                                                                      subsequent engineering
                                                                      investigation concluded that
                                                                      this segment is not exposed to
                                                                      any elevated third party damage
                                                                      risk, that surface marking of
                                                                      the segment is adequate and
                                                                      therefore that no further
                                                                      action is warranted.
66              L300A   Segment                     Santa Clar2008   This segment consists of 4,780        Potential for                 Comple2008: 73
                         369.051,         (Morgan Hill/San            feet of pipe near Foothill Rd.   Third Party Damage
                        Mile Points                Martin)            and Maple Rd. in Morgan Hill
                         473.09-473.99                                and San Martin. The risk of
                                                                      third- party damage was reduced
                                                                      based on analysis of the depth
                                                                      of cover over this segment,
                                                                      which found the cover to be
                                                                      adequate.
67(a)           L300B   Segment 336.0,              Fresno    2007   This segment is located near          Potential for                 Comple2007: 70
                        Mile Points                                   Gale Ave. and S. Butte Rd. near                   Corrosion
                         362.7061-362.7                               Coalinga. In 2007, PG&E
                         087                                          conducted a survey of these
                                                                      pipeline segments to assess
                                                                      their potential susceptibility
                                                                      to external corrosion. Based
                                                                      upon the information obtained
                                                                      from that survey regarding the
                                                                      functioning of the cathodic
                                                                      protection system and the
                                                                      pipeline coating condition,
                                                                      PG&E determined that no repair
                                                                      or replacement of these
                                                                      segments was warranted.
67(b)           L300B   Segment 336.5,              Fresno    2007   See description for Map No.           Potential for                 Complet2007:63
                        Mile Points                                   67(a).                                            Corrosion
                         362.8785-362.8
                         83
67(c)           L300B   Segment 336.9,              Fresno    2008   This segment consists of 69 feet      Potential for                 Comple2008: 70
                        Mile Points                                   of pipe near Gale Ave. and S.                     Corrosion
                         362.89-362.90                                Butte Rd near Coalinga. In
                                                                      2007, PG&E conducted a survey
                                                                      of pipeline segments in this
                                                                      area to assess their potential
                                                                      susceptibility to external
                                                                      corrosion. Based upon the
                                                                      information obtained from that
                                                                      survey regarding the
                                                                      functioning of the cathodic
                                                                      protection system and the
                                                                      pipeline coating condition,
                                                                      PG&E determined that no repair
                                                                      or replacement of these
                                                                      segments was warranted.
68              L302W   Segment 107.5,                Yolo    2008   This segment consists of 594          Potential for        Initiated      2008: 71
                        Mile Points                                   feet of pipe near Hwy 5 and                       Corrosion
                         5.01-5.13                                    Road 2A, north of Woodland.
                                                                      PG&E plans to complete an
                                                                      assessment of an adjacent
                                                                      segment for susceptibility to
                                                                      external corrosion in 2011.
                                                                      Based on this assessment, PG&E
                                                                      will determine whether any
                                                                      repair, replacement, or other
                                                                      action is warranted.
69          DREG 4102   Segment 801,                  Yolo    2007   PG&E conducted an engineering      Overall Physical                 Complet2007: 2
                        Mile Points                (Davis)    2008    review of this pipeline segment           Design &                        2008: 8
                         0.00-0.02                                    located near 2nd St in Davis.                     Characteristics
                                                                      Based upon the results of this              (2007)
                                                                      review, PG&E determined that no
                                                                      repair, replacement or other
                                                                      action was warranted.
70(a)       Stub 8484   Segment 301,               Alameda    2007   PG&E conducted an engineering               Overall                 Comple2007: 10
                        Mile Points                (Union City)       review in 2008 of this 2 foot
                         0.0034-0.0042                                segment located near Alvarado-
                                                                      Niles Rd & Decoto Rd in Union
                                                                      City. Based on review of pipe
                                                                      characteristics, this segment
                                                                      does not appear on the 2008 and
                                                                      2009 lists.
70(b)       Stub 8485   Segment 301,               Alameda    2007   PG&E has conducted an                       Overall                 Comple2007: 11
                        Mile Points                (Union City2008    engineering review of this                                               2008: 13
                         0.00-0.002                                   pipeline segment located near
                                                                      Alvarado Niles Rd & Decoto Rd
                                                                      in Union City. Based on review
                                                                      of pipe characteristics, this
                                                                      segment does not appear on the
                                                                      2009 list.
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ This segment number is referred to as segment number 137.08 in the 2007 Top 100 list.
\2\ In 2007, a portion of segment 130 was identified as segment 129.6. In 2008, that portion was renamed as segment 130.
\3\ In 2007, segment 130.11 was identified as segment 129.6. In 2008, it was renamed as segment 130.11.

                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                              Rick Kessler
    Question 1. As you mention in your written testimony, some in 
industry are calling for a risk based approach to pipeline safety 
rather than being required to perform routine inspections every 5 years 
for pipelines carrying liquid fuel and every 7 years for pipelines 
carrying natural gas. What do you believe are the potential risks in 
taking a risk-based approach to natural gas pipeline safety?
    Answer. Since nearly the time integrity management was passed for 
natural gas transmission pipelines as part of the Pipeline Safety 
Improvement Act of 2002 some within the natural gas industry have 
lobbied for a relaxation of the 7-year re-inspection interval that 
Congress set. The Pipeline Safety Trust continues to support the 
statutory minimum re-inspection periods currently in law and opposes 
any relaxation of these re-inspection intervals in favor of a more 
risk-based approach for the following reasons:

        1. The baseline inspection period has not even been reached 
        yet, and we believe that it is necessary to go through several 
        re-inspections to determine whether the system is actually 
        working and if it makes sense to change the re-inspection 
        interval. Some companies have not even completed one round of 
        inspections yet. During the first round, many anomalies with 
        the pipelines were identified and repaired. The early data also 
        clearly indicate that there have been problems determining the 
        correct risks to be looking for and then using the correct 
        tools and assessment methods to Inspect for those risks. it may 
        take three or four rounds of re-inspections before all these 
        early lessons are learned, and before these lessons are learned 
        we should not risk the public's safety. Subsequent rounds of 
        inspections should also tell us how quickly new anomalies 
        appear and at what rates they are growing. Without that 
        information from ongoing re-inspections it is too early to 
        propose changing the re-inspection interval.

        2. A segment of the industry also argues that instead of a 
        standard re-inspection interval that would allow all companies' 
        results to be compared, each company, based on its own internal 
        findings, should be allowed to design its own re-inspection 
        program for each individual segment of its pipelines. This 
        engineered, risk-based approach places much of the authority to 
        draft the inspection requirements with each company. PHMSA 
        clearly does not have the extensive resources necessary to 
        review each program to ensure it is no less protective than the 
        current respective five or seven-year re-inspection intervals 
        and we doubt that pipeline companies would support the 
        additional, significant increases in user fees necessary for 
        PHMSA to attain such resources and maintain them as pipeline 
        mileage expands. This proposed system also includes no way for 
        the public to review and comment on the proposed engineered, 
        risk-based re-inspection proposals and thus removes another 
        public safety backstop.

        3. There is also increasing mileage of large high-pressure 
        natural gas pipelines in areas with very high-density 
        populations. The consequences if one of these pipelines should 
        fail in such an area would dwarf the event that occurred in San 
        Bruno on a relatively low-pressure line. Rather than relax 
        inspection requirements, PHMSA should reassess the safety 
        protocols in place to ensure that it is impossible for a 
        pipeline to fall in such an area from any cause that Is within 
        the operator's controls (corrosion, materials, operation, 
        maintenance, inspections, etc.).

    This year alone there have been major failures (San Bruno, 
Marshall, Salt Lake City) on pipelines that are required to be doing 
integrity management programs. This alone shows that it would be 
irresponsible to even consider allowing companies to expand the 
interval between inspections. For these reasons, we continue to oppose 
any change to the re-inspection intervals for transmission pipelines.

    Question 2. In Washington State, there were 19 significant 
incidents of pipeline failure reported over the past decade. PHSMA 
considers a significant incident as one reported by pipeline operators 
when any of the following conditions are met: (1) fatality or injury 
requiring in-patient hospitalization; (2) $50,000 or more in total 
costs, measured in 1984 dollars; (3) highly volatile liquid releases of 
5 barrels or more or other liquid releases of 50 barrels or more; or 
(4) liquid releases resulting in an unintentional fire or explosion. Do 
you believe the thresholds that PHSMA uses in its definition of 
significant incidents are reasonable?
    Answer. We believe for the data to be of value in assessing 
progress being made toward greater safety the definitions for what is 
reported needs to be consistent, or at least ensure that same type of 
data can be gathered from what is submitted. Since it is hard to update 
historical reports, it is important that all reports made on into the 
future have the same information for comparison purposes.
    That being said, the more incident data that is available the 
better the quality of our understanding of what safety issues really 
are, and where greater pipeline safety emphasis needs to be focused. 
The two criteria that we think could be tightened are the requirements 
that only injuries that require ``in-patient hospitalization'' and the 
$50,000 threshold for property damage be included in the significant 
incident database.
    In these days of cost control on health care, many significant 
injuries can occur that do not require hospitalization. We think a more 
inclusive measure would be anytime a pipeline incident occurs that 
causes a person who is not an employee of a pipeline company to seek 
medical attention that incident should be reported.
    The $50,000 property damage threshold also leads to a significant 
underreporting of incidents, especially incidents on natural gas 
distribution systems where even the current limited data shows the 
majority of deaths and injuries occur. With tens of thousands of 
incidents on distribution systems falling to be reported at the same 
time millions of dollars are being spent on damage prevention programs, 
better incident data collection could almost certainly lead to a better 
understanding of integrity management needs and better targeting of 
program expenditures.

    Question 3. Does PHSMA receive information from pipeline operators 
on all pipeline incidents? If not, should they? Do state commissions 
collect that information? And if so, what are the essential data fields 
required so that the process can be made quick and easy for the 
pipeline operator but still provide useful information for PHSMA?
    Answer. We would define an incident as any time a pipeline fails, 
leaks to the point that it requires repair (some natural gas pipelines 
leak in ways that do not require repairs), or is damaged in a manner 
that may lead to a failure or leak in the future. Certainly neither 
PHMSA, nor any state regulators we are aware of, require reporting of 
all these types of incidents. PHMSA just completed a rulemaking on 
reporting requirements that helps clarify and expand many of the data 
fields. We support these new requirements, but believe expansion of the 
criteria for reporting as outlined above would provide even better data 
for decisionmaking and trend tracking.

    Question 4. Do you have any sense of the proportion of all 
incidents that are considered significant incidents?
    Answer. Based on data reviewed from the Common Ground Alliance, the 
Texas Railroad Commission and recent statements from PHMSA that they 
are aware of as many as 90,000 incidents/year that are not included in 
their database, it is clear that less than 1 percent of all pipeline 
incidents are currently included within the significant incident 
definition.

    Question 5. Nationally, the top three causes of pipeline failures 
are excavation damage, corrosion, and material/weld/ equipment failure. 
Do you believe that Washington state's ``Call before you dig'' law has 
contributed to the reduction of all incidents of pipeline failures due 
to excavation damage in the state over the past decade? Are there 
things that can be done to strengthen the current state law?
    Answer. Washington State's current ``Dig Law'' is very weak and 
does little to reduce the number of incidents caused by excavation 
damage. The main weaknesses in the current law include the lack of any 
agency with administrative authority over the law, no legitimate 
enforcement authority, and no requirement for reporting excavation 
incidents so education and enforcement can be targeted, and 
effectiveness and progress can be measured.
    The Washington Utilities and Transportation Commission has 
certainly recognized these weaknesses and has tried over the past 10 
years to increase enforcement and effectiveness, but until these 
weaknesses are fixed by the state legislature progress will be nearly 
impossible. Luckily, PHMSA's recent push to require states to increase 
the effectiveness of their excavation damage prevention programs has 
caused a multi-stakeholder group in Washington State to work together 
to draft a much improved version of the State's Dig Law. It appears 
this proposed draft will be introduced in the state legislature this 
coming session. Any support the state's Congressional Delegation can 
provide to help ensure the passage of this bill would certainly help 
increase pipeline safety throughout the state.

    Question 6. Which states do you believe have the most effective 
programs for promoting pipeline safety?
    Answer. We have not undertaken any sort of comparison of the 
different states' regulatory programs so our answer to this question is 
not based on any real analysis. It also should be noted that state 
program's effectiveness varies a good deal depending on which parts of 
the program is being looked at. For example, Washington State's 
program, overseen by the Washington Utilities and Transportation 
Commission, is very good for inspections, enforcement, transparency, 
and citizen involvement, but the state's damage prevention program is 
poor because of the reason noted above.
    Other states that seem to do an overall good job are Virginia, 
Minnesota, and New York.

    Question 7. Do you believe PHSMA has adequate resources in-house to 
develop all of the standards associated with pipeline safety? What are 
the dangers for PHSMA to rely on industry developed standards for 
minimum Federal pipeline safety regulations?
    Answer. PHMSA has incorporated by reference into its regulations 
standards, or parts of standards, developed by organizations made up in 
whole or in part of industry representatives. A review of the Code of 
Federal Regulations under which PHMSA operates finds the following 
numbers of incorporated standards:

                        Standards Incorporated by Reference in 49 CFR Parts 192, 193, 195
                                                (As of 6/9/2010)
----------------------------------------------------------------------------------------------------------------
       CFR Part                                       Topic                                      Standards*
----------------------------------------------------------------------------------------------------------------
             192                                               Natural and Other Gas                     39
----------------------------------------------------------------------------------------------------------------
             193                                               Liquefied Natural Gas                      8
----------------------------------------------------------------------------------------------------------------
             195                                                   Hazardous Liquids                     38
----------------------------------------------------------------------------------------------------------------
                                                                                                   Total 85
----------------------------------------------------------------------------------------------------------------
* Note: Some standards may be incorporated by reference in more than one CFR Part.

    Those standards were developed by the following organizations: 
American Gas Association (AGA), American Petroleum Institute (API), 
American Society for Testing and Materials (ASTM), American Society of 
Civil Engineers (ASCE), ASME International (ASME), Gas Technology 
Institute (GTI), Manufacturers Standardization Society of the Valve and 
Fittings Industry, Inc. (MSS), NACE International (NACE), National Fire 
Protection Association (NFPA), Pipeline Research Council International, 
Inc. (PRCI), Plastics Pipe Institute, Inc. (PPI)
    While the Pipeline Safety Trust has not done an extensive review of 
these organizations or their standard setting practices, It is of great 
concern to us--and we believe it should be to Congress as well--
whenever an organization whose mission is to represent the regulated 
Industry is--in essence--writing regulations that the dues-paying 
members of the organization must follow. A very quick review of the 
mission statements of some of these organizations reveals statements 
like these below that show, at a minimum, a conflict between the best 
possible regulations for the entire public and the economic interests 
of the industry they represent.

        API--``We speak for the oil and natural gas industry to the 
        public, Congress and the executive branch, state governments 
        and the media. We negotiate with regulatory agencies, represent 
        the industry in legal proceedings, participate in coalitions 
        and work in partnership with other associations to achieve our 
        members' public policy goals.''

        AGA--``Focuses on the advocacy of natural gas issues that are 
        priorities for the membership and that are achievable in a 
        cost-effective way.'' ``Delivers measurable value to AGA 
        members.''

        PPI--``PPI members share a common interest in broadening 
        awareness and creating opportunities that expand market share 
        and extend the use of plastics pipe in all its many 
        applications.'' ``the mission of The Plastics Pipe Institute is 
        to make plastics the material of choice for all piping 
        applications.''

        PRCI--``PRCI is a community of the world's leading pipeline 
        companies, and the vendors, service providers, equipment 
        manufacturers, and other organizations supporting our 
        industry.''

    The pipeline industry has considerable knowledge and expertise that 
needs to be tapped into to draft standards that are technically correct 
and that can be implemented efficiently. But we also know the 
industry's standard setting practices exclude experts and stakeholders 
who can bring a broader ``public good'' view to standard setting. We 
also know that when a regulatory agency needs to adopt industry-
developed standards, it is a ``red flag'' that the agency lacks the 
resources and expertise to develop these standards on Its own.
    It should be noted that the development of such standards Is not an 
open process where Interested members of the public or experts outside 
the industry (such as those in universities and colleges) can review 
the material and comment. One of the most ridiculous examples of this 
one-sided process was the development of the Public Awareness standard 
(API RP 1162) which now governs how pipeline companies have to 
communicate with the affected public. The process was controlled by 
industry, even though industry has no particular expertise in this type 
of public awareness or communication. The many possible independent 
experts and organizations in the field of communications and education 
were not sought and ultimately were not a part of the development of 
this standard.
    Even once the standards are incorporated by reference into Federal 
regulations, the standards remain the property of the standard setting 
organization and are not provided by PHMSA in their published 
regulations. If the public, state regulators, or academic institutions 
want to review the standards they have to purchase a copy from the 
organization that drafted them. In many cases, this further removes 
review of the standards from those outside of the industry. Below are 
just a handful of examples of the cost to purchase for review the 
standards that are part of the Federal pipeline regulations. The 
American Petroleum Institute has started to change this policy of 
charging for their standards and now makes safety standards available 
for viewing (but not downloading) online, but the others still have not 
to our knowledge.

           Sample Cost of Pipeline Safety Standards Incorporated by Reference Into Federal Regulations
                                                (As of 6/8/2010)
----------------------------------------------------------------------------------------------------------------
                                                                  Code of Federal Regulations
                Standard                      Organization        (Incorporated by Reference)          Cost
----------------------------------------------------------------------------------------------------------------
            ANSI/API Spec 5L/ISO 3183                  API                                49 CFR  192$245.00192.112, 
      ``Specification for Line Pipe''                                      192.113,  195.106
----------------------------------------------------------------------------------------------------------------
          ASME B31.4 -2002 ``Pipeline                 ASME                                49 CFR  195$129.00
     Transportation Systems for Liquid
      Hydrocarbons and Other Liquids''
----------------------------------------------------------------------------------------------------------------
       GRI 02/0057 (2002) ``Internal Corrosion         GTI                                49 CFR  192$295.00
 Direct Assessment of Gas Transmission
               Pipelines Methodology''
----------------------------------------------------------------------------------------------------------------
                                   NACE Standard RP0502-NACE ``Pipeline                   49 CFR  192.$83.00 192.925, 
                             External Corrosion Direct Assessme192.931,  192.935,  192.939, 
                         Methodology''                                                195.588
----------------------------------------------------------------------------------------------------------------
                        ``A Modified Criterion for EvaluPRCIg                             49 CFR  192$995.00 192.485, 
            the Remaining Strength of Corroded                                        195.452
                                Pipe''
----------------------------------------------------------------------------------------------------------------

    We do not believe that PHMSA currently has the resources in-house 
to handle the development and updating of all these standards. We do 
not have the solution to this problem, and it is a problem with much 
broader bounds than just PHMSA, but at a minimum PHMSA should be able 
to choose what organization develops a standard, set the parameters for 
the standard, ensure broad stakeholder involvement (by funding state 
and outside participation if necessary), and ensure complete 
transparency of the process and product.

    Question 8. You advocated to the Whatcom County Planning Commission 
that they should amend the county zoning code so that no construction 
of schools, hospitals, police, or fire facilities, stadiums or other 
``high-consequence'' uses would be allowed within 500 feet of the 
pipelines. Additionally, you raised the idea of a 660 foot 
``consultation zone'' on either side of a pipeline. Locally, what has 
been the reaction to these ideas? Have other communities within 
Washington or in other states shown interest in these ideas? As you 
know, Enbridge's Olympic Pipeline runs down the I5 Corridor, which is 
heavily populated by both residential and commercial enterprises.
    Answer. After some minor changes to our proposed modifications to 
Whatcom County's land use regulations to ensure greater safety when 
development occurs near transmission pipelines, the County Planning 
Commission and the County Council adopted the proposal in July and it 
is now part of the Whatcom County Code. We received unanimous support 
for our proposal from the pipeline companies that operate in the county 
as well as the Washington Utilities and Transportation Commission 
(WUTC). There were some initial concerns raised by individuals 
concerned about protecting their property rights and values with the 
idea of the ``consultation zone.'' Those concerns for the most part 
went away once the idea of the consultation zone was fully understood 
and people realized that it did not change what they could do on their 
property it just ensured good communication with the pipeline company 
to make sure that both the pipeline and the neighborhood was protected.
    To our knowledge four communities in Washington State (city of 
Redmond, City of La Center, Benton County, Whatcom County) have adopted 
land use rules better defining how development can occur near 
transmission pipelines. Every one of these ordinances is slightly 
different reflecting local concerns, but they all share the common goal 
of increasing public safety. Those four ordinances, along with four 
from other states, can be found on the Washington Municipal Research 
and Services Center (MRSC) website at: http://www.mrsc.org/Subjects/
PubSafe/transpipeords.aspx.
    PHMSA is supposed to release the Pipelines and Informed Planning 
Alliance's (PIPA) report on these types of issues any day now. 
Washington State has been out in front of the effort for some time now 
because of a coalition made up of the WUTC, the Association of 
Washington Cities, The Washington State Association of Counties, the 
pipeline industry, and the Pipeline Safety Trust. Presentations have 
been made to local government planners and elected officials across the 
state, and technical assistance is available to those jurisdictions 
that want to move forward on ordinances to increase safety around 
pipelines. The MRSC has an entire website devoted to these planning 
near pipeline issues, which can be found at: http://www.mrsc.org/
Subjects/PubSafe/transpipes.aspx.
    This type of coordinated effort is what will be needed across the 
country once PHMSA releases the PIPA report. Unfortunately, it does not 
appear that PHMSA has the resources to spearhead such a national effort 
to inform local governments about their options, so we have asked that 
as part of reauthorization money be made available to PHMSA to 
specifically address this need.

                                  <all>

</pre></body></html>
